<html>
<title> - PROMOTING AMERICAN COMPETITIVENESS: FILLING JOBS TODAY AND TRAINING WORKERS FOR TOMORROW</title>
<body><pre>[Senate Hearing 112-678]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-678

                  PROMOTING AMERICAN COMPETITIVENESS:
          FILLING JOBS TODAY AND TRAINING WORKERS FOR TOMORROW

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON COMPETITIVENESS, INNOVATION, AND EXPORT PROMOTION

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 17, 2012

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                  U.S. GOVERNMENT PRINTING OFFICE

77-859 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           ROY BLUNT, Missouri
AMY KLOBUCHAR, Minnesota             JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                PATRICK J. TOOMEY, Pennsylvania
MARK WARNER, Virginia                MARCO RUBIO, Florida
MARK BEGICH, Alaska                  KELLY AYOTTE, New Hampshire
                                     DEAN HELLER, Nevada
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                     John Williams, General Counsel
             Richard M. Russell, Republican Staff Director
           Jarrod Thompson, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

   SUBCOMMITTEE ON COMPETITIVENESS, INNOVATION, AND EXPORT PROMOTION

AMY KLOBUCHAR, Minnesota, Chairman   ROY BLUNT, Missouri, Ranking
JOHN F. KERRY, Massachusetts         JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
MARK PRYOR, Arkansas                 JOHN BOOZMAN, Arkansas
TOM UDALL, New Mexico                KELLY AYOTTE, New Hampshire
MARK WARNER, Virginia                DEAN HELLER, Nevada
MARK BEGICH, Alaska














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 17, 2012...................................     1
Statement of Senator Klobuchar...................................     1
    Prepared statement of Steven J. Rosenstone, Chancellor, 
      Minnesota State College and Universities submitted by Hon. 
      Amy Klobuchar..............................................    31
Statement of Senator Blunt.......................................     2
    Prepared statement...........................................     2
Statement of Senator Warner......................................     3
    Prepared statement...........................................     4
Statement of Senator Ayotte......................................    24

                               Witnesses

Roger D. Kilmer, Director, Hollings Manufacturing Extension 
  Partnership, National Institute of Standards and Technology, 
  U.S. Department of Commerce....................................     5
    Prepared statement...........................................     7
Jane Oates, Assistant Secretary, Employment and Training 
  Administration, U.S. Department of Labor.......................    10
    Prepared statement...........................................    12
Hon. Martha Kanter, Under Secretary, U.S. Department of Education    16
    Prepared statement...........................................    19
Robert H. Kill, President and CEO, Enterprise Minnesota..........    36
    Prepared statement...........................................    37
Don Nissanka, President and CEO, Exergonix Inc...................    39
    Prepared statement...........................................    40
Lee Lambert, President, Shoreline Community College..............    44
    Prepared statement...........................................    45
Monica Pfarr, Corporate Director, Workforce Development, American 
  Welding Society................................................    52
    Prepared statement...........................................    54
Jennifer M. McNelly, President, The Manufacturing Institute......    59
    Prepared statement...........................................    61

                                Appendix

Response to written question submitted by Hon. Amy Klobuchar to 
  Hon. Martha Kanter.............................................    73

 
                  PROMOTING AMERICAN COMPETITIVENESS:
                    FILLING JOBS TODAY AND TRAINING
                          WORKERS FOR TOMORROW

                              ----------                              


                        TUESDAY, APRIL 17, 2012

                               U.S. Senate,
  Subcommittee on Competitiveness, Innovation, and 
                                  Export Promotion,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
Room SR-253, Russell Senate Office Building, Hon. Amy 
Klobuchar, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Good morning. I want to thank all the 
witnesses and guests for being here for this important 
discussion about workforce competitiveness.
    Senator Blunt is Ranking Republican and has worked hard on 
these issues as well. So we're excited to have this hearing, 
and we're glad Senator Warner is here as well.
    We're going to be examining the role that training programs 
play in ensuring a highly-skilled workforce. And we'll be 
looking into the potential for building partnerships between 
government, industry, and the education community as a way of 
responding to the needs of both workers and employers.
    I've certainly seen this in my state. I was at Dunwoody 
Technical Institute which has one and two-year degrees 
preparing students for technical jobs. And others--they are 
doing great things. Their Automotive Technician Apprenticeship 
Program has 100 percent placement rate. I've seen other 
programs throughout my state community colleges with 96 percent 
placement rates--Alexandria Tech in western Minnesota. So we've 
seen this all over the place.
    And part of the issue we're seeing--which in some ways is a 
good problem to have as we see some stability and improvement 
in the economy--though we're not where we want to be--we're 
starting to see job openings. In my state, we are down to 5.7 
percent unemployment. So we are really feeling it, particularly 
in the areas of things like welding, tool and die, computer 
skills, technical jobs.
    And as I tell high school students these days, this is no 
longer your grandpa's vo-tech. These kids are learning skills 
that run computers that run major assembly lines. And many of 
them then go back after getting a two-year degree to get other 
degrees and go on from there.
    And so I see this as an exciting possibility for our 
country as the only way we're going to be able to compete on 
the international stage against companies and countries that 
are ramping up their technical training. We have to be doing 
the same, starting with science, technology, engineering, and 
math classes in the K through 12 area and then going on from 
there.
    I have a bill with Senator Scott Brown and others--I know 
Senator Warner is on the bill--that doubles the STEM schools in 
this country and also looks at making it easier for companies 
to donate equipment to these types of programs in the post-
secondary area.
    We have with us today Bob Kill. He's the CEO of Enterprise 
Minnesota, a non-profit organization that represents small and 
midsize businesses in our state. This year, in the Annual Poll 
of Businesses by Enterprise Minnesota, nearly 6 out of 10 
respondents said it was a challenge for them to attract workers 
with the skills that they need to fill the job. And that is 
what I'm hearing anecdotally throughout our state.
    Part of this is also--I mentioned the high school level--is 
looking at how we can better integrate--and I look forward to 
hearing this--our community colleges with our high school 
programs, because we have--Secretary Duncan came out to 
Minnesota. Irondale High School in Minnesota is now directly 
working with the community college, and these kids are actually 
getting those degrees in high school. We're seeing that in 
other parts of the state as well.
    So I am looking forward to hearing from our witnesses, and 
I'm going to turn it over to Senator Blunt for a few words and 
then Senator Warner.
    Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Chairman. Thanks for holding this 
hearing. I believe in the interest of hearing from the 
witnesses, I'll submit my statement for the record. And I 
appreciate your leadership of this subcommittee and 
particularly bringing attention to this issue.
    [The prepared statement of Senator Blunt follows:]

    Prepared Statement of Hon. Roy Blunt, U.S. Senator from Missouri
    Thank you, Chairwoman Klobuchar, for yielding me this time and, 
more importantly, for hosting this hearing on this really important 
topic. I'm looking forward to hearing from both of our panels today, 
and I would like to give an especially warm welcome to my fellow 
Missourian Don Nissanka, who will be on our second panel to offer us 
insight into current and future workforce and employment issues.
    For too many years, too many Americans have been telling us that 
they're struggling to find good quality, good paying, private sector 
jobs. Our panels today will have keen insights into a very important 
piece of that equation, which revolves around the structural barriers 
to training and maintaining a 21st Century workforce.
    Even with an unemployment rate higher than the historical average, 
there are a number of companies that are either ready to start hiring 
or currently have job openings they are unable to fill. Specifically, 
one recent estimate put the number of unfilled manufacturing jobs as 
high as 600,000. I know we have at least one or two panelists today who 
are going to talk about the workforce skills gap deficit and what it 
means to our current employment and productivity levels in the short 
and long terms. I'm looking forward to hearing from them.
    As we continue to compete in the global marketplace we cannot 
overlook the fact that jobs now follow talent. Countries with the 
strongest talent supply have a significant advantage in attracting and 
keeping jobs.
    We must look toward the future with an eye on instituting policies, 
and streamlining regulations, to create steady stream of talented, 
high-skilled workers. Building that talent supply depends, foremost, on 
education.
    According to a Georgetown University study, since 1973 the 
percentage of U.S. jobs that required post-secondary education rose 
from 28 percent to 59 percent. And they forecast that disparity to 
continue rising into the future. The authors stated that post-secondary 
education has become the gatekeeper to the middle class.
    This current and growing education gap is not limited to the number 
of college graduates we are producing, especially in the ever important 
math and science fields. It also reaches into sector-specific job 
training programs, such as apprenticeships, on which employers in the 
increasingly high-tech manufacturing sector rely.
    And the downstream effects of a robust, competitive and growing 
manufacturing sector have a multiplier effect which not only creates 
more jobs along the supply chain and distribution channels but is also 
our best avenue for innovation.
    I am looking forward to hearing from all of our panelists and 
delving in to these structural issues, so again, thank you Senator 
Klobuchar for holding this topical and important hearing.

    Senator Klobuchar. Thank you very much.
    Senator Warner.

               STATEMENT OF HON. MARK R. WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Madam Chair. I know I should 
follow Senator Blunt's lead, but I just can't help myself.
    [Laughter.]
    Senator Warner. I'm glad you brought--I will watch--boy, it 
went from 5 minutes to 3 minutes right away on the clock here 
all of a sudden.
    [Laughter.]
    Senator Warner. I'm glad to hear from the witnesses. I'm 
looking forward to hearing Secretary Oates. We had a chance to 
visit on another issue recently.
    I want to thank the Chair as well for her focus on this 
issue. I think it's terribly important. The Chair has had to 
listen to me many, many times talk about this and that when I 
used to have a real job being Governor. And we talked about a 
lot of the things we were able to get done.
    One of the areas that was the most frustrating as a 
governor was workforce training and--you know, had all these 
wonderful ideas about consolidation and efforts and found as I 
got into this the enormous challenges trying to consolidate all 
the various Federal programs. I think the GAO has said we've 
got 47 different Federal workforce training programs. This 
area, I think, is ripe for consolidation and more local and 
state flexibility, particularly to make sure that we're 
training for the jobs that exist in the community. And that 
means really having to have a strong partnership with 
businesses.
    And I've got a minute-40. I'll do this in less than that. 
The one area that we did make some progress in in Virginia, 
though, was taking those kids in high school who we had 
identified as probably not having--looking at going on to 
college, going to them in about that sophomore and junior year 
of high school and saying, ``If you will go ahead and graduate 
from our high school, meet our high standards, we'll guarantee 
you not only a high school diploma, but also an industry 
certification, because that becomes now the gating tool to a 
job going forward. And if you don't finish that industry 
certification by the time you graduate from high school, we'll 
give you a free semester at the community college.''
    Now, this didn't move us to a full K-13 apprenticeship 
program the way the Germans have, which is actually, I think, a 
fairly good model. But it did take to a K-12 1/2 system, and we 
were able, out of a cohort of about 78,000 graduating high 
school seniors, to move from 4,000 to 11,000 kids getting 
industry certification.
    So, you know, one small step in the right direction, and, 
again, something, whether it's in Missouri or whether it's in 
Minnesota--you know, this is an area that I think is ripe for 
new ideas and an area where we can clearly learn from the 
private sector. And I hope it's an area that we can work with 
our colleagues on the HELP Committee at looking at trying to do 
some consolidation, trying to get those 47 programs down to a 
more manageable number.
    So with 15 seconds left, I will go ahead and submit the 18-
minute opening statement I had for the record and thank again 
the Chair for her leadership on this issue.
    Senator Klobuchar. Are there any objections to that 
statement being included? There are not.
    [The prepared statement of Senator Warner follows:]

   Prepared Statement of Hon. Mark Warner, U.S. Senator from Virginia
    Chairman Klobuchar, thank you for holding this hearing. Before I 
was a Senator, I served as Governor of the Commonwealth of Virginia. In 
that capacity, I became well acquainted with the vital role a skilled 
and trained workforce plays in keeping not only Virginia, but also our 
Nation as a whole, competitive.
    As Governor, I recognized the need for a tighter organized, better 
coordinated workforce assistance apparatus. Before my tenure, workforce 
development efforts were scattered across a number of state agencies 
and administered by an inefficient Virginia Workforce Council.
    In response, I proposed--and worked closely with our Republican 
State Legislature to enact--legislation that reduced the size of the 
Workforce Council, shifted Virginia to a demand-driven workforce system 
guided by employer needs, and created better performance measures for 
the regional boards responsible for overseeing training programs 
throughout the state.
    To help jumpstart the economy of rural Virginia, I also developed 
the Virginia Works program. Through this program, we created Regional 
Workforce Consortium Grants, which funneled $2 million to employer-led 
consortiums that developed innovative programs to train the local 
workforce in the skills that employers needed at that moment in time, 
but also reflected employer needs over the next 5 years.
    For areas that were going through particularly rough economic 
times, we developed the Economic Crisis Strike Force, which established 
one-stop shops for workers to obtain assistance from a variety of 
government agencies and private sector groups.
    These one-stops were extremely successful, serving nearly 87,000 
clients and producing more than 1,713 job placements.
    It is my hope that the Federal government will one day be able to 
recreate Virginia's successes. As GAO has noted, there are 47 Federal 
programs that seek to address workforce training and many of the 
objectives and target populations of these programs have overlap. There 
are 21 workforce training programs at the U.S. Department of Labor 
alone. An additional 11 programs can be found at the U.S. Department of 
Education and 7 are located within the U.S. Department of Health and 
Human Services. The Departments of Interior, Agriculture, Defense, 
Justice, VA, and the Environmental Protection Agency all have at least 
one workforce training program. The strangest thing is that many of 
these programs seek to assist the same populations of Americans but we 
really do not have long term data which proves which programs provide 
the most value to participants or to taxpayers. Surely, we can do 
better than this in serving the needs of a diverse population of 
Americans.
    I know that some have expressed concerns about eliminating Federal 
workforce training programs because they are worried that these 
services will simply disappear. That is not my objective. However, I do 
believe that by consolidating programs we can eventually have more 
efficient and effective training programs that all Americans can 
utilize as needed. At a minimum, we should focus on reducing 
administrative costs and overlap between different Federal departments.
    If we do not address these important issues, then we risk 
continuing to fund an inefficient system which is not doing enough to 
train young people who need a pathway towards getting key industry 
certifications while they are still in school. Nor is our current 
patchwork of programs doing enough to meet the needs of adults who are 
already in the workforce and need to be able to develop new skills in 
order to get better jobs or to improve their lives. We have to make 
sure our programs work well because at the end of the day, the U.S. 
needs a well-trained, well educated workforce to stay competitive with 
other countries.
    This work was not easy to do in Virginia, and I am sure it will be 
a significant challenge for the Federal government to solve. But it's 
not something we can ignore much longer. Madam Chairwoman, I hope that 
this is an issue we can continue to work on with other Senators, 
particularly those on the Senate HELP Committee.
    Thank you.

    Senator Klobuchar. We will get started. I'll introduce our 
panelists.
    Mr. Kilmer, Mr. Roger Kilmer, is the Director of the 
Manufacturing Extension Partnership program at the Department 
of Commerce's National Institute of Standards and Technology, 
better known as NIST. Mr. Kilmer has been with the MEP program 
since 1993 and with NIST since 1974. He has extensive 
experience working with manufacturing and technology industries 
through the Department of Commerce.
    Ms. Jane Oates is the Assistant Secretary for Employment 
and Training at the Department of Labor. Ms. Oates directs the 
Employment and Training Administration which helps design and 
deliver high-quality training and employment programs for our 
Nation's workers.
    And then Ms. Martha Kanter is the Under Secretary of 
Education and directs the Office of Vocational and Adult 
Education at the Department of Education. She oversees 
policies, programs, and activities at the Department of 
Education related to post-secondary education, as well as adult 
and career technical education.
    So we'll start with Mr. Kilmer.

            STATEMENT OF ROGER D. KILMER, DIRECTOR,

         HOLLINGS MANUFACTURING EXTENSION PARTNERSHIP,

        NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY,

                  U.S. DEPARTMENT OF COMMERCE

    Mr. Kilmer. Thank you.
    Madam Chair Klobuchar, Ranking Member Blunt, and members of 
the Subcommittee, thank you for the opportunity to appear 
before you today to discuss the work the Hollings Manufacturing 
Extension Partnership, known as MEP, is doing to address the 
workforce training and skills required for jobs in advanced 
manufacturing.
    Manufacturing matters, Madam Chair. As the President has 
said, an economy built to last demands that we keep doing 
everything we can to keep strengthening American manufacturing. 
As the National Science and Technology Council's National 
Strategic Plan for Advanced Manufacturing states, while 
unskilled labor was once the mainstay of the manufacturing 
labor workforce, as advanced manufacturing supersedes 
traditional manufacturing and domestic manufacturers deepen 
their investment in advanced technologies, the skills required 
for manufacturing jobs are rising.
    Manufacturing employers perceive a skills gap. Sixty-seven 
percent of companies surveyed recently by an industry 
association reported moderate to serious shortages in the 
availability of qualified workers, even in a period of elevated 
general unemployment. The report further states that programs 
to address workforce should be targeted particularly toward the 
needs of small manufacturing enterprises, or SMEs, which are 
MEP's focus. As more advanced manufacturing technology is 
deployed, training becomes more expensive and difficult for 
companies, especially SMEs.
    MEP has been working to support U.S. workers in these SMEs 
for a number of years. In order to support the U.S. workforce, 
MEP is addressing what skills manufacturers need to perform the 
advanced manufacturing jobs of the future.
    Let me describe what MEP is doing to address these 
challenges. Since its inception in 1988, MEP has focused on 
solving American manufacturers' challenges and identifying 
opportunities for growth. MEP offers small manufacturers 
resources centered in five areas critical to their global 
competitiveness: technology acceleration, supplier development, 
sustainability, workforce, and continuous improvement.
    MEP addresses workforce development and training in 
multiple ways. For example, MEP works with manufacturers to 
adopt a culture of innovation and product development to help 
increase their competitiveness. MEP is working to create and 
retain jobs across the country through our partnerships with 
state and local Workforce Investment Boards, or WIBs.
    Examples of successes include the California MEP's 
collaboration with eight local WIBs. The MEP center and WIBs 
worked with over 125 manufacturers across southern California 
to help companies address these risks. Aggregated results 
reported included nearly 350 jobs created and over 1,800 jobs 
retained, nearly $60 million in increased sales and $50 million 
of sales retained.
    A joint training and employment notice issued by both MEP 
and DOL is scheduled to be released today, April 17, to 
describe how WIBs and MEP centers can continue to expand their 
collaborative partnerships. And, we will soon be issuing a 
joint solicitation for proposals to accelerate innovation and 
job creation in manufacturing.
    Additionally, MEP is a partner in workforce certifications, 
working with the NAM Manufacturing Institute, looking at how 
the standardization of workforce credentials can streamline the 
process of workforce training, recruitment, and hiring for 
small manufacturers, taking out some of the risks of finding 
workers for those manufacturing jobs. MEP also works with the 
American Association of Community Colleges to provide 
information and best practices in manufacturing training 
delivery and the development of curricula for today's advanced 
manufacturing jobs.
    To further support the workforce needs of America's smaller 
manufacturers, MEP created a workforce development model termed 
Strategic Management, Acquisition and Retention of Talent, 
known as SMART Talent, that encompasses both technology and a 
culture of learning within manufacturing operations. The MEP 
model is being developed with small manufacturers in mind, 
designed to address resource limitations and position workforce 
in a strategic framework for business.
    It is our intent to use SMART Talent to help companies 
think about workforce investments in exactly the same way they 
think about other operational investments. MEP centers are 
piloting the first module on recruitment and will deploy the 
SMART Talent recruitment module to the MEP system later this 
summer.
    MEP has created this model because we must focus on 
addressing the manufacturing workforce training challenges that 
can no longer be addressed with the standard training resources 
available. As MEP creates an environment of rapid manufacturing 
innovation, we must also create workforce strategies and tools 
specifically for small manufacturers that will support their 
adoption of sustainable, high-tech production.
    As we grow domestic industry, replace retiring workers, 
encourage exporting, and bring manufacturing back into the U.S. 
from abroad, we must ensure that we have the workforce 
manufacturers need with skills in sophisticated manufacturing 
processes, the kind of advanced manufacturing that MEP is 
supporting.
    Thank you again for the opportunity to testify today, and 
I'd be happy to answer any questions you might have.
    [The prepared statement of Mr. Kilmer follows:]

Prepared Statement of Roger D. Kilmer, Director, Hollings Manufacturing 
Extension Partnership, National Institute of Standards and Technology, 
                      U.S. Department of Commerce
    Madam Chair Klobuchar, Ranking Member Blunt and members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to discuss the work the Hollings Manufacturing Extension Partnership 
(MEP) is doing to address the workforce training and skills required 
for jobs in advanced manufacturing. MEP is part of the Department of 
Commerce's (DOC) National Institute of Standards and Technology (NIST).
    Advanced manufacturing--and the jobs it creates--are critical to 
advancing America's economy. After losing millions of manufacturing 
jobs in the previous decade, the United States (U.S.) manufacturing 
sector has added 458,000 jobs over the past 24 months, with 120,000 in 
the first three months of 2012 alone.\1\ Both U.S. and foreign-based 
manufacturers are increasingly choosing the U.S. as the next location 
to build manufacturing facilities, which will create even more jobs.
---------------------------------------------------------------------------
    \1\ Bureau of Labor Statistics, calculated from Employment, Hours, 
and Earnings database, April 6, 2012
---------------------------------------------------------------------------
    In his State of the Union address this year, the President made it 
clear that supporting American manufacturing will remain a top priority 
of the Administration. When the Secretary of Commerce set out his 
priorities this year, he was determined to harness the great potential 
of the Commerce Department in support of driving advanced 
manufacturing, exports and business investment. His stated goal as 
Secretary of Commerce is simple--``to help American businesses build it 
here and sell it everywhere.''
    As the National Science and Technology Council's February 2012 
National Strategic Plan for Advanced Manufacturing \2\ states, while 
unskilled labor was once the mainstay of the manufacturing labor force, 
as advanced manufacturing supersedes traditional manufacturing, and 
domestic manufacturers deepen their investment in advanced 
technologies, the skill requirements for manufacturing jobs are rising. 
Manufacturing employers perceive a skills gap: 67 percent of companies 
surveyed recently by an industry association reported moderate to 
serious shortages in the availability of qualified workers, even in a 
period of elevated general unemployment.\3\
---------------------------------------------------------------------------
    \2\ http://www.whitehouse.gov/sites/default/files/microsites/ostp/
iam_advancedmanufactur
ing_strategicplan_2012.pdf.
    \3\ Deloitte Consulting LLP, Manufacturing Institute (2011), 
Boiling Point? The skills gap in U.S. manufacturing.
---------------------------------------------------------------------------
    The report further states that programs to address workforce needs 
should be targeted particularly toward the workforce needs of Small 
Manufacturing Enterprises (SMEs). As more advanced manufacturing 
technology is deployed, on-the-job training becomes more expensive and 
difficult for companies to provide, especially SMEs.
    Additionally, the Conference Board's CEO Challenge 2012 \4\ survey 
ranked innovation first in the challenges faced by manufacturers, with 
human capital coming in second. However, manufacturers view the two as 
being intrinsically linked as they strive for innovation and growth. 
MEP has been working to support U.S. workers for a number of years and 
continues to support the Nation's small manufacturers' drive toward 
innovation through workforce development.
---------------------------------------------------------------------------
    \4\ https://www.conference-board.org/publications/
publicationdetail.cfm?publicationid=2152.
---------------------------------------------------------------------------
    In order to support the U.S. workforce, MEP is addressing what 
skills manufacturers need to perform the advanced manufacturing jobs of 
the future. A recent study from Boston College \5\ indicates that 
manufacturers are less likely than all other businesses to develop 
employee career plans, project and plan for pending retirements, 
develop succession plans, understand current competencies of their 
existing workforce, or anticipate new skill needs. This illustrates how 
important it is for an intermediary like MEP to work closely with 
manufacturers on these issues.
---------------------------------------------------------------------------
    \5\ Talent Pressures and the Aging Workforce: Responsive Action 
Steps for the Manufacturing Sector, The Sloan Center on Aging and Work 
at Boston College, 2009. http://www.bc.edu/research/agingandwork/.
---------------------------------------------------------------------------
    Let me describe what MEP is doing to address these challenges. 
MEP's vision is to strengthen American manufacturing--accelerating its 
ongoing transformation into a more efficient and powerful engine of 
innovation driving economic growth and job creation. Since its 
inception in 1988, MEP has focused, with its 60 centers and 1,300 field 
staff serving as trusted business advisors, on solving American 
manufacturers' challenges and identifying opportunities for growth. MEP 
offers small manufacturers a wealth of unique and effective resources 
centered on five areas critical to their global competitiveness: 
technology acceleration, supplier development, sustainability, 
workforce and continuous improvement. As a public/private partnership, 
MEP delivers a high return on investment for taxpayers. In Fiscal Year 
2010, MEP interacted with over 34,000 manufacturers and did project 
work with nearly 10,000 clients that resulted in more than $3.6 billion 
in new sales, $1.1 billion in cost savings, and the creation or 
retention of more than 52,000 jobs.\6\
---------------------------------------------------------------------------
    \6\ 2010/2011 Manufacturing Extension Partnership Impact Numbers 
www.nist.gov/mep/reports.cfm.
---------------------------------------------------------------------------
    Over the last several years, MEP has focused extensively on 
developing an integrated set of strategies and tools that manufacturers 
can use to strengthen their competitiveness. Since workers are a 
critical part of manufacturing's success, workforce development and 
training must be an integral component of these strategies. The changes 
wrought by technology, globalization and demographics have and will 
continue to radically change what manufacturing employees need to know 
and what manufacturers demand of them in order to innovate and maintain 
a competitive position. MEP addresses workforce development and 
training in multiple ways.
    For example, MEP works with manufacturers to adopt a culture of 
innovation and product development to help increase the competitiveness 
of U.S. manufacturing. Since January 2010, we have hosted 27 Innovation 
Engineering Leadership Institutes with a total of 3,581 attendees. 
During this three day training, we teach manufacturers and their key 
employees the importance of innovation and how to instill it into the 
culture of their company, so that every manufacturing employee is 
innovating in their job every day. We also expose them to the tools 
necessary to cycle new product ideas in quick, easy stages to minimize 
risk and maximize their return on investment. For calendar year 2012, 
we have already run five Innovation Engineering Leadership Institutes 
and will hold an additional 15.
    Another example is the Federal partnership initiative on the 
Economy, Energy, and Environment, or E3, which providing participating 
companies with customized assessments of their production processes, 
implementing projects that reduce energy consumption and increase 
productivity, and training workers in environmentally-friendly 
manufacturing practices.
    The Alabama Technology Network, or ATN, which is MEP's Alabama 
Center partnership, is providing sustainability training to firms 
participating in E3 with grants from the Alabama State Energy Sector 
Partnership and from the Department of Labor's American Recovery and 
Reinvestment Act High Growth and Emerging Industries initiative. This 
training includes lean and clean value stream mapping, energy 
efficiency best practices, environmental factors, and executive 
overviews for ISO 14001 environmental management standards. Thus far, 
over 100 people have been trained in sustainability practices, with a 
target of 500 trained by September of 2012.
    MEP is working to create and retain jobs across the country through 
our partnerships with state and local Workforce Investment Boards 
(WIBs). MEP Centers and WIBs make great partners in keeping people, 
businesses and economies working. Examples of successes between WIBs 
and MEP include the California Manufacturing Technology Center's 
collaboration with eight local WIBs in 2010 and 2011. The MEP center 
and WIBs worked with over 125 manufacturers across southern California 
to help companies address risks before these risks became acute. The 
work included a wide range of activities such as business strategy 
assistance, helping companies replace lost customers by pursuing new 
customers and new markets, assisting with the deployment of new 
technologies, and providing quality and process improvements. 
Aggregated results reported by the clients included nearly 350 jobs 
created and over 1,800 jobs retained, nearly $60 million of increased 
sales and nearly $50 million of sales retained. A joint Training and 
Employment Notice, issued by both MEP and the Department of Labor's 
Employment and Training Administration, is scheduled to be released 
today, April 17, to describe how WIBs and MEP centers can continue to 
expand their collaborative partnerships, and we will soon be issuing a 
joint solicitation for proposals, along with the Economic Development 
Administration, the Small Business Administration, the Department of 
Energy as well as the Department of Labor, for grants to accelerate 
innovation and job creation in American manufacturing. Additionally, 
MEP is a partner in workforce certifications, working with the 
Manufacturing Institute of the National Association of Manufacturers 
(NAM) to create awareness of the NAM-endorsed Manufacturing Skills 
Certification System and how the standardization of workforce 
credentials can streamline the process of workforce training, 
recruitment, and hiring for small manufacturers, taking out some of the 
risk of hiring workers for middle skill manufacturing jobs. MEP also 
works with the American Association of Community Colleges and their 
two-year college members to provide information and best practices in 
manufacturing training delivery and the development of curricula for 
today's advanced manufacturing jobs.
    To further support the workforce needs of America's smaller 
manufacturers, MEP is moving from an incremental approach in workforce 
development, to a full-scale one, with the creation of a workforce 
development model that encompasses both what we have termed Strategic 
Management, Acquisition and Retention of Talent known as SMARTalent 
technology and a culture of learning within manufacturing operations. 
The MEP model is being developed with the small manufacturer in mind--
designed to address resource limitations and position workforce in a 
strategic framework for business. It is our intent to use SMARTalent to 
help companies think about workforce investments in exactly the same 
way one thinks about investments in new production technologies or 
markets, and to gather data on workforce investments using analytics, 
just as manufacturers do for lean, quality and other investment 
calculations. This analysis will help define the true value of human 
capital by evaluating both tangible and intangible results such as 
reduced turnover, improved customer service, new product ideation, 
patents, shorter cycle times in problem-solving, and reduced liability 
costs, just to name a few, and to do so as an integrated part of an 
overall strategy for business growth. MEP centers are piloting the 
first module on recruitment to assess the functionality and value of 
our model. Once these assessments are completed, we will begin to 
deploy the SMARTalent recruitment module--an on-line tool to analyze 
the jobs needed to meet future needs for the manufacturers and skills 
required to fill those jobs--to the MEP system later this summer.
    MEP has created this model because we must focus on addressing the 
manufacturing workforce training requirements that can no longer be 
scaled up to the extent needed with the standard training resources 
available. As MEP creates an environment of rapid manufacturing 
innovation, we must also create workforce strategies and tools 
specifically for small manufacturers that will support their adoption 
of sustainable, high-tech production and increased exporting. As we 
grow domestic industry, replace retiring workers, encourage exporting, 
and bring manufacturing back into the U.S. from abroad, we must ensure 
that we have the workforce manufacturers need with skills in 
sophisticated manufacturing processes--the kind of advanced 
manufacturing that MEP is supporting.
    With the workforce strategies MEP has developed and tools such as 
SMARTalent, American manufacturing growth will be supported through its 
most unique asset--the workforce.
    In conclusion, the MEP approach is holistic, starting with a focus 
on the manufacturers, and then supporting manufacturers' growth through 
next generation strategies, technology and partnerships that can move 
them quickly from 20th century operations to 21st century success.
    Thank you again, for the opportunity to testify today, I would be 
happy to answer any questions you may have.

    Senator Klobuchar. Thank you.
    Ms. Oates.

         STATEMENT OF JANE OATES, ASSISTANT SECRETARY,

            EMPLOYMENT AND TRAINING ADMINISTRATION,

                    U.S. DEPARTMENT OF LABOR

    Ms. Oates. Thank you, Chairwoman Klobuchar and Ranking 
Member Blunt and Senator Warner, for inviting us here today and 
especially together. We really like being together, the three 
of us.
    The manufacturing sector alone has created 470,000 jobs 
since January of 2010. According to BLS, a number of subsectors 
within the manufacturing industry are projected to be among the 
top 10 fastest growing industry sectors over the next decade.
    The public workforce system plays a leadership role in 
developing training programs that meet employer needs for 
skilled workers. Through the Workforce Investment Act, the 
Department provides extensive reemployment assistance to 
vulnerable populations disproportionately impacted by economic 
downturns as well as those individuals who were in middle or 
high-skill jobs and are now unemployed.
    Last year alone, 39 million individuals were served by the 
public workforce system. The system's dual customer approach 
aligns job seeker skills with the employers' needs through 
strategies such as on-the-job training, which uses Federal 
resources to encourage employers to hire additional full time 
workers while helping participants improve their chances for 
economic success.
    The Department is also actively building partnerships on 
the Federal, State, and local levels to improve service 
delivery across programs more effectively to benefit 
individuals and employers and spur economic growth and job 
creation. We're continually seeking opportunities to develop 
joint administrative guidance as well as leveraging resources.
    For example, as Roger just said, we're publishing joint 
guidance with Commerce today so that every member of our system 
knows about his MEP programs. Another initiative that Roger 
mentioned, the Jobs Innovation Accelerator Challenge that was 
launched this year, was a $37 million collaboration with 
Commerce and the Small Business Administration to support the 
advancement of 20 high-growth regional industry clusters in 
advanced manufacturing, IT, and aerospace.
    Of note is that the Full Employment Council in Kansas City, 
Senator Blunt, your area, and its partners received a grant in 
doing this, and they're really hitting the ball out of the 
park. They're doing a great job in getting people who didn't 
envision themselves in that industry jobs today. Roger 
mentioned we're going to do a new one this spring, and we hope 
all of your states will apply.
    We've built on an initiative started in the last 
administration by developing competency models in economically 
vital industries such as energy and healthcare. The Advanced 
Manufacturing Competency Model outlines the skills necessary to 
pursue a successful career in the industry and was done in 
partnership with NAM and the National Council for Advanced 
Manufacturing and the Society of Manufacturing Engineers.
    As part of our focus on skills attainment, the Department 
has set a goal to increase credential attainment by 10 percent 
among workforce system customers by September 2013. Workers who 
attain industry-recognized credentials have a demonstrated 
skill set to provide to prospective employers. For employers, 
they know what they're getting when they hire somebody.
    As my colleague, Martha Kanter, will explain, we're 
engaging community and technical colleges in our skills 
training efforts. In the Fiscal Year 2013 budget request, the 
President is proposing an $8 billion Community College to 
Career Fund that partners educational institutions with 
businesses to satisfy employer needs for a ready skilled 
workforce, and we'll co-administer that with the Department of 
Education if the Senate and House decide to give us any portion 
of that.
    The Community College to Career Fund builds on the Trade 
Adjustment Assistance Community College Capacity Building 
Grants. Through those TAACCCT grants, the Department will 
invest $2 billion over 4 years to assist two-year degree 
granting institutions to begin with the end in mind, to build 
curriculum with employers from the start that will give the 
employers the skilled workforce that they need.
    We're funding nine grants in Round 1, focusing on the 
manufacturing industry. And I want to point out that we've 
given over $90 million just for manufacturing, because those 
grants were the most impactful and had the best employer 
support.
    The Department also has invested $342 million in 
competitive grants to provide training and job placement in 
industries for which employers are currently using H-1B visa 
holders to hire temporary high-skilled foreign workers. 
Manufacturing is among the top 10 industries where H-1B visas 
are requested by business. We can fill that gap with American 
workers with the right training.
    With approximately $2.2 million in H-1B grants, NIMS is 
currently working with manufacturing companies to help 425 
unemployed individuals in southern California, in Chicago, in 
Alabama, and in other locations across the country to get the 
credentials to become computer numerical control machine 
operators, a skilled occupation with a promising career path 
and positions vacant today.
    In conclusion, we've tried to leverage the generous 
appropriations that you've given us so that employers find the 
skilled workers they need in manufacturing and other sectors.
    Thank you to the Subcommittee for giving us this 
opportunity, and like Roger and Martha, we'll look forward to 
your questions.
    [The prepared statement of Ms. Oates follows:]

 Prepared Statement of Jane Oates, Assistant Secretary, Employment and 
           Training Administration, U.S. Department of Labor
Introduction
    Chairman Klobuchar, Ranking Member Blunt and Members of the 
Subcommittee, thank you for inviting me to testify about the work we 
are doing at the Department of Labor (Department).
    To help create an economy that is built to last, the Department is 
working to ensure employers have access to the skilled workforce they 
need to fill in-demand positions in industries such as advanced 
manufacturing. President Obama believes that we must ensure that the 
next generation of products are not only invented here in the United 
States, but manufactured here as well. A growing and vibrant 
manufacturing sector is key to innovation, our global competitiveness 
and creation of good-paying American jobs. The Department is supporting 
these efforts by leveraging robust partnerships across Federal 
agencies, aligning the national network of almost 3,000 One-Stop Career 
Centers and their partners with local and regional labor market needs, 
strategically awarding competitive grants, engaging community colleges 
for technical skills training, and customizing training to meet the 
needs of employers and workers. The Department also continues to 
participate in several interagency efforts to promote the manufacturing 
industry.
Manufacturing Skills
    The unemployment rate has fallen steadily from its peak of 10 
percent in October 2009 to 8.2 percent in March 2012. Since February 
2010, the economy has generated 4 million private sector jobs. The 
manufacturing sector alone has created 470,000 jobs since January 2010. 
Manufacturers currently employ nearly 12 million workers, mostly in 
jobs with good wages and benefits. Over four million manufacturing 
workers are employed in small to medium-sized manufacturing enterprises 
(SMEs), which comprise 98 percent of manufacturing firms overall. As 
President Obama noted in the State of the Union, ``American 
manufacturers are hiring again, creating jobs for the first time since 
the late 1990s''. In fact, according to the Bureau of Labor Statistics, 
a number of sub-sectors within the manufacturing industry are projected 
to be among the top ten fastest growing over the next decade.
    While signs point to continued improvement and job growth, evidence 
shows that both the lack of demand for workers and a skills mismatch 
will continue to contribute to the unemployment rate. Some sectors of 
the economy, including manufacturing, have been affected by a skills 
mismatch more than others. Recent data from the Bureau of Labor 
Statistics indicate that occupations that usually require a post-
secondary vocational award or a post-secondary degree for entry are 
expected to account for about 37 percent of all new jobs from 2010 to 
2020. Middle and high skilled workers will be critical to meeting 
manufacturing employers' needs. If current graduation and credential 
attainment rates continue at their low levels, a skills mismatch could 
continue to play a role in unemployment in the manufacturing industry, 
even as demand grows in components of this important sector.
    The workforce system is playing a leadership role in developing 
training programs that better meet employer needs for skilled workers. 
These programs help workers retain or obtain good jobs upon completion 
of their training, and contribute to increasing productivity and job 
growth.
The Public Workforce System
    The national network of One-Stop Career Centers serves as the 
foundation of the public workforce investment system. The Department 
provides oversight and administrative guidance for this network and 
strongly encourages the alignment of workforce development activities 
with state and regional economic development plans to ensure that 
education and training and employment services support anticipated 
industry growth and employment opportunities.
    Job training is integral to the success of job creation 
initiatives, and skills and knowledge are important drivers of economic 
growth. The workforce system provides extensive reemployment assistance 
to vulnerable populations disproportionately impacted by economic 
downturns, as well as those first time unemployed individuals who were 
in middle and high skill jobs. Last year alone, 39 million individuals 
were served by the public workforce system. Most of these individuals 
received job search assistance, career counseling, and other employment 
services, or unemployment benefits, and nearly 500,000 participated in 
Workforce Investment Act-funded training. From July 2010 through June 
2011, nearly 70 percent of individuals who completed WIA Adult and 
Dislocated Worker training became employed within one quarter after 
program completion. In the same performance period, 62.5 percent of 
youth who were enrolled in WIA training received a degree or 
credential.
    Alignment of the workforce's skills and abilities with employers' 
needs is an essential component to our economic recovery and long-term 
competitiveness. This dual customer approach includes strategies such 
as on-the-job training that use Federal resources to encourage 
employers to explore the possibility of hiring additional full-time 
workers while helping participants improve their chances for economic 
success. The Department is providing technical assistance to help the 
public workforce system better engage employer customers. The 
Department believes that stronger employer partnerships will lead to 
improved employment and retention outcomes.
Promoting Robust Partnerships to Leverage Resources
    We are actively working across Federal agencies to better align 
resources and to ensure effective service delivery. For example, our 
Fiscal Year 2013 Budget includes proposals to help all dislocated 
workers find new jobs and to develop single access points for job 
seekers to access all employment and training services. Furthermore, 
the Departments of Labor, Health and Human Services, Education, 
Commerce and the Small Business Administration, among others, are 
continually seeking opportunities to develop joint administrative 
guidance to state and local grantees, or to leverage available 
resources to encourage partnerships and improve models for delivering 
quality services across programs at lower costs. These partnerships 
allow individuals and employers to benefit from additional services 
and, most importantly, to spur job creation and economic growth. We 
understand that we need to do more with less, which makes partnerships 
at all levels--Federal, state, and local--critical to our continued 
investment in a competitive workforce.
Manufacturing Extension Partnership
    Today, we are publishing joint guidance with the Department of 
Commerce's Manufacturing Extension Partnership (MEP) to encourage the 
public workforce system to partner locally with MEP programs to provide 
assistance to Small Manufacturing Enterprises (SMEs) to support 
economic growth while preserving and creating jobs.
    As part of the churning that occurs in any healthy economy, many 
manufacturing businesses, especially SMEs, continually face challenges 
that, if not addressed, can ultimately lead to downsizing. When faced 
with the possibility of layoffs, the state and local workforce 
investment system can step in to assist workers in returning to 
employment as quickly as possible, or potentially preventing layoffs 
altogether by working closely with the employer. Such engagements have 
been facilitated in part through the Federal-state-sponsored MEP 
program, which works with SMEs to help them create and retain jobs, 
increase their profits and export their goods.
    In South Carolina the state workforce agency requires that the 
state MEP review any manufacturer who applies for WIA funds for 
Incumbent Worker Training. This allows MEPs to access additional 
resources when significant business risks are identified, but 
importantly, helps them to design effective training for workers to 
maintain competitiveness.
The Jobs and Innovation Accelerator Challenge
    An example of a Federal partnership to support economic development 
driven by local or regional needs is a partnership between the 
Department and Commerce's Economic Development Administration and the 
Small Business Administration to launch the Jobs and Innovation 
Accelerator Challenge. This $37 million initiative supports grants for 
the advancement of 20 high-growth, regional industry clusters in order 
to promote development in areas such as advanced manufacturing, 
information technology, aerospace and clean technology. The projects 
are driven by communities that identify the economic strengths of their 
areas and encompass urban and regional areas in 21 different states.
    For example, the Full Employment Council in Kansas City, MO is 
collaborating with the Mid-America Regional Council Community Services 
Corporation and the University of Missouri Curators (on behalf of the 
University of Missouri-Kansas City Innovations Center KC SourceLink) on 
a $2 million project to implement training designed to meet the skill 
requirements of businesses in the advanced manufacturing and 
information technology sectors. The project also will support taking 
university and corporate research to commercial application, and 
support small businesses in taking these applications to market and 
finding opportunities for growth both domestically and through exports.
Career Pathway Models
    Earlier this month, the Departments of Labor, Education, and Health 
and Human Services released a joint letter highlighting our commitment 
to promote the use of career pathway approaches as a promising strategy 
to help youth and adults acquire marketable skills and industry-
recognized credentials through better alignment of education, training 
and employment, and human and social services among public agencies, 
and through better linking those services with employer needs. Career 
pathway models link education and training for specific occupational 
sectors, such as manufacturing, to help individuals of varying skill 
levels earn credentials valued by employers, enter rewarding careers in 
in-demand and emerging industries and occupations, and advance to 
increasingly higher levels of education and employment.
    Through the Department's Employment and Training Administration's 
Career Pathways initiative, nine states including Minnesota, New 
Mexico, and Virginia and two tribal entities have established cross-
agency teams that include local workforce boards, Temporary Assistance 
for Needy Families (TANF) providers, adult basic education providers, 
community colleges, career and technical education providers, and 
employers.
Subsidized Youth Employment
    The Department also partners with HHS to better align TANF funds in 
support of subsidized youth employment. Most recently, an evaluation 
report entitled Using TANF Funds to Support Subsidized Youth 
Employment: The 2010 Summer Youth Employment Initiative was published 
and posted on both Departments' websites signaling the culmination of 
both Departments' continued collaboration to evaluate Workforce 
Investment Act (WIA) and TANF coordination and the potential benefits 
and challenges of the TANF-funded summer youth employment initiative. 
Funded through an Interagency Agreement between the Departments, this 
study followed up on the 2010 joint DOL-HHS letter that encouraged 
states to use TANF funds for subsidized youth employment and for 
workforce and human service agencies to co-enroll youth in WIA and TANF 
programs. During January-December 2010, 1,600 low-income youth found 
subsidized jobs as a result of this partnership.
Informing and Guiding the Workforce System
Credential Attainment
    As we invest in skills development, we will not only help 
individuals return to work, but we also will help workers obtain the 
measurable and specific skills needed to move along career pathways, 
while giving employers access to the skilled workers they need to 
compete globally.
    The Department plays a vital role in increasing access to industry-
recognized credentials, in partnership with community colleges, 
businesses and labor unions. This year, the Department set a high 
priority performance goal to increase credential attainment by 10 
percent among customers of the public workforce system by September 30, 
2013, and we emphasized occupational training that leads to an 
industry-recognized credential or certificate.
    We also work collaboratively with community colleges, vocational 
technical schools, and state workforce agencies through discretionary 
grants and technical assistance efforts to identify and broadly 
disseminate best practices. For example, best practices such as 
Integrated Basic Education and Skills Training (I-BEST) have shaped our 
grant competitions, including the current round of the Trade Adjustment 
Assistance Community College and Career Training grants. I-BEST in 
Washington State helps adults who have to balance family and work 
responsibilities with learning by offering the means to acquire 
``stackable'' credentials along career paths that may result in more or 
different job responsibilities and associated pay increases. This 
program also highlights the need to coordinate with partners including 
employers in order to achieve success.
Manufacturing Competency Model
    As part of our focus on skills and competencies attainment, the 
Department released an updated advanced manufacturing competency model, 
based on collaborations with industry partners, such as the National 
Association of Manufacturers/Manufacturing Institute (NAM/MI), the 
National Council for Advanced Manufacturing and the Society of 
Manufacturing Engineers. This employer-validated model outlines the 
skills necessary to pursue a successful career in the manufacturing 
industry and includes the recognition of sustainable and 
environmentally friendly advancements that are now an important part of 
the advanced manufacturing skill set. The model also allows workers in 
advanced manufacturing fields the ability to advance their training in 
a way that is consistent with industry demands. This is one of several 
competency models that the Department has released.
Electronic Tools
    To support the goal of increased credential attainment, the 
Department has also augmented information on industry-recognized 
credentials in its suite of online electronic tools that are geared to 
helping jobseekers explore career options, search for new opportunities 
and find information on high growth occupations. In mid-December 2011, 
certifications and credentials that have been endorsed or recognized by 
third-party industry associations, including the stackable 
manufacturing credentials endorsed by NAM/Manufacturing Institute, were 
added to the employment web portals of two such tools: mySkills 
myFuture and My Next Move.
Engaging Community Colleges
New Community College to Career Proposal
    The Department is working diligently to engage community and 
technical colleges to bolster skills training among jobseekers. A few 
weeks ago, Secretary Hilda L. Solis and Dr. Jill Biden announced the $8 
billion Community College to Career Initiative that would allow for 
partnerships between community colleges and businesses to spread more 
broadly and help employers satisfy their skill needs. Co-administered 
by the Department of Labor and the Department of Education, this Fund 
will train two million workers for good-paying jobs in high-growth and 
high-demand industries, such as health care, transportation, and 
advanced manufacturing. These investments will give more community 
colleges the resources they need to become community career centers 
where people learn crucial skills that local businesses are looking for 
right now.
Trade Adjustment Assistance Community College and Career Training 
        Grants
    Through the TAACCCT grants, the Department has invested $500 
million to assist community colleges and other eligible institutions of 
higher education to expand and improve their ability to deliver 
education and career training programs; and a competition is currently 
open for an additional $500 million in TAACCCT grants. In coordination 
with the Department of Education, these competitive grants are geared 
towards developing education and career training programs targeted to 
trade impacted and other workers that can be completed in two years or 
less and that prepare participants for employment in high-wage, high-
skill occupations. With a focus on programs that have strong employer 
partners and meet industry needs, these grants will improve the 
capacity of higher education institutions to develop, upgrade, and 
offer programs that result in skills and credentials that are relevant 
to high-skill industries, such as manufacturing. And the program's 
emphasis on producing open educational resources means materials 
produced through this funding can be leveraged by colleges across the 
country, not just those that received funding.
    One such grantee, the NorthWest Arkansas Community College, leads a 
consortium of all 22 two-year colleges in the state. Each partner 
school in the consortium carried out extensive outreach to businesses 
and other organizations in their communities, and conducted research 
and gathered labor market data to identify growing industries and 
occupations. Based on this input, the colleges identified advanced 
manufacturing and healthcare as the primary target industries across 
the state, and each school is working to restructure two career 
pathways, which are comprised of stackable, linked certificates and 
degrees.
    With an almost $15 million grant, these colleges are working 
collaboratively to transform and accelerate developmental education, 
streamline and restructure 104 certificate programs and 42 associate 
degree programs, and enhance the technology and systems that support 
their students. The colleges also are transforming their student 
advising systems in ways that will avoid unnecessary credit 
accumulation and improve the job placement assistance that students 
receive. This project anticipates accelerating program completions by 
15 percent by reducing both the time it takes and the number of credits 
required for community college students in Arkansas to complete 
certificate and degree programs.
    Another TAACCCT grant is helping the Florence-Darlington Technical 
College lead a consortium of 10 public two-year technical colleges in 
South Carolina to improve their ability to deliver programs leading to 
high-demand industry-recognized certificates and degrees. Through this 
project, the consortium is addressing several capacity constraints by 
developing 37 new online contextual learning courses and enhancing its 
existing online offerings in manufacturing, industrial maintenance, and 
transportation and logistics.
Customizing Training to Meet Worker and Business Needs
    By promoting tailored training strategies to simultaneously meet 
the needs of workers and meet employer needs for skilled workers, the 
workforce system plays a valuable role in developing training programs 
and helping workers retain or obtain good jobs upon completion of these 
programs.
Business and Industry Partnerships for Earn and Learn Models
    In the manufacturing industry, employers have utilized Registered 
Apprenticeship for decades to train apprentices in traditional 
manufacturing and other occupations. In the past decade, as the 
manufacturing industry has advanced with new technologies, the 
Department has worked with industry partners, particularly the National 
Institute of Metalworking Skills (NIMS), to develop competency-based 
Registered Apprenticeship training models that establish unified skill 
standards throughout the industry. NIMS has established standards for 
several occupations, including machinist, press set up operator, 
electronic discharge machine operator, tool and die maker, precision 
assembler, and computer numeric controlled operator. At of the end of 
Fiscal Year 2011 (October 31, 2011), the Department was responsible for 
overseeing about 14,450 active apprentices in over 2,800 active 
manufacturing programs (NAICS 31-33), of which 96 were registered 
during that fiscal year.
    Registered Apprenticeship is an `earn while you learn' model that 
provides employment and a combination of on-the-job learning with a 
mentor, related technical and theoretical instruction, and wage 
increases as apprentices progress. The model offers an efficient, 
flexible training strategy, responsive to new technology to keep 
workers up-to-date on skills they need to meet the needs of high-growth 
industries. In Fiscal Year 2011, Registered Apprenticeship programs 
served 403,700 participants.
H-1B Technical Skills Training Grants
    The Department also has invested $342 million in competitive grants 
to provide training, job placement, and other assistance in the 
occupations and industries for which employers are using H-1B visas to 
hire temporary, high-skilled foreign workers. Manufacturing is among 
the top 10 industries for which H-1B visas are granted. Our long-term 
goal is to decrease the need for H-1B visas by helping American workers 
develop the high level skills needed by these employers. The Department 
will continue to use the H-1B grants to help individuals upgrade skills 
for high-growth industries and occupations. The grant program helps 
workers upgrade their skills while assisting businesses to retain and 
improve the skills of their workers, expanding their workforce as they 
successfully compete and prosper in the global economy.
    Under an H-1B Technical Skills Training grant for approximately 
$2.2 million, NIMS is helping 425 unemployed individuals in southern 
California, greater Chicago, and Alabama get back to work as Computer 
Numerical Control machine operators--a skilled occupation with a 
promising career path in precision manufacturing. NIMS is working with 
manufacturing companies to conduct structured on-the-job training. This 
training will meet the competencies required by the NIMS National 
Skills Standards, and participants who complete will earn five 
nationally-portable industry-recognized credentials.
    Another example, the Junior College District of Metropolitan Kansas 
City, MO recently received an H-1B Technical Skills Training grant for 
$5 million to implement innovative on-the-job training programs in the 
information technology sector. The program builds on traditional on-
the-job training models to offer training for participants who, without 
it, might not qualify for information technology positions. Programs 
like this one help to bridge that gap by helping dislocated workers 
update their skill sets while working. At the same time, employers are 
able to offset some of their training costs, allowing them to hire new 
workers sooner than initially planned and giving them more confidence 
to hire individuals who might have a steeper initial learning curve.
Closing
    In conclusion, we believe our myriad efforts support our shared 
goal of helping more Americans gain the skills to find good jobs in the 
21st century economy and to spur growth in critical industry sectors, 
such as the manufacturing industry. We again thank this subcommittee 
for holding a hearing on an important topic, and we would happy to 
provide additional information and assistance as needed.

    Senator Klobuchar. Thank you very much.
    Ms. Kanter.

       STATEMENT OF HON. MARTHA KANTER, UNDER SECRETARY, 
                  U.S. DEPARTMENT OF EDUCATION

    Ms. Kanter. Madam Chairwoman Klobuchar, Ranking Member 
Blunt, and Senator Warner, thank you for having me here to 
testify this morning. I'm going to talk about the Department of 
Education's vision for community colleges in training the 
American workforce for the jobs of today and tomorrow--we're 
thinking ahead--and also the underpinning of keeping education 
affordable in order to do this.
    From the beginning of the administration, the President and 
the Secretary have emphasized how crucial education is to build 
a competitive workforce. And that's why we have set a bold goal 
for our Nation: by 2020, to have the highest proportion of 
college graduates in the world. Community colleges are a big 
part of that effort to not only meet that goal of 2020, but 
also preserving the pathway to the middle class for millions of 
Americans.
    We often talk about community colleges as one type of 
institution. But that really fails to capture that they are 
designed to meet the many needs of our Nation's communities and 
vary in structure, in mission, and in offerings. And most every 
community college across the country works closely with local 
business leaders to help prepare millions of students for jobs 
in their various regions.
    For recently displaced workers, a community college is the 
place to acquire new skills to help them reenter the workforce. 
Part of our trade adjustment work with the Department of Labor 
is designed to do just that.
    For others, community colleges are the place to acquire job 
certifications, credentials, and technical skills to embark on 
a successful career or upgrade their skills to advance in the 
careers they have or even change careers. Still others choose a 
community college as the local affordable springboard to a 
four-year baccalaureate degree, while some enter a community 
college to begin the basic skills and get an entry-level job.
    So they have various needs, and community colleges really 
address the wide range of students coming in their doors. But 
they face tremendous capacity challenges, which is why those 
grants were so important as a start.
    I served as president and then chancellor of a large 
community college district for 16 years. And it was gut-
wrenching in tough economic times when state funding declined 
to decide which programs to reduce while enrollments escalated. 
Our waiting lists were horrendous, because we couldn't afford 
the technology to better automate our schedules until we ran a 
local bond election to upgrade our information system. Nor 
could we afford the computer numerical controls programming and 
machining lab that Jane Oates mentioned until Haas Automation, 
Incorporated, stepped in to outfit the lab with the equipment 
that we needed. The same was true for Energy Management and 
many other training programs that we offered.
    Our state couldn't fund the upgrades we needed for our 
science labs. So, again, we had to turn to the local community, 
ran a bond--helped us expand capacity, worked with 
philanthropies and others just to make ends meet.
    So recognizing the critical importance of community 
colleges and the real challenges that they face across the 
country, our administration has made some significant 
investments to help keep these institutions accessible and 
affordable for students and also pursue the kind of innovation 
that you're hearing about from my colleagues so that we can 
have the competitive workforce that we need for the 21st 
century.
    The first and foremost investment we have made is in the 
Pell Grant program. I want to thank you all. It's really having 
great returns. It's helping low income students access higher 
education.
    Second, we're working closely, as you heard from Jane 
Oates, with the Department of Labor on the Trade Adjustment 
Assistance and Community College Career Training Act Program to 
provide $2 billion--we're in the second year--to help establish 
or modernize training programs to help students prepare for the 
occupations you all mentioned. Our plans are to build on these 
investments, expand capacity for community colleges, get 
students off the waiting list, as I mentioned, and really 
deliver the programs that employers need so we don't have those 
statistics that Mr. Kilmer mentioned.
    If we can work to keep college affordable on the one hand 
and help build capacity between high schools, community 
colleges, and universities, we'll leverage innovation, increase 
productivity, and realize the promise of a well-educated 
workforce. That's why our budget for next year, Fiscal Year 
2013, proposes to establish the Community College to Career 
Fund that Jane Oates mentioned. We'd be administering this 
together. It's an $8 billion fund to support employer 
partnerships with education to get that high-skilled national 
workforce that we're going to need and create, specifically, 
pathways for entrepreneurship for small business owners.
    We'll train 2 million workers with that fund, leading to 
skilled jobs in high-demand industries that you mentioned, like 
advanced manufacturing or healthcare, biotechnology, IT, and 
also promote promising training strategies to allow students to 
earn post-secondary credit, the industry-recognized credentials 
that you mentioned in their selected area of studies, and get 
ready to be hired by employers or upgrade from where they 
already are.
    As a former chancellor of a very large community college, I 
know how important a fund like this would have been to my work. 
I spent many years--well, 10 years on the Workforce Investment 
Board, but many years building a nursing workforce with 19 
hospitals that we served in Silicon Valley. And we had to run 
an annual lottery every year and turn away hundreds of 
students, literally, for those jobs because we couldn't expand.
    So we did reach out to the local community. They actually 
funded our nursing simulation lab. They funded our skills lab. 
They provided philanthropy for scholarships. But without more 
support, we won't be able to do this going forward, and 
community colleges are having those kinds of struggles that I 
mentioned.
    Our budget is going to make continued critical investments 
in student aid to keep college affordable, preserving the 
maximum Pell Grant award so low income students, as I 
mentioned, can afford to count on that support in a community 
college coming from high school, coming from the communities 
that we serve. We are also proposing $150 million investment in 
doubling work-study over a five-year period, work-study that 
the data are clear, students are retained, they persist in 
college, they are ready for jobs. It gives them relevant 
employment experience, internships, earn while you learn kinds 
of things to better prepare them for the workforce. I think 
Northeastern University is a great example.
    So in closing, let me underscore that a college education 
is no longer a luxury. It's an economic necessity. We want to 
build capacity, ensure students that come to two- and four-year 
institutions get in the door. We can shrink the time to degree 
by accelerating high school to college, the dual enrollment 
that you mentioned.
    I want to thank you for having me this morning. I am happy 
to answer any questions.
    [The prepared statement of Ms. Kanter follows:]

      Prepared Statement of Hon. Martha Kanter, Under Secretary, 
                      U.S. Department of Education
    Madam Chairwoman, Ranking Member Blunt, and Members of the 
Committee:

    Thank you for inviting me to testify today on the Department of 
Education's work as it relates to community colleges and educating our 
Nation's youth and adults to ensure our Nation's competitiveness. Our 
work in this area is critical to creating an America that is built to 
last.
    The President stated in his Fiscal Year 2013 budget remarks on 
February 13, 2012 at Northern Virginia Community College that community 
colleges are examples of what is best about this country. As he stated, 
there is a promise that the knowledge, skills and training that a 
person can acquire at a community college will enable students to 
achieve the American promise: the promise that if you work hard, you 
can do well enough to raise a family, own a home, send your kids to 
college, and save for retirement.
    We believe that an affordable, high-quality college education is 
fundamental to America's future: to our economic and social prosperity 
and security. President Obama established a bold goal for our Nation to 
have the highest proportion of college graduates in the world by 2020. 
The President, the Secretary, and I deeply believe that achieving this 
goal, by providing Americans with the opportunity to access and 
complete high-quality post-secondary education is vital if our Nation 
is to prosper in a global economy that is predicated on knowledge and 
innovation.
    Dr. Jill Biden, who teaches at a community college, is also one of 
community colleges' biggest champions. She calls community colleges 
``America's best-kept secret.'' The Obama Administration's vision means 
that community colleges will no longer be a best-kept secret--we 
envision community colleges assuming a larger role to fulfill the 
American promise by educating and training our Nation's workers, its 
youth, and all those who are seeking employment for the jobs of the 
future.
Background on Community Colleges
    There are 1,167 community colleges in this country.\1\ But that 
doesn't mean there is one single model for all community colleges to 
follow. Rather, they are flexible institutions with several core 
missions to serve various constituencies in a range of general 
education, career-technical education and basic-skills programs. For 
some, community colleges are the first step along a path that leads to 
a bachelor's degree at a university; for others they are a place to get 
a certificate or associate degree in a technical field. Or they may be 
a place to get just a few additional courses that will help a worker 
keep his or her skills current and in demand. But regardless of each 
student's goal, community colleges are charged with building the 
economic and civic pipeline in their local communities and regions.
---------------------------------------------------------------------------
    \1\ http://www.aacc.nche.edu/ABOUTCC/Pages/default.aspx
---------------------------------------------------------------------------
    Community colleges are the on-ramps to postsecondary education for 
diverse groups of students seeking education and training. Nearly half 
of our Nation's students enroll in a community college for a variety of 
reasons: to acquire job skills, either to stay current with the 
workforce or to obtain the basic requisite skills needed to succeed in 
a career; to attain an associate degree, certificate, or industry-
recognized credential, or to complete the first years of a longer 
degree program at an affordable cost. A recent report from our National 
Center for Education Statistics says that community colleges have 
larger percentages of nontraditional, low-income, first-generation and 
minority students than our Nation's four-year colleges and 
universities.\2\ Community colleges educate half of all Hispanic and 
Native American students and nearly half of all students who are 
African American or Asian/Pacific Islanders.\3\ Community colleges are 
also a major source of education for nontraditional students, such as 
women re-entering the workforce, displaced workers, and thousands of 
returning veterans. Today, the average age of a community college 
student is 28.5 years,\4\ and 59 percent of the community college 
student body attends community-college full-time while working part-
time.\5\
---------------------------------------------------------------------------
    \2\ http://nces.ed.gov/programs/coe/analysis/2008-index.asp
    \3\ http://www.aacc.nche.edu/AboutCC/Pages/fastfacts.aspx
    \4\ http://nces.ed.gov/programs/coe/analysis/tables/2008-
tabsa09.asp
    \5\ http://www.aacc.nche.edu/AboutCC/Pages/fastfacts.aspx
---------------------------------------------------------------------------
Importance of Higher Education
    Now I would like to provide you with some significant data on 
community college and university graduates that underscore why our 
Administration is adamant about the need to continue our investment in 
higher education. First, the evidence on the importance of higher 
education is unequivocal--individuals with postsecondary credentials 
earn more money and are much less likely to be unemployed than 
individuals with only a high school diploma or less. Not only do those 
with two-and four-year degrees earn substantially higher salaries than 
those without any postsecondary degree, but they are much less likely 
to experience unemployment. The proportion of jobs that require some 
postsecondary education is estimated to increase from 59 percent to 63 
percent in the next decade.\6\ To remain competitive in today's global 
economy, the United States needs more workers with postsecondary skills 
and credentials.
---------------------------------------------------------------------------
    \6\ http://www9.georgetown.edu/grad/gppi/hpi/cew/pdfs/
FullReport.pdf
---------------------------------------------------------------------------
    We know that the challenge before us is great. Estimates from 
Georgetown University's Center on Education and the Workforce show that 
we are projected to produce 3 million fewer college graduates than will 
be needed by our economy within the next decade--a gap that could make 
it much harder for American employers to fill high-skill positions. 
Worse yet, this gap will hamper innovation that could open up new 
industries and sources of future jobs.
    But if we act now, we can address the gap between employer needs 
for, and the availability of, postsecondary-educated workers. According 
to the Center, by adding an additional 20 million postsecondary-
educated workers over the next 15 years, our national level of 
educational attainment would be comparable to the best-educated 
nations, help us meet the economy's need for innovation, and reverse 
the growth of income inequality.
    That is why this Administration has worked with Congress and taken 
a number of steps over the last three years to: 1) help support and 
expand capacity at community colleges to ensure our economic 
competitiveness; and 2) address the challenge of helping to keep 
college affordable and accessible.
    To build capacity at community colleges, the Administration has:

  <bullet> Invested $2 billion over four years through the Trade 
        Adjustment Assistance Community College and Career Training 
        (TAACCCT) Grant Program. This historic investment already 
        awarded $500 million last year to help community colleges 
        dramatically expand their capacity and support enhanced 
        partnerships between community colleges, industry, and local 
        Workforce Investment Boards to design and offer programs that 
        provide career pathways for individuals in high wage, high 
        skill industries These programs prepare students for jobs in 
        science, technology, engineering, and mathematics (STEM) fields 
        such as transportation and advanced manufacturing. And 
        resources produced will be open source, allowing even those 
        schools that don't receive funding to take advantage of 
        cutting-edge materials that are developed. While the TAACCCT 
        program is administered by the Department of Labor (DOL), the 
        Department of Education works in partnership with DOL to 
        leverage our technical expertise and existing resources to 
        increase the number of individuals with degrees, industry 
        recognized credentials and certificates. The competition for 
        the second round of $500 million in the TAACCCT initiative is 
        underway right now.

  <bullet> Supported and participated in the launch of Skills for 
        America's Future, an industry-led initiative to enhance 
        employer partnerships with community colleges This program will 
        build a national network and maximize industry-driven workforce 
        and economic development strategies to strengthen community 
        college career-technical programs and increase the placements 
        of job-seeking Americans into in-demand jobs.

  <bullet> Convened the first-ever Community College Summit at the 
        White House in October 2010, bringing together an unprecedented 
        number of higher education, industry, research, military and 
        workforce and economic development leaders, to discuss and 
        identify solutions to everyday challenges facing community 
        colleges. Building on this historic convening, the Department 
        of Education led five regional Summits to further engage local 
        community college boards, faculty, administrators, students, 
        businesses, community partners, and other stakeholders in 
        helping students reach their academic and career goals.

  <bullet> Launched a series of peer-led webinars to deliver 
        professional development and technical assistance to large 
        community college audiences. The Department of Education's 2012 
        community college webinar series offers webinars on topics such 
        as strengthening employer partnerships, academic alignment 
        between high schools and community colleges, building career 
        pathway programs that help bridge the needs of adult learners 
        and improving developmental education--all to help these 
        institutions build capacity by modernizing their courses, 
        building more robust partnerships with industry and deploying 
        evidence-based strategies to increase community college 
        retention, persistence, graduation and employment numbers and 
        rates.

  <bullet> Issued a joint letter, along with the Departments of Labor 
        and Health and Human Services, affirming the mutual commitment 
        of these agencies to career pathways approaches, generally 
        referred to as a series of connected education and training 
        strategies and support services that enable individuals to 
        secure industry relevant certification and obtain employment 
        within an occupational area and to advance to higher levels of 
        future education and employment in that area. This letter also 
        encourages State and local governments, and their partners, to 
        coordinate resources to ensure a streamlined service delivery 
        system across various funding sources in the development of 
        career pathway strategies that result in employment. We believe 
        that the efforts of these three Federal agencies working 
        together toward a common goal is a powerful signal. It will 
        encourage collaboration at the State and local levels to 
        increase opportunity and employment and to advance our Nation's 
        economic competitiveness.

  <bullet> Proposed to strengthen the education and career and 
        technical skills pipeline for in-demand occupations in high-
        growth industries. The to-be-released Blueprint will be the 
        Administration's foundation for the $1.1 billion proposal for 
        the reauthorization of the Carl D. Perkins Career and Technical 
        Education Act of 2006. The Blueprint sets forth a vision to 
        transform career and technical education. It will strengthen 
        connections among high schools, community colleges and 
        universities by ensuring that career pathways and postsecondary 
        programs are closely aligned with labor-market needs to 
        increase the number of college graduates with postsecondary 
        degrees and certificates as well as industry certifications, 
        that meet the workforce needs of our Nation.

    Lastly, the President's Fiscal Year 2013 Budget builds on historic 
investments in community colleges by proposing a new initiative 
designed to improve access to education and job training nationwide. 
Through the Community College to Career Fund (Fund), the Budget would 
provide $8 billion, administered jointly by the Departments of 
Education and Labor, to support State and community college 
partnerships with businesses to build a high-skilled national workforce 
and create pathways to entrepreneurship for 100,000 small business 
owners. In total, this investment would train 2 million workers with 
skills that lead to good jobs in high-demand industries that require 
highly-trained workers, including manufacturing, healthcare, IT and 
biotechnology.
    The Fund would be an economic development strategy that serves the 
dual purpose of ensuring that community colleges have the necessary 
resources to train workers, and that employers in growth industries 
have the skilled workforce they need for positions that might otherwise 
go unfilled be outsourced overseas.
    In addition to supporting community college-based training programs 
that provide workers with targeted training for jobs in growing 
industries, the Fund would also support on-the-job training 
opportunities, such as registered apprenticeships and paid student 
internships, allowing students to earn postsecondary credit for work-
based learning. The fund will also support promising ``Pay-for-
Performance'' strategies for training providers that include community 
colleges, community-based organizations and local workforce 
organizations to help Americans secure long-term employment after 
attaining their postsecondary education, training and credentials.
    Finally, the Fund would also recognize that improving career 
training requires us to also address larger issues beyond institutions 
by supporting regional or national industry group efforts to develop 
solutions such as worker certification standards, wide-scale adoption 
of proven training technologies, and industry-education collaboration 
to strengthen career pathways. The Fund will enable Federal agencies to 
partner effectively with State and local governments, to accelerate the 
education and training of individuals. With this Fund, companies would 
be motivated to locate or stay in the U.S., where they will have ready 
access to a well-trained workforce who possess the knowledge, skills 
and work ethic required by employers.
    In the area of college affordability and accessibility, the 
Administration:

  <bullet> Invested more than $40 billion in Federal Pell Grants over 
        the past 3 years, extending Pell grants to 3 million more 
        college students this year than in 2008 and raising the maximum 
        Federal Pell Grant award to an estimated $5,635 for the 2013--
        2014 award year--a $905 increase per Federal Pell Grant since 
        2008. As you know, most of that investment was paid for by 
        increasing efficiency in our student loan program.

  <bullet> Working to make college loans more affordable through the 
        ``Pay as You Earn'' proposal, which would enable an additional 
        1.6 million students to take advantage of a new option to cap 
        student loan payments at 10 percent of a borrower's monthly 
        income starting as early as this year.

  <bullet> Proposed to make the American Opportunity Tax Credit 
        permanent, to provide a credit of up to $10,000 for up to four 
        years of education. Over nine million middle class and low-
        income families claimed the credit last year.

    These historic investments in student aid has kept the net tuition 
and fees paid by families--the tuition and feeds they paid after grant 
aid--essentially flat over the last few years at approximately 80 
percent of our Nation's postsecondary institutions. Because of the 
Administration's Federal investments, the net price of a four-year 
college education at one of our public postsecondary institutions has 
increased by just $170 since the 2006-07 academic year. Significantly, 
the average net tuition and fees paid to attend a community college has 
actually decreased by $840 over the same period.\7\
---------------------------------------------------------------------------
    \7\ http://trends.collegeboard.org/downloads/college_pricing/PDF/
Trends_in_College_Pric
ing_2011_Average_Net_Price.pdf
---------------------------------------------------------------------------
    But we know that the Federal Government cannot single-handedly 
ensure worker competitiveness and college affordability, access, and 
success. The Administration, Congress, postsecondary institutions, 
states, industry and other stakeholders must all work together to build 
on the momentum of recent years to make sure that more Americans will 
have access to the nation's growing employment opportunities through 
workforce education and training offered at community colleges, and 
that a college education is affordable and available to all who want 
the opportunity.
    As the President has said, ``in today's global economy, a college 
education is no longer just a luxury for some, but rather an economic 
imperative for all.'' The Federal Government, states, and colleges and 
universities must all work together to promote college access and 
affordability by reining in college costs, providing value for American 
families, and ensuring that America's students and workers can obtain 
and complete the education and training they need, when and where they 
need it. America must have a workforce prepared for the jobs of the 
21st century and a society that will strengthen and preserve our 
democracy for our generation and generations to come. Our 
Administration stands ready to work with Members of this Committee on 
legislation to implement the President's proposals. We also look 
forward to working with states, colleges, and other stakeholders on 
this important agenda.
    I am ready to answer any questions you might have. Thank you.

    Senator Klobuchar. Thank you very much. We're going to 
start with Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    Ms. Kanter, on the--what was the--the 2020 goal you 
mentioned was to have the highest percentage of----
    Ms. Kanter. College graduates.
    Senator Blunt.--college graduates.
    Ms. Kanter. In the world.
    Senator Blunt. Would that also include like an associate's 
degree from a community college?
    Ms. Kanter. We're hoping--yes. What we're hoping for is to 
have 5 million more graduates from the two-year institutions 
and about 3 million more from the rest of higher education, in 
addition to the 2 million that would happen doing nothing. I 
mean, we really need to accelerate the education and training 
of----
    Senator Blunt. But in trying to reach that goal, the two-
year, the associate degree of some kind----
    Ms. Kanter. Yes.
    Senator Blunt.--would accommodate the goal.
    Ms. Kanter. Half of the goal.
    Senator Blunt. And where are we now, related to the other 
countries in the world? If we're going to be the highest----
    Ms. Kanter. Right now, we're 16th in the world. A 
generation ago, we were first in the world. So we've lost our 
share. We're tied for 16th with three other countries.
    Senator Blunt. So this goes to move us 16 places in 8 
years?
    Ms. Kanter. Yes.
    Senator Blunt. I hope we can do it. That would be----
    Ms. Kanter. It's a very ambitious goal, but we've got 
states like Indiana and Florida and--there are lots of states 
across the country that have set that goal. Some go to 2025. 
Some go to 2020. We think we just need to accelerate. We need 
more students getting the kinds of credentials and degrees that 
my colleagues have described.
    Senator Blunt. From the point of view of your earlier work 
as the chancellor at a community college, do you have any idea 
how the proposal that we begin to penalize loans and grants if 
tuition goes up too much--how much that will --how that would 
impact community colleges? You know, the President in the State 
of the Union said we were going to begin to condition loans and 
grants based on tuition increases. I really don't know what 
that means, particularly as it might relate to community 
colleges where a 10 percent increase may be a whole lot less 
money than a 2 percent increase at a state or private 
institution down the street.
    Ms. Kanter. Right. Well, I mean, the President talked 
about--and we're planning to look at several parts of this 
equation for campus-based aid. This is money that Congress has 
allocated to the campuses to give out, that goes from States to 
the campuses. It's called campus-based aid. There are three 
parts of it. Perkins, work-study are two parts of that, and 
SEOG, which are supplemental grants for the lowest income 
students in the Nation. Those are sort of a type of addition 
that students--when they really need that push.
    So the plan is to look at colleges and universities over 
time that provide good value. So, for example, colleges that 
have very low graduation rates historically or colleges that 
aren't serving the full range of students in their 
communities--colleges that provide good value--we've reached 
out to the communities to ask colleges and universities--we're 
having affordability summits around the country to get ideas of 
how to measure good value.
    We want students graduating without huge loans to repay, so 
repayment rates is a part of it. We produced a score card on 
the White House website that--we'll be actually sending out a 
draft of that in a couple of weeks--what it would look like. So 
good value----
    Senator Blunt. And you think the normal accreditation 
process doesn't--no longer serves that need of determining 
which institution should continue to do the work they're doing 
or not?
    Ms. Kanter. Well, I think every process for evaluating the 
quality of institutions needs change. And we just finished 
negotiated rulemaking with people from all over the country who 
are experts in their fields of study in the different sectors 
of education to come together and provide recommendations to 
the Secretary. And I can get back to you.
    They just published their findings recently on what their 
opinion is in terms of really improving accreditation, places 
where accreditation can, for example, look more directly at the 
quality of learning outcomes from institutions of higher 
education and what does that really mean, you know. Anyway, 
that's a long story. But I'd be happy to get you information.
    Senator Blunt. And I'd like to see it.
    Put me down, at least right now, on the side that we'll 
actually mess this process up if we get overly involved in it. 
I think one of the reasons the United States has been so good 
since World War II in higher education is the government has 
found ways to provide assistance in funding and hasn't until 
right now really gotten much into the job of trying to run 
these institutions.
    And this is just to report back to the home office for you, 
but I think it's a bad idea for us to, one, begin to think that 
we're going to do a better job determining whether programs 
meet the criteria they need to meet. What's a credit hour? I 
was like you. I spent several years as president of a 
university, and I think that the accreditation system has 
worked pretty well.
    And I have a lot of concerns, the one I just mentioned 
being one of the top ones, that if we really do begin to 
evaluate tuition increases and things like that with some 
number that we think for a moment can equally apply to 
everybody--because it would particularly be penalizing in the 
environment you're so familiar with.
    Ms. Kanter. Yes.
    Senator Blunt. I'm going to come back. We'll maybe have a 
second round of questions.
    So, Chairman, thank you.
    Senator Klobuchar. Very good.
    Senator Ayotte.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you very much, Madam Chair.
    I thank the witnesses for being here today. I appreciate 
your testimony. This is certainly an important issue.
    Secretary Oates, you and I had a chance to talk on the 
phone last spring about a very important project in New 
Hampshire, the Manchester Job Corps Center. And when we talked 
about it, the project had been stalled because of protests that 
were issued in it because of a project labor agreement 
requirement for this very important Federal project in New 
Hampshire, which we would hope would put probably about 300 to 
400 people to work to build it and then, obviously, provide 
very important training opportunities for individuals in New 
Hampshire that are able to get their high school education and 
also get very valuable training.
    In fact, New Hampshire was really one of only two states in 
the Nation that is without a Job Corps training center. I 
wanted to follow up, because as I understand it, when I spoke 
with you last spring, I expressed the concerns of our 
associated builders and contractors in New Hampshire over the 
project--the President's Executive Order requiring project 
labor agreements--particularly because our New Hampshire 
contractors felt that most of them were non-union and felt that 
they would not be able to meet the requirements of a project 
labor agreement.
    So here we are 2 years later, and the project went out for 
bid, and there were, as I understand it, three bids on it. All 
of them were from outside of New Hampshire. In fact, our 
contractors--again, the requirement--I asked you not to include 
the project labor agreement requirement in it again. The 
Department went forward, included the project labor agreement 
requirement in it, and now here we are again with bid protests. 
And the bids that you have before you are three out of state 
contractors.
    The New Hampshire contractors, I can tell you, having 
spoken to them, feel denied an opportunity to actually build 
this important Federal project in our own state, because, you 
know, they're basically non-union shops. So I guess I would ask 
you, at the end of the day--I've looked at the studies on this 
project labor agreement. The studies show that costs increase 
between 12 and 15 percent when you include a requirement of a 
project labor agreement.
    In my state, it leads to the absurd result that out of 
state contractors are the only ones that are bidding on this 
really important New Hampshire Federal project in our state. So 
somebody from Florida may build our project--our Job Corps here 
in New Hampshire.
    So this whole hearing is about competitiveness. Can you 
help me--why was the project labor agreement--why does that add 
to our competitiveness? Because I view it as the opposite. Why 
wouldn't the President--if it costs 12 to 15 percent more to 
build a Federal project that has a project labor agreement in 
it, why would we keep this requirement when it seems to impede 
good contractors like we have in New Hampshire from building 
Federal projects in their own state?
    So can you help me with this? I'm really struggling with 
it. And I feel like the contractors in New Hampshire who do 
things efficiently and very well are being denied an 
opportunity here to bid because they are non-union shops, and I 
think it's wrong.
    Ms. Oates. Senator, first, I'll start with where we agree. 
We are both committed to building a Job Corps in Manchester, 
New Hampshire. I would ask you to understand that there is an 
Executive Order, and our agency followed the Executive Order. 
And it was the finding of both political--because I sit on the 
Board--as well as career people that a project labor agreement 
was the best way to proceed in New Hampshire.
    The bottom line here----
    Senator Ayotte. I'm sorry to interrupt. But just to 
clarify, the project labor agreement--you were required to have 
that because of the Executive Order. Isn't that correct?
    Ms. Oates. No, ma'am, no, not----
    Senator Ayotte. So you could have proceeded without the 
project labor agreement?
    Ms. Oates. That's correct. If the evidence had indicated 
that we should not use a project labor agreement, that's the 
way we would have gone. Now, I do want----
    Senator Ayotte. What type of evidence, though? Can you help 
me with this?
    Ms. Oates. I can certainly show you the process that we 
went through. The project labor agreements that we've studied 
actually come in on or below budget and on time. And I just 
want to stop--as much as I know that this gets in the spin--a 
project labor agreement does not require organized labor. In 
fact, as you mentioned, one of the successful bids is a Florida 
construction company, not a state known for a lot of organized 
labor.
    The problem that you're describing--this is a $40 billion--
a $40 million project, not billion--$40 million project, and 
the bonding is what impacts a lot of construction companies. 
They can't bond for that high a number. And we are certain if 
the New Hampshire site follows work that was done in other 
states, that even though the contractor is from out of state, 
there will be work for New Hampshire workers.
    And, of course, at the end of the day, all the non-
construction jobs, the teaching jobs, the resident assistance 
jobs, all the vocational jobs, will go to New Hampshire 
individuals. Again, I hope you appreciate that while the 
President--any President puts in an Executive Order in our 
department, it's our responsibility to follow that Executive 
Order.
    And I'll end where I began. Senator, we are both equally 
committed. I hope you noticed that in our budget request, we 
put in that we would have not only for New Hampshire but also 
for Wyoming a Job Corps in every state, no matter what else I 
have to do.
    So while we'll agree to disagree on the project labor 
agreement, we'll continue--it is in protest right now at GAO. I 
can't give a lot more details about that right now, because I 
wouldn't want to impact that protest and slow things down 
further. We will proceed with Manchester as soon--and we have 
not slowed down anything. As soon as GAO makes their 
determination, we will proceed in whatever way we have to 
proceed.
    Senator Ayotte. Well, Secretary Oates, I really appreciate 
your commitment to going forward with the Manchester Job Corps. 
We do share that commitment, because I think it's very 
important that New Hampshire have the Job Corps.
    But where we disagree--I mean, I've got before me a number 
of studies that show that it's a 12 to 15 percent increase in 
cost. And I've got from our builders and contractors--and I've 
spoken to them personally about this--that if the PLA was not 
on this, we wouldn't have--these protests would be unlikely.
    This thing could have already been done, and, frankly, more 
people would have been given the opportunity to bid on it. So 
you and I disagree on the project labor agreement. I think it's 
an unnecessary Federal burden placed on people who want to do 
good Federal work and do it at the lowest cost possible, really 
maximizing the taxpayer dollar.
    So I still haven't heard why--why is it necessary, how does 
it make us more competitive to have a project labor agreement? 
I guess I don't understand that. Can you tell me why we're more 
competitive by having these?
    Senator Klobuchar. Ms. Oates, if you could, make your 
answer brief and then if Senator Ayotte wants to continue in 
the second round, we can go on.
    Ms. Oates. OK, Senator.
    Senator Ayotte. Thank you.
    Ms. Oates. I don't understand the competitive nature. These 
jobs are going to get done one way or another. And, obviously, 
we have conflicting studies. I have studies that show that the 
jobs come in on time and on or under budget. And I don't 
disagree with you, Senator, that you have other studies that 
say the opposite. I'll just--and, again, we're committed to 
this, and we're going to make sure that Manchester happens no 
matter what.
    Senator Ayotte. Well, I appreciate it.
    Thank you very much, Madam Chair. And I just want to save 
taxpayer dollars.
    Thank you.
    Senator Klobuchar. Thank you.
    I'm going to step back a little bit to talk about some of 
the issues that affect every single state, and that is how 
we're going to get a manufacturing workforce again. We have 
people retiring, so that is a major issue. And then we also, as 
I mentioned, have actual job openings, especially in states 
that are moving ahead in high-tech manufacturing areas, like 
Minnesota with medical device and other things.
    So one of the things that I've heard from some of our 
superintendents, particularly in the rural suburban areas, is 
just that they have trouble getting not just the kids--it's the 
parents--to see that this is a good occupation and a way to go 
again. And I don't blame these parents. They're thinking about 
what happened in the past when factories shut down. They're 
thinking of other kinds of manufacturing jobs.
    Yet for many of these kids, they're either not graduating 
from high school, they're going to college maybe for a year and 
then they stop--maybe they can't afford it--or they just quit. 
And then--or they get a 4-year degree for which they don't have 
a job.
    So just a quick answer here on how you think we get at that 
issue. Anyone? Practically.
    Ms. Kanter. I mean, I just visited Garden City Community 
College and Des Moines Area Community College. I'll just 
identify Accumold as a company that's expanding in Des Moines. 
What they're doing is identifying promising high school 
students, making the community college students an Accumold 
scholar, giving the kind of industry internship while the 
students are in school, and giving them employment, and they 
are having tremendous success--those high employment rates in 
advanced manufacturing. They're expanding the plant. But it's 
about, I think, as Roger told me before the hearing, 
relationships.
    Senator Klobuchar. Exactly, and I agree. I think that's a 
good answer. I've seen in some of our high schools where, like, 
Mayo doctors adopt a school from elementary on. Seagate was out 
at Shakopee High School, and, actually, these kids had made 
automatic pool ball rackers, which was this incredible thing 
with sensors--high school kids. And I asked them who they 
thought would get this product, and they said people who have 
everything. But it was just an incredible scene of what was 
going on. So I think that industry pairing is important.
    Quick, quick on one point--and then I want to move on--that 
we are working very hard on the Stafford loans. As you know, 
Ms. Kanter, the interest rates are set to double to 6.8 percent 
in July unless Congress acts. What do you think would be the 
effect of that when kids are already having trouble affording 
school?
    Ms. Kanter. Yes. It's going to make it harder for students 
to feel that college is affordable. So we're hoping that 
Congress will act to approve the--extend the current interest 
rate to keep college affordable.
    Senator Klobuchar. One of the things around our state--and 
maybe the other two witnesses here can answer--is that we've 
seen, you know, industries that have certain job openings, and 
it seems to work best when they have a community college. I'll 
use the example of Digi-Key. Arctic Cat makes snowmobiles and 
ATVs, and then Digi-Key is an incredible company, and they are 
in the town of Thief River Falls, Minnesota. You may not have 
heard of it.
    These companies are employing thousands of people. Yet they 
have a community college, Northland Community College, that's 
right there. And they're able to go to them and say, ``Hey, we 
need 30 employees in a management program,'' or ``We need more 
technicians in this area.'' And my view is that that works when 
you're in a town--a sort of mid-sized town that can do that. 
Some of the smaller towns--more difficult, and then also the 
metro areas, where you have kids in inner-city schools that 
really don't know what's available out there in terms of 
manufacturing.
    Talk to me about how we can better match--we're doing a 
mapping in our state. The Governor has ordered it--match the 
industry, what they need, with the community college and the 
four-year degree systems.
    Ms. Oates. Well, one of the things that we're doing is 
mandating that you have employer partners in everything that 
you do and making things end in this industry-recognized 
credential. It's amazing to me that prior to 2009, as smart as 
previous administrations were, they put money out the door and 
didn't demand that the training and education end in an 
industry-recognized credential.
    But I think that's only the beginning. I think the 
partnerships that you're hearing about here with both Roger and 
Martha--we can't just talk to our own people. I can't talk to 
the workforce without talking to the community college and 
without talking to businesses. We we're trying to leverage 
that, so we're all talking to each other's audience as well as 
our own audience. We have a real--you know, everywhere I go, I 
hear about jobs and demand and people unemployed. And until we, 
you know, improve that alignment, we're not going to get the 
job numbers that we want.
    Senator Klobuchar. So do you think that national 
certifications or industry standards are a solution to aligning 
workers with these jobs? Or is it just, you know, more 
bureaucracy?
    Ms. Oates. No. I think it's the answer. And I can tell you 
that there's not a week that goes past that I'm not sitting 
with employers, and they're telling me what they want people 
trained in. And areas where we haven't seen this mismatch are 
areas where states license. So we don't hear this in 
healthcare. We hear about shortages, but not a skills 
misalignment. Instead, we hear it in IT and in manufacturing, 
where the industry has grown, and the educational and training 
partners haven't been attuned to what the industry needs are.
    So we have to force that from the Federal and State level 
so that we don't keep training people who end up at the end of 
training saying there's no job at the end. And I think we've 
begun to do that, but it's really important that we always 
begin with the business. If we don't talk to businesses first, 
we're going to sell our workforce short.
    Senator Klobuchar. Very good. Thank you.
    Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    Ms. Oates, I would think one of our big challenges would be 
training people for jobs that will still be the jobs by the 
time we get them trained. I know 15 years ago, you'd walk 
through a machine shop, and there would be all this talk about 
how we're not bringing the machinists on. Nobody's going to 
know how to do this. There's still some need for that skill 
set, and it turned out to be pretty transferable.
    But I was in some defense subcontractors, mostly in rural 
Missouri, in the last couple of weeks. And, of course, none of 
that machine work--or, at least, most of that machine work is 
not done the way it used to be done. It's computer skills, math 
skills, setting up the equipment in the right way.
    How do we keep up with--what do we do that allows us to 
prepare people for the job skills that they're likely to need 
and that we can't quite anticipate what those are?
    Ms. Oates. I'll tell you, Senator, it's really complicated, 
because we still have a need for old occupations like welding. 
When I came into this job, Governor Barbour from Mississippi 
was one of the first phone calls I got. And he said, ``How come 
we have all these foreign welders, and I can't get 
Mississippians''--I mean, I dragged myself down to Mississippi, 
and he was right. Everybody had stopped training welders except 
Rochester, Minnesota. You know what I mean?
    So we have to stay true to some of those other things, but 
we have to get ready for advanced manufacturing and IT and 
things like that. And I stole the idea from the last 
administration. In the last administration, my predecessor at 
ETA started building something called a Core Competency Model, 
just like a pyramid.
    There are courses on the bottom leg of that pyramid that 
are going to be the core foundational courses for a number of 
jobs. And then as you get up to the top of the pyramid, that's 
where you're going to see customization and specialization.
    So they did a--since we've been here, we've done advanced 
manufacturing. We've done medical records. And we've done--
we've continued to work with the good work that they did in the 
previous administration with energy, because energy is 
changing, you know. And it's amazing to me that we have to keep 
this idea of those foundational courses so that employers see 
that people have the basics, and we can customize on the job 
site for them, but also so that employees, when they're 
dislocated, don't think the first 40 years of their work life 
was for naught. So I think that's the technology--you know, 
manpower technology that we're going to use, staying with these 
Core Competency Models.
    Senator Blunt. Right. And you mentioned that with proper 
training, we can fill the current gap where we think we need 
more H-1B visas. Between now and the time we fill that gap, are 
you all looking--either you or Education--at making the H-1B 
visa number work better?
    Ms. Oates. Well, we actually take your lead. You establish 
a cap, and you make certain occupations above or outside the 
cap.
    Senator Blunt. Right.
    Ms. Oates. So any faculty members that come in to Martha's 
institutions that she oversees are not in the cap. That's all 
outside the cap. So for us--I mean, look, there are some 
occupations that are going to take a long time. We can't help 
people become engineers in less than four years.
    Senator Blunt. Right.
    Ms. Oates. No matter what kind of skills. But there are 
things that we can do getting ready for that. So you don't need 
a four-year degree to be a web page designer, and yet in 2010, 
we brought in hundreds of people on H-1B visas who were 
designing web pages. So we're working together to make sure 
people understand that with 1 year of technical training or a 
two-year degree, you can compete as a web page designer.
    We know we're always going to need international talent. 
You know, I'm not James Monroe, you know. I don't want to keep 
everybody else out. But we need to have the right mix, and we 
need to do a better job of explaining to young people that we 
all care about, but also to dislocated workers, that they could 
get the skills through higher education. At least 1 year, maybe 
more, of higher education will give them the competitive edge 
they need to get that job.
    Senator Blunt. Just for the record, I don't think James 
Monroe wanted to keep everybody else out, either. Maybe Millard 
Fillmore, but not James Monroe.
    [Laughter].
    Senator Blunt. Mr. Kilmer, the single best strategy that 
you've found to get people interested in participating in your 
program?
    Mr. Kilmer. For us, it's really about getting manufacturers 
to start thinking more strategically about where they're taking 
the company and what they need. I mean, we've obviously got 
some very short-term needs. And so that's why when we're 
looking at this initial tool development, for example, we're 
really focused on the recruitment piece of this. How do you 
find those positions--or how do you find the people to fill 
those positions right now?
    But a company has got to start thinking a little bit more 
strategically about where they're going to be, what their needs 
are going to be, so that, one, they better understand and can 
fill those requirements, they can do the internal training of 
their existing staff, and then I can also be feeding these 
kinds of requirements to these other programs in the community 
colleges to do a better job of aligning both what the future 
needs are and the kind of programs they've got to support that.
    Senator Blunt. Thank you, Chairman. I may have some other 
questions for the record to submit later, but that's all I have 
for this panel.
    Senator Klobuchar. Very good.
    Well, I want to thank all of you. It has been very helpful, 
and I'm glad that you're very focused on these needs out there 
and coordinating. I think that was one of Senator Warner's 
points at the beginning--because I think we have huge potential 
here to make more things in America, and we need to have the 
workers that are there to do it. I know we have people that 
want work right now, and so we need to match them with those 
skills and those jobs.
    So thank you, and we'll call up our second panel.
    Before I introduce our second panel, I'd like to have the 
written testimony from Chancellor Steven Rosenstone of the 
Minnesota State Colleges and Universities submitted to the 
record.
    The information referred to follows:]

        Prepared Statement of Steven J. Rosenstone, Chancellor, 
               Minnesota State Colleges and Universities
    Chairwoman Klobuchar and members of the Competitiveness, 
Innovation, and Export Promotion Subcommittee, thank you for the 
opportunity to submit written testimony on Promoting American 
Competitiveness: Filling Jobs Today and Training Workers for Tomorrow. 
As the largest higher education system in Minnesota, the Minnesota 
State Colleges and Universities (MnSCU) system is committed to 
providing the workforce that is the engine of Minnesota's prosperity by 
producing the graduates who are crucial to the success of businesses 
and industries across the state.
    In my testimony, I will first provide an overview of the MnSCU 
system, then address the challenges facing Minnesota that impact our 
ability to fuel the state's prosperity, and finally discuss actions we 
are taking to address those challenges.
    The Minnesota State Colleges and Universities is a tremendous state 
resource made up of 31 colleges and universities, with 54 campuses, 
providing access to higher education for learners across the State of 
Minnesota for more than 150 years. Our campuses have a broad and deep 
impact on regional economies, citizens and businesses. We serve 420,000 
students who come to us as new high school graduates, as adult 
learners, or as workers and professionals retooling to meet the current 
and future needs of Minnesota's businesses.
    We are the system of access and opportunity, educating 60 percent 
of Minnesota's undergraduates, with 88 percent of our students from 
Minnesota. Eighty-five percent of our graduates get jobs related to 
their field of study, and 80 percent stay in Minnesota to work or 
continue their education and contribute to Minnesota's quality of life.
    Each year, we deliver 49 percent of new teaching graduates in the 
state, 83 percent of new nursing graduates, 84 percent of new 
construction trades workers, 85 percent of new law enforcement 
graduates, 90 percent of new mechanics and 9,000 fire fighters and 
first responders.
    The colleges and universities confer more than 40,000 degrees, 
certificates and diplomas each year, preparing Minnesota's workforce 
with the skills required by business and industry. We prepare our 
students to be good citizens and future leaders. In addition to 
providing certificate and degree programs, we deliver 6,000 customized 
training programs to businesses across Minnesota, to ensure that 
120,000 workers each year are up-to-date on the latest technologies 
needed for Minnesota to remain productive and competitive.
    To be successful in this role, we must continually redesign how we 
do business, how we work together to reduce costs and increase the 
effectiveness of our operations. Over the past decade, demand has 
soared with enrollment up 15 percent. Over this same period, we have 
worked prudently to manage our operating costs and increase 
productivity and have had some success. Faculty productivity has 
improved 12 percent; and compared to similar systems throughout the 
country, MnSCU's administrative spending per student ranks 37th out of 
50.
    We are the state's most affordable higher education option. We 
cannot meet the state's workforce needs or ensure access to higher 
education unless we can reduce the financial barriers to college.
    So what are the challenges? The bottom line is we are facing a 
significant future workforce shortage. First, Minnesota has an 
immediate and growing skills gap that is holding back job creation and 
our economy. There are many good jobs available, but there is a 
shortage of people with the education to do those jobs. I hear from 
companies across Minnesota about a dire need for workers with advanced 
skills, particularly in the manufacturing, bio-tech and health care 
sectors. The painful reality is that many of the 167,000 Minnesotans 
without jobs do not have the education needed for the new economy.
    Second, we are facing a significant shortage of workers with the 
education needed for the jobs of the future. By 2018, 70 percent of all 
jobs in Minnesota will require some postsecondary education; and 85 
percent of the new jobs created between now and 2018 will require some 
postsecondary education with over half of those jobs requiring a 
certificate or associate degree, not a baccalaureate degree.
    Put differently, in this century, Minnesota's most precious 
resource is not its land, mines, rivers, or timber, but our people. To 
compete in the global, knowledge economy, Minnesota's workforce needs 
higher levels of education than ever before. We need a more robust 
pipeline of increasingly skilled workers, innovative and creative 
thinkers who solve problems, are on the leading edge of knowledge 
creation, and can bring those solutions to market. Minnesota's 
workforce must also meet the needs of global customer service, 
production, assembly, delivery and distribution systems. If we don't 
provide the workforce that firms need to be globally competitive, our 
businesses and factories will move to where they can find those 
workers.
    Succinctly put, if we fail to meet our state's evolving workforce 
needs, Minnesota will be in great jeopardy.
    Third, K-12 preparation is not where it needs to be to meet the 
future workforce needs of Minnesota. About one-fourth of Minnesota 
students entering high school don't graduate on time; one-half of 
students of color who enter high school don't graduate on time; and too 
many of all those who do graduate are not college-ready.
    Minnesota now has the third largest achievement gap in the Nation. 
This means that our state's fastest growing populations--people from 
communities of color and families of modest financial means--are the 
least prepared for the jobs that lie ahead. We must close the 
achievement gap. Minnesota business needs a diverse workforce to 
compete in the global economy. And going forward, there will be 
virtually no jobs that will provide a decent standard of living to 
those who don't complete some postsecondary education. Failing to close 
this gap will condemn those left behind to a life of poverty. We simply 
cannot allow this to happen. We must ensure that all high school 
students are college ready so they can acquire the skills needed for 
the work that needs to be done in Minnesota.
    Fourth, the State of Minnesota has disinvested in higher education. 
State funding of higher education has declined with Minnesota's 
investment per student in higher education dropping faster than the 
national average. Between Fiscal Year 1999 and Fiscal Year 2010, 
Minnesota's support of higher education fell 40 percent in constant 
dollars, compared to a 19 percent decrease for the Nation as a whole. 
Over the past two years, only nine states in the country decreased 
higher education spending more than in Minnesota. Minnesota's cuts to 
higher education were five times deeper than the national average. 
Minnesota's support of higher education is no longer above average at a 
time when above average is no longer good enough.
    The impact of all this on students has been profound. The stark 
reality is that state funding per student in Minnesota State Colleges 
and Universities--in constant dollars--has been cut 46 percent since 
2000. Withdrawal of state support has pushed more of the financial 
responsibility onto students and that trend cannot continue if we are 
going to meet Minnesota's workforce needs. The cost--in constant 
dollars--of educating a student in MnSCU is actually 10 percent lower 
than it was a decade ago; it's who pays the cost that has shifted from 
the state to the students.
    We are facing a perfect storm. At a time when more and more people 
need higher levels of education than ever before, to be prepared for 
the jobs that will enable businesses across Minnesota to compete in the 
global economy, we have slashed our investment in higher education. 
Education was Minnesota's comparative advantage in the last century. It 
must continue to be our comparative advantage in this century, but we 
are in great danger of not being prepared.
    How can we meet these challenges? The Minnesota State Colleges and 
Universities are playing a lead role in delivering solutions. We are 
working together with the Minnesota Department of Employment and 
Economic Development; the Minnesota Chamber of Commerce and local 
chambers; the Minnesota Governor's Workforce Development Council; 
Greater Twin Cities United Way; Governor Mark Dayton; and the Minnesota 
Legislature; workforce centers; faculty and staff; foundations, 
businesses, industries, and labor across our state to forge a plan. Key 
to the plan is working together in new ways. Let me share with you some 
of the steps I think we need to take together.
A Four-Part Strategy
    Part 1: We need to map the workforce needs of Minnesota going 
forward, sector by sector, region by region. We need to move from many 
anecdotes to a systematic assessment and precise projections of the 
need for skilled workers. To that end, MnSCU is leading a ``Workforce 
Assessment'' initiative to address the state's growing skills gap. The 
Workforce Assessment initiative will engage employers in developing 
precise projections for how many workers and professionals, with what 
kinds of skills, for what kinds of jobs.
    This spring, we are coordinating more than 40 listening sessions 
with Minnesota employers throughout the state to gain a better 
understanding of their current and future workforce needs. The data 
gathered from the sessions will be used by MnSCU colleges and 
universities to align their certificates and degrees, worker retraining 
and customized training programs with the needs of Minnesota's 
businesses, industries and communities. The initial listening sessions 
focus on specific occupation groups in six industry sectors: 
Healthcare, Information Technology, Manufacturing, Engineering, Energy 
and Transportation. Sessions in the agriculture sector are planned for 
this summer, and sessions for additional sectors, including financial 
services, insurance, mining and forestry will be held this fall.
    At each listening session, employers are being asked to discuss a 
series of questions focused on key occupations in their industry, 
including the following:

        Workforce Supply/Demand: What are your current and future 
        hiring challenges? Where do most of your workers come from 
        today? What does the future of your workforce look like--what 
        types of jobs will you need to fill? What is your time-frame 
        for filling these positions? What is your estimate for how many 
        positions you may need to fill?

        Workforce Skills: What qualities/skills are you currently 
        looking for (or will be looking for in the future) but not 
        finding in your workers? What skills/abilities would you like 
        to see in individuals entering the workforce that you are not 
        seeing today? What changes or trends will affect your industry 
        over the next 2-5 years? What are the implications of these 
        trends for your workforce requirements? What skills or 
        credentials (e.g., technical skills, ``soft'' skills, 
        leadership skills, languages, etc.) do you expect to be looking 
        for in the next two years?

        By listening to Minnesota employers, we can obtain a greater, 
        much more nuanced understanding of the state's workforce needs. 
        Armed with the data obtained from the listening sessions, we 
        can ensure that higher education is delivering the right 
        academic programs and preparing graduates with the skills 
        necessary for the success of Minnesota's businesses and 
        communities. By doing so, we will help more Minnesotans find 
        fulfilling careers while at the same time helping to secure the 
        state's economic prosperity.

        The Workforce Assessment initiative is underway with seven 
        sessions having already been convened and many more scheduled 
        in the upcoming weeks. Already we have heard of the need for 
        students to have greater exposure to hands-on problem solving 
        and real-world business scenarios, stronger math and computer 
        science skills, and a willingness to learn new technologies. 
        Employers speak of the need for ``business critical soft 
        skills'' in time management, conflict resolution and 
        adaptability. In Information Technology, for example, employers 
        said the days of ``banging out code'' are over, and that 
        graduates need to have the ability to work in complex systems 
        and communicate with customers who are tech savvy, but not 
        experts.

    Part 2: We need to make sure that our conversations with business 
and industry are ongoing, so that we can ensure that our college and 
university programs are aligned with Minnesota's workforce needs going 
forward. We need to ensure that we have the right programs, in the 
right places, to prepare the right kind of graduates--with the skills 
they need to work in and lead every sector of Minnesota. This includes 
not only aligning our certificate and degree programs, but our advanced 
certification programs, our programs aimed at retooling workers, and 
our customized training programs that meet the needs of business.
    Part 3: Higher education must do an even better job preparing 
graduates. Our good programs must become excellent, and our excellent 
programs must become preeminent. MnSCU faculty members from across the 
entire state are leading discussions about how we can do more to ensure 
that students realize their full potential and that every one of our 
programs is preparing graduates who are ready for the workplace of the 
future. We must do a better job of helping students complete their 
certificate and degree programs in a more timely fashion. We must 
continue to identify ways to increase the effectiveness and efficiency 
of our operations so that tuition can remain affordable. And finally, 
we must focus on outcomes--the capabilities of our graduates, not the 
test scores of our freshmen--as the measure of success.
    Part 4: We need to ensure that there is a pipeline of high school 
graduates who are college ready and heading to programs that will fill 
the jobs that will enable Minnesota to soar. We are partnering with the 
Minnesota Department of Education and with schools across Minnesota to 
ensure that students from all walks of life--young and old, rich and 
poor, black and white, immigrants and fourth generation Minnesotans--
are all college-ready.
    We must close the achievement gap, and we are partners in statewide 
initiatives to do just that. We must get more students to graduate high 
school proficient in reading, math and science, and ensure that we 
understand the capacities and passions of every student so we can point 
them to the right postsecondary program that will lead to them filling 
critical, well-paying jobs and happy, productive lives. We must take 
what we have learned from our workforce needs assessment into the high 
schools so that we can get the jobs of the future and the skills needed 
to do those jobs on the radar screens of young people so they can chart 
smart courses.
    We must be willing to redesign grades 11-14 to do just that. 
Students should have the option of starting college courses when they 
are ready and not have to wait until they complete grade 12. Not 
everyone needs or wants to pursue a four-year degree. Let's connect 
students with an interest in technical careers with programs in 
technical colleges that are aligned with the jobs of the future. Let's 
make it easier, more cost-effective, more flexible, and more efficient.
    These are huge challenges and I take them on with tremendous 
enthusiasm and a keen sense of responsibility.
    Minnesota State Colleges and Universities play an essential role in 
growing Minnesota's economy and opening the doors of educational 
opportunity to all Minnesotans. We are committed to:

  1.  Ensuring access to an extraordinary education for all 
        Minnesotans. Our faculty and staff will provide the best 
        education available in Minnesota, preparing graduates to lead 
        in every sector of Minnesota's economy. We will continue to be 
        the place of opportunity, making education accessible to all 
        Minnesotans who seek a college, technical or university 
        education; those who want to update their skills; and those who 
        need to prepare for new careers.

  2.  Being the partner of choice to meet Minnesota's workforce and 
        community needs. Our colleges and universities will be the 
        partner of choice for businesses and communities across 
        Minnesota to help them solve real-world problems and keep 
        Minnesotans at the leading edge of their professions. Our 
        faculty and staff will enable Minnesota to meet its need for a 
        substantially better educated workforce by increasing the 
        number of Minnesotans who complete certificates, diplomas and 
        degrees.

  3.  Delivering to students, employers, communities and taxpayers the 
        best value/most affordable option. Our colleges and 
        universities will deliver the highest value to students, 
        employers, communities and taxpayers; and we will be the 
        highest value, most affordable higher education option.

    To meet our commitments to the people of Minnesota will require 
courage to do what's needed when it's needed, creativity to make the 
impossible possible, and collaboration by working together in new ways.
    The ultimate goal that we are committed to is nothing less than the 
economic vitality of our state and the quality of life of its people. 
This is the project I signed up for when I accepted the position of 
Chancellor of Minnesota State Colleges and Universities. This is the 
project I look forward to working with you on over the years ahead.
    Thank you.

    Senator Klobuchar. Our second panel is made up of industry 
and educational leaders who have a crucial role in keeping our 
workforce competitive, as well as attracting talent and setting 
industry standards for American workers. So I was kind of 
thinking in my head when one of our witnesses in the previous 
panel said we always have to start with business--well, we have 
a habit in the Senate of starting with the government, and now 
we are turning to business and those that work with business. 
Maybe it should have been reversed, but we have traditions 
here. And I want to thank you all for coming.
    First of all, I want to introduce Mr. Bob Kill. He's the 
CEO, as I mentioned before, of Enterprise Minnesota, a non-
profit business organization connected to the National Network 
of Manufacturing Extension Partnership Organizations. What he 
basically does is help small and medium-sized manufacturing 
companies work with education services and government to help 
them find skilled workers to compete and grow.
    He also has a mentor program set up. During the worst of 
the downturn, he was out there helping his small businesses to 
find people that would give them advice on how to handle the 
downturn. And he has done an incredible job, so I'm very 
honored to have him here.
    Our next witness will be introduced by Senator Blunt, 
because he happens to be from Missouri.
    Senator Blunt. Well, Chairman, I'm always glad to have 
Missouri witnesses, and I'm always glad to get to introduce 
them. So thanks for letting me do that.
    I want to introduce the President and CEO of Exergonix. 
This is Don Nissanka. He's on the cutting edge with his company 
of designs for energy storage, for really a wide range of 
applications. Don has started other companies and done very 
well with that. He's a self-made success story. His current 
company and the companies he has started in the past employ 
hundreds of people in our State and around the country.
    He works really closely with the University of Central 
Missouri, where he graduated, to train workers and to be sure 
they have the skills they need for high-tech manufacturing. And 
I thank you for including him on the panel today.
    Senator Klobuchar. Thank you very much, Senator Blunt.
    Next we have Dr. Lee Lambert. He is the President of 
Shoreline Community College in Shoreline, Washington. He came 
to the college in January 2005. He is recognized nationally as 
a champion for innovation and change in U.S. higher education 
and is a leading advocate for the advancement of 21st century 
technologies, international education, and global affairs.
    Thank you, Dr. Lambert.
    Next we have Ms. Monica Pfarr. She is the Corporate 
Director of the American Welding Society Foundation. By the 
way, all the time, when I go to events, they say there's 
openings in welding. So now I know where to direct them.
    She has been appointed to spearhead the American Welding 
Society initiatives, consulting with and building strategy for 
local welders, businesses, and other organizations with needs 
in welding.
    Thank you.
    And next and last we have Ms. Jennifer McNelly. She is the 
President of the Manufacturing Institute, which is the non-
partisan affiliate of the National Association of 
Manufacturers. We are pleased to have the president of NAM out 
in Minnesota, and we went and he saw firsthand--went to visit 
some of the companies where we actually have a lot of openings 
and heard about the issues we have. And we've truly appreciated 
working with NAM on the bill that I have with Senator Brown as 
well as one we're working on with businesses.
    So thank you.
    She is one of the chief architects of one of the 
Institute's flagship reform efforts, the NAM-endorsed 
Manufacturing Skills Certification System.
    That's why I saw you nodding your head when I asked about 
certifications.
    She has focused on workforce development for the industry.
    So thank you very much.
    We will begin with Mr. Kill.

  STATEMENT OF ROBERT H. KILL, PRESIDENT AND CEO, ENTERPRISE 
                           MINNESOTA

    Mr. Kill. Madam Chair, Ranking Member Blunt, and members of 
the Committee, thank you for the opportunity to testify. My 
name is Bob Kill. I'm the President and CEO of Enterprise 
Minnesota, and we are the Minnesota affiliate of the 
Manufacturing Extension Partnership, the acronym MEP.
    We operate as a stand-alone, non-profit, consulting 
organization that focuses on medium and small manufacturers to 
help them compete and grow profitably. And as the MEP 
affiliate, we pride ourselves in measuring the business results 
achieved by our clients to assure their investment and the 
investment of Federal dollars are used wisely. Additionally, we 
undertake initiatives to bring visibility to the value of our 
manufacturing sector, including our annual State of 
Manufacturing Survey.
    In our state, there are almost 8,000 manufacturers. 
Manufacturers provide almost 15 percent of our jobs and 18 
percent of the wages. Manufacturing jobs in Minnesota pay an 
average weekly wage of $1,120, which is a 22 percent multiple 
over the average weekly wage across all industries.
    Yet with those statistics, in the fourth quarter of 2011, 
there were over 4,900 unfilled jobs in our manufacturing 
sector, almost 10 percent of all job vacancies. This means that 
there is $5.5 million in average weekly wages that aren't being 
paid due to vacant positions. And that number will continue to 
grow, based on the results of our survey.
    The State of Manufacturing Survey is our annual poll of 400 
manufacturing executives, and we supplement the poll with 20 
focus groups. And in the poll, the concern over attracting 
qualified workers has more than doubled in the past year, with 
31 percent of manufacturing executives saying it's a concern, 
up from 14 percent in 2011. The 200 participants in the focus 
groups further magnify this challenge, and the challenge is at 
all levels within manufacturing, the entry level, two-year 
technical, and also four-year degrees.
    Rapidly changing technology presents an additional hurdle 
and widens the gap between the sector's existing workers and 
the skills that are needed in today's manufacturing. In our 
state, we've tried to close that gap with a program called the 
Growth Acceleration Program, acronym GAP, a program funded by 
our state that helps small manufacturers accelerate business 
improvements to create jobs.
    GAP funding helps businesses buy down the cost of our 
services by providing up to $1 of State money for every $3 a 
company invests. To date, this program has helped 192 
manufacturing companies create or retain over 1,700 jobs. 
Because we are an MEP center, and we measure the results, it 
has shown a realization of almost a 30-to-1 return spent on 
GAP.
    Of course, the other way to close the skills gap is to 
increase the talent pool and, I think, strategically, is our 
long-range challenge. The Chancellor of Minnesota State 
Colleges and Universities, Steven Rosenstone, says that 85 
percent of all new jobs created between today and 2018 will 
require post-secondary education. But less than half of them 
require a baccalaureate degree. Chancellor Rosenstone, new to 
his position, has dedicated schools to finding the right path 
for each student based on their passions and interests.
    It is essential to attract more young people to 
manufacturing by making them and their parents aware of the 
great opportunities that exist and to create the true image of 
today's advanced manufacturing. Building these public-private 
collaborations between communities and schools and 
manufacturers is vital to closing the skills gap.
    At two colleges in Minnesota is the Right Skills Now 
program that I think will be talked about a little bit later. 
An important part of our role as an MEP center is to make sure 
that manufacturers do their part by speaking their minds and 
opening their doors to young people, parents, and the public 
sector to show this firsthand career opportunity.
    And they are doing their part. Over the past four years, 
Enterprise Minnesota has arranged and facilitated close to 300 
tours by elected officials and their staff. The power of the 
Federal Government can be used to expose the teachers and 
students and parents to these careers that exist. This 
increasing visibility on a national basis is integral to the 
future of manufacturing.
    Thank you for the opportunity to testify today. 
Manufacturing is back in the positive spotlight, and we all 
look forward to being a part of attracting the new workforce.
    [The prepared statement of Mr. Kill follows:]

       Prepared Statement of Robert H. Kill, President and CEO, 
                          Enterprise Minnesota
    Chairman Klobuchar, Ranking Member Blunt and members of the 
Committee, thank you for the opportunity to testify on behalf of 
Enterprise Minnesota at this Subcommittee on Competitiveness, 
Innovation & Export Promotion hearing on ``Promoting American 
Competitiveness: Filling Jobs Today and Training Workers for 
Tomorrow.''
    My name is Bob Kill, and I am the President and CEO of Enterprise 
Minnesota. We are the Minnesota affiliate of the Manufacturing 
Extension Partnership (MEP).
    Enterprise Minnesota is a standalone non-profit business consulting 
organization that helps medium-sized and small manufacturers in 
Minnesota to compete and grow profitably. As an MEP center, we pride 
ourselves in measuring the business results achieved by our clients to 
assure their investment and Federal dollars are used wisely. To further 
our mission we are committed to bringing together the public and 
private stakeholders to further the success of manufacturing in our 
state. We also undertake initiatives to bring visibility to the value 
of Minnesota's manufacturing sector, including the annual State of 
Manufacturing survey, now in its fourth year.
    Manufacturing is vital to our communities and state. According to 
our Department of Employment and Economic Development (DEED):

  <bullet> There are nearly 8,000 manufacturers in the state of 
        Minnesota.

  <bullet> Manufacturing provides almost 15 percent of Minnesota's 
        private sector jobs and 18 percent of the wages.

  <bullet> Each manufacturing job supports 1-2 additional careers in 
        the state through supplier purchases and employee spending.

  <bullet> Manufacturing jobs in Minnesota pay an average weekly wage 
        of $1,120, which is a 22 percent multiple over the average 
        weekly wage of $915 across all industries.

    In the fourth quarter of 2011, there were 4,925 unfilled jobs in 
Minnesota's manufacturing sector, accounting for 9.8 percent of all job 
vacancies in the state. This means that there is a collective $5.5 
million in average weekly wages that could be paid to manufacturing 
workers, that isn't being paid due to vacant positions in the industry. 
That number of career vacancies continues to grow based on the results 
of our State of Manufacturing survey. This gap will widen as more 
workers retire. As a sector, manufacturing has among the state's oldest 
employees.
    The State of Manufacturing is our annual poll of 400 manufacturing 
executives from a cross-section of Minnesota companies and locations. 
The goal is to get an accurate assessment of the state of the Minnesota 
manufacturing sector from the perspective of the industry's decision-
makers. We also supplement the poll with a series of focus groups held 
across the state. In the poll, we found that concern over attracting 
qualified workers has more than doubled in the past year, with 31 
percent of manufacturing executives saying it is a concern for their 
firm, up from 14 percent in 2011. Nearly 6 out of 10 (58 percent) 
manufacturing executives also say it is a challenge to attract 
qualified workers to their companies. This is a noticeable increase 
from 2011, when 45 percent reported difficulty in attracting qualified 
workers. Additionally, the 200 manufacturers that participated in the 
20 focus groups magnified this challenge. We used the term qualified 
rather than skilled workers as we find that the challenge is at entry 
level, two year technical, with and without experience and also four 
year degree positions.
    The survey also revealed that growing companies exacerbate the 
issue. In looking to the past 12 months, 27 percent of executives in 
the State of Manufacturing survey reported adding to their workforce. 
Over the next 12 months, larger companies, especially, anticipate 
continued growth. Forty-six percent of executives at firms with $5 
million or more in annual revenues and 44 percent of executives at 
firms with more than 50 employees expect their workforce to grow over 
the next year.
    Rapidly changing technology presents another hurdle and widens the 
gap between the sector's existing workers and the skills that are 
needed in today's highly automated precision manufacturing 
environments. In Minnesota, we've tried to close that gap through the 
Growth Acceleration Program (GAP)--an effort funded by our state that 
helps small manufacturers accelerate business improvements to grow and 
create jobs. GAP funding helps businesses buy down the cost of business 
services that we provide at Enterprise Minnesota by providing up to $1 
of state money for every $3 a company invests, up to $50,000 per year. 
To date, GAP has helped 192 manufacturing companies across Minnesota 
create or retain over 1,700 jobs. Participating companies have realized 
a $30+ return for every $1 spent on GAP, and some companies have 
experienced a 40-to-1 return on investment.
    Of course, the other way to close the skills gap is to increase the 
talent pool. Chancellor of Minnesota State Colleges and Universities 
(MNSCU) Steven Rosenstone says that 70 percent of all careers in 2018 
will require some post-secondary education; 85 percent of all new jobs/
careers created between today and 2018 will require post-secondary 
education, with less than half of them requiring a baccalaureate 
degree. Chancellor Rosenstone has dedicated his schools to finding the 
right path for each student based on a deeper understanding of their 
passions, interests and skills, as the kind of work that needs to be 
done in Minnesota.
    It is essential to attract more young people to manufacturing by 
making them and their parents aware of the great opportunities that 
exist in manufacturing, and to create a better image of what 
manufacturing can offer as a career. Building public-private 
collaboration between communities, schools and businesses is key to 
closing the skills gap. An important part of our role as an MEP center 
is the make sure that manufacturers do their part by showing up, 
speaking their minds and opening their doors to young people, parents, 
and the public sector to show firsthand the career opportunities. And I 
can assure you, they are doing their part. There are far too many 
examples to go into here but over the past four years we have arranged 
and facilitated over 200 tours by elected officials.
    The input of the Federal Government is not just legislative, but 
also to use the bully pulpit to expose teachers, students, and their 
parents to the exceptional careers that exist in manufacturing 
companies. Increasing the visibility of these great careers from a 
national basis is integral to the success of our businesses and our 
local, state and national economy, and we firmly believe that these 
public/private collaborations are the way to build that visibility 
efficiently and effectively.
    Thank you for the opportunity to testify today. Manufacturing is 
back in the ``positive spotlight'' and I look forward to being a part 
of attracting our new workforce to the great careers available.

    Senator Klobuchar. Thank you very much, Mr. Kill.
    Mr. Nissanka.

 STATEMENT OF DON NISSANKA, PRESIDENT AND CEO, EXERGONIX, INC.

    Mr. Nissanka. Madam Chairwoman, Senator Blunt, thank you 
very much for giving me the opportunity to talk today. My name 
is Don Nissanka. I'm President and CEO of Exergonix in Lee's 
Summit, Missouri.
    Exergonix designs and manufactures innovative, lithium-
based, energy storage systems for a wide range of applications, 
for military, telecommunications, and to support the great 
storage requirements. We produce these systems in sizes small 
enough for individual cell tower support in homes, as well as 
large enough storage systems to support the utility industry 
and electrical energy storage.
    Our systems provide the missing link that makes renewable 
energy cost effective and will allow nations around the world 
to implement a worldwide, workable, smart and decentralized 
utility grid.
    I came to the U.S. about 25 years ago. I received an 
excellent education from one of the outstanding universities in 
Missouri, the University of Central Missouri, which provided me 
a continuing series of jobs and training. Nearly a decade ago, 
I decided I wanted to go out on my own. I built a company and 
created new technology jobs in this country. I watched U.S. 
companies shut down plants and move their businesses overseas 
because they said they just merely wanted to be competitive. I 
felt strongly that this was the wrong approach, and I decided I 
needed to make a difference.
    From that time, my main focus has been to develop high 
technology companies that create good, high-paying jobs in the 
United States. My competitive edge was technology, automation, 
and specialty skills training. We were successful in doing this 
with my first company, now called Dow-Kokam, which today 
employs over 100 people in Missouri and Michigan and which will 
soon hire several hundred more skilled workers to staff our new 
highly automated manufacturing plant in Midland, Michigan.
    But, as you know, it is becoming difficult in many parts of 
the country to find enough well-trained workers with the skills 
needed for today's advanced technology manufacturing. Across 
the United States, there is a shortage of engineers, 
scientists, and skilled manufacturing workers needed to build 
the types of products that my company produces.
    What is important to note, when we move manufacturing jobs 
overseas, what we have forgotten, unfortunately, is that we 
take away the innovation that goes with each job. For example, 
a person building a product on a manufacturing line also 
improves that product on a daily basis. They find better 
processes to manufacture, develop new complementing 
technologies that help businesses grow, and they learn skills 
as a specialist in what they do.
    Technology advancement requires incubation of ideas and 
exposure to basic principles at a grass-roots level early 
enough to keep the creativity flowing. Today, our younger 
generation of workers are not getting the exposure and the 
background that is necessary for innovation early enough to 
keep that creativity going. And, unfortunately, it's hurting us 
because of it.
    The U.S. was a technology leader in the 1980s, which is one 
of the reasons I came to this country as a young man. I feel 
strongly that we have to change the way we educate, train, and 
employ our future leaders so they can be more competitive in 
the development of new ideas.
    When I started Exergonix in 2010, I wanted to take a 
further step toward addressing this need in training and skills 
for workers by creating a business-university partnership which 
would allow students to develop skills leading them directly to 
a job upon them graduating. Working closely with my good 
friend, Dr. Charles Ambrose, the President of my alma mater, 
the University of Central Missouri, we developed the concept 
for the Missouri Innovation Campus.
    The Missouri Innovation Campus is a collaboration between 
business, education, and community leaders to give our students 
the focused science, math, and technology training combined 
with hands-on experience that will lead to jobs upon 
graduation. And those trained students will ensure that our 
advanced technology companies in the community will not have to 
go elsewhere to find trained workers needed for successful 
growth of our companies.
    To implement our plan, last year, Exergonix acquired 85 
acres of land in Lee's Summit. We will locate our headquarters 
and manufacturing facility onto this site, and we are working 
to bring other companies that are in the renewable energy 
sector to become partners with us. Already we have an LED 
lighting manufacturing company committed to be located there.
    UCM will occupy 150,000 square feet of facility on the 
site, and we have companies in the area becoming partners in 
the initiative, including companies like Honeywell, ProEnergy, 
Sprint, Cerner, and Smith Electric Vehicles, committing to hire 
these graduates. Students will be able to go straight from 
classes to their apprenticeship, and as part of this become 
involved in the work we are doing.
    I thank you for the opportunity to speak today. I just 
wanted to share some of my ideas.
    [The prepared statement of Mr. Nissanka follows:]

 Prepared Statement of Don Nissanka, President and CEO, Exergonix, Inc.
    Chairwoman Klobuchar, Senator Blunt, and members of the 
Subcommittee: thank you for the opportunity to appear before you today. 
My name is Don Nissanka, President and CEO of Exergonix in Lee's 
Summit, Missouri. Exergonix designs and manufactures innovative lithium 
ion based energy storage systems for a wide range of applications from 
military to telecommunications to grid storage. We produce these 
systems in sizes small enough for individual cell towers or homes all 
the way to units large enough to be used by electric utilities. Our 
systems provide the missing link that make renewable energy systems 
cost effective and will allow nations around the world to implement a 
workable, smart and decentralized power grid.
    I came to the United States 25 years ago. I received an excellent 
education from one of the outstanding universities in Missouri, the 
University of Central Missouri, which provided me with a continuing 
series of jobs and training throughout my career starting as an intern 
at Gates Energy in the early 90s. Nearly a decade ago, I decided I 
wanted to go out on my own, build a company and create new technology 
jobs in this country. I watched U.S. companies shut down plants and 
move their businesses overseas because they said they wanted to be more 
competitive. I felt strongly that this was the wrong approach, and I 
decided then I needed to make a difference.
    From that time, my main focus has been developing high technology 
companies that create good, high-paying jobs in the United States. My 
competitive edge was technology, automation and specialty skill 
training. We were successful in doing that with my first company--now 
called Dow-Kokam--which today employs more than 100 people in Missouri 
and Michigan and which will soon hire several hundred more skilled 
workers to staff its new highly automated plant in Midland, Michigan.
    But, as you know, it is becoming difficult in many parts of the 
country to find enough well-trained workers with the skills needed for 
today's advanced technology manufacturing. Across the United States, 
there is a shortage of engineers, scientists and skilled manufacturing 
workers needed to build the types of products my company produces.
    When we move manufacturing jobs overseas, what we have forgotten--
unfortunately--is that we take away the innovation that goes with each 
job. For example, a person who builds a product on a manufacturing line 
also improves that product on a daily basis: they find better processes 
to manufacture, develop new complementing technologies that help 
businesses grow, and they learn skills as a specialist in what they do. 
Technology advancement requires incubation of ideas and exposure to 
basic principles at a grass-root level early enough to keep the 
creativity flowing.
    Today, our younger generation of workers is not getting exposed to 
the backbone of innovation early enough to get that creative juice 
going--and that hurts us. The U.S. was a technology leader in the 80s, 
which is one of the reasons I came to this country as a young man. I 
feel strongly that we have to change the way we educate, train and 
employ our future leaders so they can be more creative in the 
development of the next big idea.
    When I started Exergonix in 2010, I wanted to take a further step 
toward addressing this need for well-trained, skilled workers by 
creating a business-university partnership which would allow students 
to develop skills leading them directly to a job upon graduation. 
Working closely with my good friend Dr. Charles Ambrose--President of 
my alma mater, the University of Central Missouri--we developed the 
concept for the Missouri Innovation Campus.
    The Missouri Innovation Campus is a collaboration between business, 
educators and community leaders to give our students the focused 
science, math and technology training combined with hands-on experience 
which will lead to jobs upon graduation. And those trained students 
will ensure that our advanced technology companies in the community 
will not have to go elsewhere to find the trained workers needed to 
successfully grow our companies.
    To implement our plan, last year Exergonix acquired 85 acres of 
land in Lee's Summit--a suburb of Kansas City about an hour west of the 
main UCM campus in Warrensburg. We will locate our headquarters and 
manufacturing facility on this site, and we are working to bring to the 
site other companies in the renewable energy sector such as electric 
vehicle assembly, solar panel integration and other cutting-edge, green 
technologies. Already we have an LED bulb manufacturer committed to 
locating there, and we are looking at an advanced pneumatic generator 
company also to locate into the campus. UCM will occupy a 150,000 
square foot facility on the site, and we have other companies in the 
area--including Honeywell, ProEnergy, Sprint, Cerner and Smith Electric 
Vehicles--committed to hiring graduates. Students will be able to go 
straight from class to their apprenticeship training at Exergonix or 
another company on the site.
    We are working with the University to rewrite the curriculum so 
that it fits our employment needs. We will work with the University to 
help cover student tuition costs--and the result will be students 
walking out the door with their diplomas and into jobs for which they 
already trained and qualified, but without the huge debt burden so many 
graduates today are faced with. As you know, the student tuition debt 
has surpassed the credit card debt in the country. Our Innovation 
Campus idea is a win-win for everyone.
    One of the exciting originalities of the Missouri Innovation Campus 
is that UCM is working with local high schools, community colleges and 
other universities to include their students in the program. Beginning 
this fall, high school students will be able to enroll in the 
technology training program--earning college-level credit and beginning 
an apprenticeship with a local high-tech company. The result is that 
these students will be able to move to solid, high-paying jobs in as 
little as two or three years after finishing high school.
    I am gratified that Missouri Governor Jay Nixon is supportive of 
our project. He recently committed $500,000 to support the project 
and--more importantly--established a $10 million fund to support 
similar projects around the state. The partnerships funded under that 
program will go a long way toward developing the skilled workforce that 
Missouri needs to continue to grow its manufacturing, aerospace and 
green energy industries.
    This country has given me many opportunities. I want to make sure 
that my daughter and her classmates have at least the same 
opportunities I had--both to get a high-quality education and to be 
able to turn it into a good-paying career. As the CEO of an advanced 
technology manufacturing company, I believe the Missouri Innovation 
Campus is exactly the type of program we need to ensure that we meet 
this goal, and our Nation retains and creates as many jobs as possible.
    Attached to my written testimony are a white paper by the 
University of Central Missouri and a recent article by Governor Nixon 
on the Missouri Innovation Campus. I ask that these be included in the 
record.
    Thank you. I'd be pleased to answer any questions you may have.
                              Attachments
            White Paper from University of Central Missouri
A New Vision
    Educational institutions exist to create opportunities for 
individuals to advance their success, invest in their future and give 
back to their community. So why are so many standing on the outside 
looking in?
    For Missouri to meet Governor Jay Nixon's goal for at least 60 
percent of the population to have a college degree by the year 2020, 
educational institutions must develop innovative solutions to the 
biggest obstacles facing students today. Among them is an increasingly 
large debt upon graduation.
    Education is critical to the state's economy. An educated workforce 
attracts new industry, opens new businesses and creates jobs, and it is 
essential for educational institutions to graduate students who meet 
the needs of these future employers. In-demand industries are 
specifically in need of skilled workers with an educational background 
in science, technology, engineering and health care.
    Educational institutions have the tools to equip students for the 
future. Businesses have the demand for a skilled labor force to grow 
and expand in the state of Missouri, but until now, an artificial 
division has separated these areas. The solution? The University of 
Central Missouri and Exergonix, Inc.,--a new ``green'' technology 
company in Lee's Summit--present the Missouri Innovation Campus to 
serve as a model for the marriage of education and industry.
Missouri Innovation Campus
    The Missouri Innovation Campus is a progressive initiative between 
educational institutions, community organizations and businesses 
partners to revolutionize the way students learn and work. Joining in 
this initiative are the University of Central Missouri, Exergonix, 
Inc., City of Lee's Summit, Lee's Summit R-VII School District, Lee's 
Summit Chamber of Commerce, Lee's Summit Economic Development Council, 
Metropolitan Community College-Longview, Cerner Corporation, Honeywell 
and the state of Missouri.
    Together, this partnership will help:
Students

  <bullet> Gain valuable, engaging experience in the applied sciences

  <bullet> Lessen the burden of student debt

  <bullet> Decrease the time it takes to earn a degree
Employers

  <bullet> Acquire skilled workers with competency in emerging 
        technologies

  <bullet> Encourage innovations in science, engineering, education and 
        nursing

    The mission of the Missouri Innovation Campus is to help bridge the 
gap between graduates and workforce demands. In addition to building 
knowledge through their classroom experiences, students will have the 
opportunity to experience a high-impact, real-world environment where 
they can develop skills long before they complete their degrees. The 
Missouri Innovation Campus will also provide an atmosphere for 
educators to stay current in technology areas such as wind and solar 
energy, electric vehicles, energy storage, LED lighting and more.
    One of the greatest obstacles to growth and innovation is student 
debt. The innovation campus will seek new ways to assist students 
through student employment, tuition forgiveness, shared tuition and 
low-interest loan programs. This will greatly lower their overall cost 
and reduce the amount of debt they have upon graduation.
    The Missouri Innovation Campus will be developed on property in 
Lee's Summit near Highway 50 and Missouri 291 South.
Invest in Missouri
    The estimated economic impact of the Missouri Innovation Campus is 
significant to the Kansas City metropolitan area in terms of job 
creation and capital investment in buildings and equipment. Creation of 
a new model in higher education that is student-centered and meets 
critical workforce needs is an investment in the future of the state 
that could not only move Missouri to national prominence but accelerate 
its ability to compete in a world market.
                                 ______
                                 

           The Kansas City Star--Posted on Sun, Feb. 26, 2012

  Missouri Innovation Campus will speed students toward degrees, jobs

                 By Gov. Jay Nixon, Special to The Star

    Imagine students being able to complete their bachelor's degrees in 
under three years--and graduate debt-free.
    Imagine schools providing focused study, from middle school through 
college, which prepares students today for careers of tomorrow.
    Imagine a campus where students get academic credit--and real-world 
training--in state-of-the-art facilities supported by companies on the 
leading edge of science and technology.
    This bold new vision for the future of higher education is taking 
shape today through the Innovation Campus of the University of Central 
Missouri. The campus is the result of an unprecedented partnership 
between the university, Lee's Summit School District, Metropolitan 
Community College, local businesses, community leaders and the state.
    This initiative could not come at a more critical time.
    Today's students face a rapidly evolving, technology-driven global 
economy. Before the end of this decade, the majority of all jobs in the 
United States will require some kind of higher education.
    To compete successfully for the best jobs in the new economy, our 
children will need higher education and training that is focused, 
efficient--and affordable. That's especially true in fields like 
science, engineering, technology and health care, where rapid job 
growth already exists.
    But the current business model for higher education is not keeping 
pace. The rising cost of higher education is pushing a college degree 
out of reach for many.
    Students who graduate are often saddled with thousands of dollars 
of debt. That makes it harder for them to purchase cars and homes and 
keep our economy moving forward.
    At the same time, companies in high-growth sectors need a highly 
skilled workforce to grow, innovate and compete. But here, as in many 
parts of the nation, the gap between skills needed in the workforce and 
skills graduates possess impedes growth.
    By leveraging public and private resources, the Innovation Campus 
holds tremendous potential to boost economic development.
    Here's how it will work.
    Starting this fall, the program will enroll up to 30 high school 
juniors at Summit Technology Academy, a pre-professional technical 
school that serves students from 16 area high schools. They'll be 
prepared to study science and technology at the college level and 
sharply reduce the time it takes to earn their degrees. With 
opportunities to take dual-credit courses at Metropolitan Community 
College, Advanced Placement and other programs, students can earn 
college credits while still in high school.
    Students will also be placed in apprenticeships and on-the-job 
training programs with local business partners, including Cerner, 
Exergonix, DST and Sprint. That provides students the opportunity to 
hone their problem-solving skills in a real-world setting.
    My administration is supporting this unprecedented partnership with 
a $500,000 Community Development Block Grant to fund apprenticeships, 
training and educational opportunities.
    To participate, business partners must commit to creating jobs. 
Innovation Campus students would be highly trained candidates for these 
new positions once they've completed their bachelor's degrees and 
apprenticeship training.
    Beginning Thursday, my administration will make an additional $10 
million available in competitive grant funds to adapt the Innovation 
Campus model across Missouri. I encourage private businesses and all 
Missouri public colleges and universities to look for ways to adapt the 
lessons across our state.
    As governor, I'm committed to making college education more 
affordable and accessible to more families, to training Missourians for 
the jobs and careers of tomorrow, and to growing our economy.
    The Innovation Campus is a bold idea whose time is now.
    Jay Nixon, a Democrat, is governor of Missouri.
     2012 Kansas City Star and wire service sources. All Rights 
Reserved. http://www.kansascity.com

    Senator Klobuchar. Thank you very much.
    Dr. Lambert.

             STATEMENT OF LEE LAMBERT, PRESIDENT, 
                  SHORELINE COMMUNITY COLLEGE

    Dr. Lambert. Madam Chair Klobuchar, Ranking Member Blunt, 
my name is Lee Lambert, President of Shoreline Community 
College, which is located 10 miles north of downtown Seattle. 
Thank you for the opportunity to testify.
    Community colleges are in a unique position to connect the 
needs of business and industry with the men and women who come 
to us for employable skills. Shoreline Community College has 
been at the forefront of implementing the Manufacturing Skills 
Certification System endorsed by the National Association of 
Manufacturers. Today, we are leading the way to implement the 
Right Skills Now program recently touted by President Obama.
    Our campus is also one of two national innovation centers 
connected to the National Coalition of Certification Centers, 
or NC3 for short. Our success is built on partnerships. Let me 
illustrate how we do this.
    I'll start with our Professional Automotive Training 
Center, because it is the blueprint for all of our efforts. The 
center is one of the premiere automotive technician programs in 
the United States. That's not our marketing slogan. It is 
something our partners tell us.
    The center is home to General Motors, Chrysler, Honda, and 
Toyota's new technician training for the area new car dealers. 
The Puget Sound Auto Dealers Association is co-located on our 
campus. In addition to the four, other manufacturers, dealers, 
and suppliers send about 10,000 incumbent workers a year to the 
center for skills upgrade training. We also created an entry-
level General Service Technician program in response to 
industry needs.
    Through the Automotive Youth Educational System, a program 
of the National Institute of Automotive Service Excellence, we 
connected with high school students. We also bring high school 
automotive instructors from across the Pacific Northwest to the 
center to train on the latest technologies.
    Every student in our factory-sponsored program is placed 
with a local automotive dealer. Students cycle between the 
college and the work place, immediately practicing what they've 
just learned. Many graduate with a two-year Applied Associate 
in Arts and Sciences degree, along with manufacturer-specific 
training certificates. And these students are getting good 
jobs, with placement rates of virtually 100 percent.
    How did we do all this? We asked each of our partners what 
we can do for them, not what they can do for us. We are using 
the same approach with the aerospace industry. Our campus is 
just 15 miles from Boeing's Everett plant, home of the 
production lines for the 747, 767, 777, and 787 airplanes.
    The aerospace industry is facing serious workforce 
challenges. So we met with Boeing and some of the 600 or so 
supplier firms in the state to ask what they need. Our CNC 
machining program is a NIMS accredited program and trains 
students to use $100,000 computer numerical control machines 
the size of a room to produce the precision parts needed to 
build airplanes.
    We listened to industry and responded. Our lead instructor 
designed a short-term aerospace-specific course. That course is 
now adopted by 10 other community colleges in the State of 
Washington to help students get jobs and help industry get 
trained workers.
    These two programs share a number of important traits. Both 
use industry-based curriculum. In some cases, the curriculum 
comes directly from industry. Both use third-party assessments. 
Of course, our students get grades, degrees, and certificates 
from the college, but they also receive industry-endorsed 
certifications.
    Our GST and CNC programs use I-BEST, or Integrated Basic 
Education and Skills Training. Washington community colleges 
invented this nationally recognized program which adds another 
instructor to the classroom to help students with English 
language or math. Shoreline is the largest I-BEST program in 
the State of Washington.
    Both use the Career Navigator program. This is a 
partnership with the Aspen Institute, the Seattle-King County 
Workforce Development Council, and Pacific Associates. The 
Career Navigator matches students with employers to ensure both 
get what they need. The program is getting phenomenal results, 
with virtually every student finding a family wage job in our 
region. We found a model that works, putting people in jobs 
that industry needs filled.
    So thank you for your time. I would be happy to answer any 
questions.
    [The prepared statement of Dr. Lambert follows:]

             Prepared Statement of Lee Lambert, President, 
                      Shoreline Community College
    Madam Chairwoman and members of the Committee, my name is Lee 
Lambert, President of Shoreline Community College. Thank you for the 
opportunity to address this topic that is so important to our citizens 
and their ability to compete in an increasingly globalized economy.
    Community colleges are in a unique position to connect the needs of 
business and industry with the men and women who come to us for 
employable skills. Shoreline Community College has been at the 
forefront of implementing the Manufacturing Skills Certification System 
endorsed by the National Association of Manufacturers. Today, we're 
leading the way to implement the Right Skills Now program recently 
touted by President Obama. Our campus is also one of two national 
innovation centers connected to National Coalition of Certification 
Centers.
    Our success is built on partnerships. Let me illustrate how we do 
this:
    I'll start with the Professional Automotive Training Center because 
it is the blueprint for all our efforts. The Center is the premier 
automotive technician program in the U.S. That's not our marketing 
slogan; it is something our partners tell us.
    The Center addresses the needs of students, the state, auto 
manufacturers, industry suppliers and auto dealers. We train 
technicians for dealers selling new GM, Chrysler, Honda and Toyota 
vehicles. The Puget Sound Auto Dealers Association is on our campus. 
Other manufacturers and suppliers send about 10,000 incumbent workers a 
year to the Center for skills-upgrade training.
    We also reach out to the K-12 system. Through the national 
Automotive Youth Educational System, we connect with students in high-
school automotive programs. We also bring high-school automotive 
program instructors from across the Pacific Northwest to the Center 
every summer to train on the latest technology.
    Every student in the factory-sponsored programs is also placed with 
a local automobile dealer. Students cycle between college and the 
workplace, immediately practicing what they've just learned. Many 
graduate with a two-year Applied Associate in Arts and Sciences degree 
along with manufacturer-specific training certificates.
    And these students are getting jobs, good jobs, with a placement 
rate of virtually 100 percent.
    How did we do all this?
    We ask each of our partners what we can do for them, not what they 
can do for us.
    We are using the same approach with the aerospace industry.
    Our campus is just 15 miles from Boeing's Everett plant, home of 
the production lines for 747, -67, -77 and -87 airplanes. The aerospace 
industry is facing serious workforce challenges. So we met with Boeing 
and some of the 600 or so supplier firms in the state to ask what they 
need.
    Our CNC machining program trains students to use $100,000, 
computer-controlled machines the size of a room to produce the 
precision parts needed to build airplanes. We listened to industry and 
responded. Our lead instructor designed a short-term, aerospace-
specific course. That course is now adopted by 10 other colleges to 
help students get jobs and help industry get trained workers.
    These two programs share a number of important traits.
    Both use industry-based curriculum. We teach what the industry 
needs an employee to know. In some cases, the curriculum comes directly 
from industry.
    Both use third-party assessments. Of course, our students get 
grades, degrees and certificates from the college. But, they also 
receive industry-endorsed certifications that show they have the 
knowledge, skills and abilities to do the job.
    Both use I-BEST, or Integrated Basic Education and Skills Training. 
Washington community colleges invented this nationally recognized 
program which adds another instructor to the classroom to help students 
with English language or math. Shoreline is the largest I-BEST provider 
in the state.
    Both use the Career Navigator program. This is a partnership with 
the Aspen Institute, the Seattle-King County Workforce Development 
Council and Pacific Associates. The career navigator matches students 
with employers to ensure both get what they need. The program is 
getting phenomenal results with virtually every student finding a 
family-wage job in our region.
    We've found a model that works, putting people in jobs that 
industry needs filled. Now we're working to apply in other areas just 
as fast as we can.
    Thank you for your time.
            Supplement--Background for Testimony References
NAM-endorsed Manufacturing Skills Certification System
<bullet>  Overview

<ctr-circle> Companies continue to report they cannot find individuals 
    with the skills required for today's advanced manufacturing 
    workplaces. The Manufacturing Institute responded by creating the 
    NAM-Endorsed Manufacturing Skills Certification System to directly 
    address the deficits in manufacturing education and training. The 
    system includes nationally portable, industry-recognized 
    certifications that are combined with for-credit education 
    programs. These education pathways are directly aligned to career 
    pathways in manufacturing. Students progressing through the 
    programs earn college credit toward a degree, a national 
    certification with labor market value and the hands-on technical 
    experience.

<bullet>  Key points

<ctr-circle> Stackable credentials

  <bullet>  The foundation is the National Career Readiness Certificate 
        (NCRC), issued by ACT (formerly American College Testing 
        Program). It is a portable and evidence-based predictor of 
        workplace success across all industry sectors. The NCRC 
        measures the following skills:

    <bullet>  Problem solving, critical thinking, Reading and using 
            written, work-related text, applying information from 
            workplace documents to solve problems, applying 
            mathematical reasoning to work-related problems, setting up 
            and performing work-related mathematical calculations, 
            locating, synthesizing, and applying information that is 
            presented graphically, comparing, summarizing, and 
            analyzing information presented in multiple, related 
            graphics.

<ctr-circle> Support for industry

  <bullet>  The system includes support materials and processes to help 
        employers make the best decisions regarding human resources, 
        including:

    <bullet>  Personal effectiveness: Will they show up on time, ready 
            for work, and be able to work in teams?

    <bullet>  Essential academic skills in reading, writing, math, and 
            using and locating information: Can they communicate 
            effectively and interpret key instructions?

    <bullet>  Core manufacturing competencies: Do they understand the 
            basics of safety, quality assurance and continuous 
            improvement, or lean?

    <bullet>  Key technical skills for the production line: Do they 
            have high-tech skills consistent with the needs of the 
            manufacturing processes?

<ctr-circle> Support for education

  <bullet>  Integrating the skills certifications into education 
        pathways implies that they should become part of degree 
        programs of study, so that a worker can progressively pursue 
        stackable credentials and ``bank'' credits, engaging in a 
        lifetime of learning. This upwardly mobile ladder directly 
        demonstrates how learning is a continuum throughout a worker's 
        life as more competencies are acquired and documented with a 
        recognized credential. System support includes:

    <bullet>  Planning and Research: Use data-driven decision making to 
            determine high-growth industries/high-demand occupations, 
            target critical career pathways for development and map 
            manufacturing-related assets and resources.

    <bullet>  Design and Development: Based on targeted career pathways 
            and programs of study, engage industry leadership to build 
            employer demand and recruit supportive faculty to audit 
            programs against certifications requirements.

    <bullet>  Implementation: Take action to fill skill gaps in 
            curriculum, provide professional development, develop 
            systems to award certifications and recruit students into 
            target manufacturing-related programs of study.

    <bullet>  Reassess for Continuous Improvement: Report on outcomes, 
            repurpose for continuous improvement and plan for 
            sustainability.

<bullet>  Shoreline Community College involvement

  <ctr-circle> Participant in creating the NAM-Endorsed Manufacturing 
        Skills Certification System

  <ctr-circle> Applying the NAM-Endorsed Manufacturing Skills 
        Certification System to college-level programs such as CNC 
        Machinist and Automotive Technician.

  <ctr-circle> Working to expand application to additional programs 
        such as Clean Energy Technology and Biotechnology.

<bullet>  Links

  <ctr-circle> http://www.themanufacturinginstitute.org/Education-
        Workforce/Skills-Certifi
        cation-System/Skills-Certification-System.aspx

  <ctr-circle> http://www.act.org/certificate/
Right Skills Now
<bullet>  Overview

<ctr-circle> Right Skills Now is an acceleration of the NAM-Endorsed 
    Manufacturing Skills Certification System. Right Skills Now fast-
    tracks and focuses career training in core employability and 
    technical skills by ``chunking'' relevant curriculum that leads to 
    interim credentials in critical machining skills. While the initial 
    model focuses on machining skills, for which there is immediate 
    demand, the program can accelerate skills development in other 
    foundational skills areas for advanced manufacturing like 
    production or welding.

<bullet>  Key points

<ctr-circle> Providing workers and students with fast-track skills for 
    employment.

<ctr-circle> Providing manufacturers with just-in-time talent from the 
    lab/classroom to the shop floor.

<ctr-circle> Accelerating and expanding lifelong learning opportunities 
    for a flexible, technical workforce.

<bullet>  Shoreline Community College involvement

<ctr-circle> Developed CNC Machining program recently endorsed by Right 
    Skills Now.

<ctr-circle> Disseminated endorsed CNC Machining program to 10 
    additional colleges in Washington state.

<bullet>  Links

<ctr-circle> http://www.themanufacturinginstitute.org/Education-
    Workforce/Right-Skills-Now
    /Right-Skills-Now.aspx

<ctr-circle> http://www.shoreline.edu/AcademicsNews/blog/
    default.aspx?id=104&t=Shoreline
    -leads-state-nation-with-job
NC3 (National Coalition of Certification Centers)
<bullet>  Overview

<ctr-circle> The National Coalition of Certification Centers (NC3) was 
    established to address the need for strong industry partnerships 
    with educational institutions in order to develop, implement and 
    sustain industry-recognized portable certifications that have 
    strong validation and assessment standard.

<bullet>  Key points

<ctr-circle> NC3 is currently focused in three broad areas

  <bullet>  Transportation

    <bullet>  Diagnostics, diesel, under-car, vehicle management, 
            multimeter, torque

  <ctr-circle> Energy

    <bullet>  Multimeter, torque

  <ctr-circle> Aviation

    <bullet>  Multimeter, torque

<bullet>  Shoreline Community College involvement

<ctr-circle> A founding member of NC3

<ctr-circle> President Lambert is incoming Board Chairman

<ctr-circle> Shoreline host of NC3 national train-the-trainer 
    conference

<bullet>  Links

<ctr-circle> http://www.nc3.net/

<ctr-circle> http://www.shoreline.edu/OnCampus/blog/
    default.aspx?id=290&t=Shoreline-
    hosts-NC3-industryeducation

<ctr-circle> http://www.youtube.com/watch?v=YbRFInPfWhs

<ctr-circle> http://www.flickr.com/photos/shorelinecommunitycollege/
    sets/7215762948605
    0287/
Innovation Center
<bullet>  Overview

<ctr-circle> Shoreline is working with NC3 and its corporate partners 
    such as Snap-on Industrial to create a space for industry-endorsed 
    certifications to not only be delivered, but also be developed.

<bullet>  Key points

<ctr-circle> Snap-on Innovation Center at Shoreline Community College 
    is a focal point for delivering and developing industry-endorsed 
    certifications and training.

<bullet>  Shoreline Community College involvement

<ctr-circle> Shoreline is home to one of only two Innovations Centers 
    under the sponsorship of Snap-on Industrial.

<bullet>  Links

<ctr-circle> http://www1.snapon.com/Education

<ctr-circle> http://www1.snapon.com/industrial/Education/
    Certification.nws

<ctr-circle> http://www.flickr.com/photos/shorelinecommunitycollege/
    sets/7215762948605
    0287/
Professional Automotive Training Center
<bullet>  Overview

<ctr-circle> Today's automotive technician is not just a ``mechanic.'' 
    The electronic and mechanical sophistication of today's vehicles, 
    along with hybrids and full-electric vehicles means these jobs are 
    highly technical.

<bullet>  Key points

<ctr-circle> Program ranking

  <bullet>  Toyota ranks the Shoreline program as best in the U.S. for 
        five of the past six years.

  <bullet>  Honda ranks the Shoreline instructor as No. 1 in the U.S.

  <bullet>  GM gives Shoreline instructor highest ``World Class 
        Technician'' rating

<bullet>  Shoreline offers a number of programs including:

  <bullet>  Manufacturer-specific training for technicians headed for 
        new car dealerships in Honda, Toyota, GM and Chrysler.

    <bullet>  About 90 students a year

  <ctr-circle> Non-manufacturer specific, short-term training 
        appropriate for employment in independent repair shops and 
        other vehicle service businesses.

    <bullet>  About 30 students a year

  <ctr-circle> Incumbent worker skill-upgrade training in manufacturer-
        , supplier- or dealer-supported regional centers housed on 
        campus. Skills areas range from dealer-based technicians to 
        under-car services to dealership business training in credit 
        and other back-office services and more.

    <bullet>  About 10,000 workers a year

  <ctr-circle> High-school outreach to support students and instructors 
        in high-school programs

    <bullet>  Primarily through AYES, an industry-supported outreach 
            program aimed at early identification of automotive 
            industry career paths.

<ctr-circle> Puget Sound Auto Dealers Association

  <bullet>  Significant support for students and program

  <bullet>  Member participation in capital projects

  <bullet>  Offices on campus

<bullet>  Shoreline Community College involvement

<ctr-circle> Shoreline invented this collaborative model

<bullet>  Links

<ctr-circle> http://new.shoreline.edu/auto/

<ctr-circle> http://youtu.be/BT3OkufOIJ0

<ctr-circle> https://www.ayes.org/Home.aspx

<ctr-circle> http://www.psada.com/
Aerospace industry
<bullet>  Overview

<ctr-circle> The aerospace industry is facing significant labor 
    challenges as the existing workforce nears retirement at the same 
    time new technology and increased production are making increased 
    demands for trained workers. The State of Washington and various 
    stakeholders are making numerous efforts to address the issue.

<bullet>  Key points

<ctr-circle> Boeing and aerospace supplier firms are active 
    participants in creating industry-based curriculum

<ctr-circle> Community and technical colleges are collaborating in new 
    ways and greater levels to meet the industry's needs.

<bullet>  Shoreline Community College involvement

<ctr-circle> Shoreline has been a leading partner in the Aerospace 
    Curriculum Alignment Team, a collaborative group of more than 15 
    community and technical colleges, government, businesses and labor.

<ctr-circle> Shoreline's CNC machining instructor created a two-quarter 
    certificate based on industry needs that is now part of the Right 
    Skills Now program and adopted by 10 additional colleges in 
    Washington

<ctr-circle> Shoreline offers one-, two- and three-quarter certificates 
    in three program tracks each quarter.

<ctr-circle> Programs are offered nights and weekends

<ctr-circle> The two- and three-quarter certificates are NIMS certified 
    and part of the NAM-endorsed Manufacturing Skills Certification 
    System

<ctr-circle> CNC program placement rate is virtually 100 percent
Industry-based curriculum
<bullet>  Overview

<ctr-circle> More than just teaching what an employer needs a worker to 
    know, industry-based curriculum is an integration of the 
    educational and work settings. The underlying concept is that 
    knowledge is easier to acquire and retain when presented in a way 
    that provides relevance to the student's goals. While it is easy to 
    say, such integration can be difficult to do and requires committed 
    focus on the needs of the student and industry partners.

<bullet>  Shoreline Community College involvement

<ctr-circle> Shoreline uses industry-based curriculum in a number of 
    programs, including:

  <bullet>  Automotive

    <bullet>  Instructors in the Toyota, Honda, GM and Chrysler 
            programs use curriculum provided by the manufacturers.

  <ctr-circle> Aerospace

    <bullet>  The two-quarter CNC machining certificate was designed 
            with input and participation from aerospace partners. The 
            program meets specific knowledge, skills and abilities 
            outlined by the industry.
Integrated Basic Education and Skills Training (I-BEST)
<bullet>  Overview

<ctr-circle> In Washington, 400,000 working adults do not have a high 
    school diploma and an additional 1 million adults lack education 
    beyond high school. Only 13 percent of English as a Second Language 
    (ESL) students and less than a third of adult basic education (ABE) 
    students continue on to college-level work. I-BEST pairs workforce 
    training with ABE or ESL so students learn literacy and workplace 
    skills at the same time.

<bullet>  Key points

<ctr-circle> A 2009 study by the Community College Research Center at 
    Columbia University found:

  <bullet>  ``. . . students participating in I-BEST achieved better 
        educational outcomes than did other basic skills students, 
        including those who enrolled in at least one non-I-BEST 
        workforce course. I-BEST students were more likely than others 
        to:

    <bullet>  Continue into credit-bearing coursework;

    <bullet>  Earn credits that count toward a college credential;

    <bullet>  Earn occupational certificates;

    <bullet>  Make point gains on basic skills tests.

    On all the outcomes examined, I-BEST students did moderately or 
        substantially better than non-I-BEST basic skills students in 
        general.

<bullet>  Shoreline Community College involvement

<ctr-circle> Shoreline currently offers four I-BEST programs involving 
    about 600 students, making Shoreline the largest I-BEST provider in 
    Washington. Programs include:

  <bullet>  Automotive General Service Technician: In this three-
        quarter program, students learn the basic automotive technology 
        fundamentals and maintenance procedures to prepare for entry-
        level positions in the service industry.

  <bullet>  Manufacturing/CNC Machinist: This one-, two- and three-
        quarter program prepares students for entry into the high 
        demand job market as a CNC (computer numerical control) 
        Machinist.

  <bullet>  Certificate in Office Technology: This two-quarter 
        certificate program prepares students to work in a variety of 
        office positions such as receptionist, office clerk, or data 
        entry clerk.

  <bullet>  Nursing Assistant Certified: This one-quarter certificate 
        program prepares students for entry into one of the highest 
        demand positions in the health care field. Nursing assistants 
        work with registered nurses and LPNs in hospitals, assisted 
        living facilities and nursing homes.

<bullet>  Links

<ctr-circle> http://new.shoreline.edu/transitional-programs/ibest/
    default.aspx

<ctr-circle> http://www.sbctc.ctc.edu/college/
    e_integratedbasiceducationandskills
    training.aspx

<ctr-circle> http://www.flickr.com/photos/shorelinecommunitycollege/
    sets/72157625925620507/

<ctr-circle> http://www.flickr.com/photos/shorelinecommunitycollege/
    sets/72157625925608723/

<ctr-circle> http://www.flickr.com/photos/shorelinecommunitycollege/
    sets/72157625925600279/

<ctr-circle> http://www.flickr.com/photos/shorelinecommunitycollege/
    sets/72157626050975718/
Career Navigator
<bullet>  Overview

<ctr-circle> Through a grant from the Aspen Institute, Shoreline 
    Community College partnered with the Seattle-King County Workforce 
    Development Council to create the Automotive Career Pathways 
    program. This program features a highly effective career navigator 
    to provide students with the best career guidance, support while in 
    the program and connection to jobs and continued training after 
    graduation. The navigator works on site with students, but is 
    employed by a WorkSource partner to bridge the gap between the 
    college and the workforce systems. Each student forms a personal 
    connection with the navigator, who:

  <bullet>  Facilitates the college enrollment and registration 
        process.

  <bullet>  Helps the student identify financial aid from multiple 
        sources and access these resources.

  <bullet>  Can help to cover emergency expenses that might otherwise 
        derail a student's training.

  <bullet>  Connects students with others services available in the 
        community for multiple needs.

  <bullet>  Work with the student as he or she graduates and gains 
        employment, ensuring that the graduate can keep learning and 
        advancing in the field.

  An evaluation by the Aspen Institute showed that students who 
    enrolled in navigator services were more likely to finish, and 
    afterward, more likely to be employed, working in the expected 
    field and working full-time.
  The model of industry investment and direction, plus quality training 
    based on high standards, plus meeting the non-educational needs of 
    students so they succeed is one that can be replicated throughout 
    the country in multiple industries.

<bullet>  Shoreline Community College

<ctr-circle> Original grant partner

<ctr-circle> Program success has prompted the college to continue to 
    fund the program from local funds.

<bullet>  Links

<ctr-circle> http://www.seakingwdc.org/industry/automotive.html

<ctr-circle> http://www.shoreline.edu/AcademicsNews/blog/
    default.aspx?dtf=2011060100000
    0&dtt=20110630235959

    Senator Klobuchar. Thank you very much.
    Ms. Pfarr.

   STATEMENT OF MONICA PFARR, CORPORATE DIRECTOR, WORKFORCE 
             DEVELOPMENT, AMERICAN WELDING SOCIETY

    Ms. Pfarr. Senator Klobuchar and Ranking Member Blunt, 
thank you very much for this opportunity.
    The American Welding Society is an organization of 70,000 
members with a mission to advance the science, technology, and 
application of welding and allied joining and cutting 
processes.
    Senator Klobuchar. Ms. Pfarr, if you could just wait one 
minute--a vote has been called, so I'm going to go quickly over 
there and come back. Senator Blunt will leave maybe when I come 
back, but if it takes too long----
    Senator Blunt. I'd rather listen.
    Senator Klobuchar. He will listen. We'll call a recess 
briefly, and then I'll be back to ask questions. All right. 
Thank you.
    Senator Blunt [presiding]. All right.
    Ms. Pfarr. Through our AWS Foundation, we support programs 
that ensure the growth and development of the welding industry 
through strengthening research and educational opportunities in 
welding and related industries. We collaborate with other 
organizations, like the Weld-Ed Center, funded by the National 
Science Foundation's Advanced Technological Education Program, 
to complete our workforce research and outreach.
    A common perception for over a decade has been that welding 
and U.S. manufacturing, in general, is dying. Let me point out 
a few facts that may help change that perception.
    Over 90 percent of the total U.S. durable goods 
manufacturing uses welding as a critical enabling technology. 
Welding related occupations provide employment for 986,000 
individuals in the United States. Despite being an important 
part of our economy, the welding industry is faced with some 
serious challenges.
    The average welding professional in the United States is 56 
years of age. There is a need for 238,000 new and replacement 
workers by 2019. Almost daily, newspapers and broadcasts across 
the nation report very similar headlines. Employers are hiring 
welding professionals, but they can't find the skilled welders 
they need. They're offering signing bonuses to qualified 
welding new hires.
    These headlines showcase both the positive and the negative 
landscape within the welding industry. The lack of skilled 
applicants is really threatening to derail the growth that 
we're starting to see in the U.S. economy. The American Welding 
Society is committed to take a leading role in addressing that 
challenge.
    Through our workforce development efforts, we are engaged 
in educational outreach to youth, their parents, transitioning 
workers, and even teachers and career counselors. We have 
numerous programs designed to engage and educate our target 
audience about the many advanced and highly technical career 
opportunities that are available within the welding industry.
    One of our most recent and highly visible projects is our 
new Careers in Welding Trailer, a 53-foot single expandable 
trailer with 650 square feet of exhibit space. Jointly 
sponsored by the American Welding Society and Lincoln Electric, 
it contains five Lincoln virtual reality arc welding 
simulators. These units feed computer generated data with a 
welding gun and helmet equipped with internal monitors. 
Participants practice arc welding in a virtual world. A video 
gaming component awards each weld a score.
    Additionally, the trailer contains interactive educational 
exhibits, including a display wall featuring 11 industry 
segments that use welding, fun facts, industry artifacts, and 
tablets with welding trivia questions. The career wall in the 
trailer displays the many career pathways that are available in 
welding, along with the education required, associated industry 
certifications available, and potential salary ranges. And the 
scholarship wall details information about the almost $400,000 
in scholarships awarded annually by the American Welding 
Society Foundation.
    The Careers in Welding Trailer debuted in October 2011 at 
the FFA National Conference in Indianapolis, where over 5,000 
students virtually welded in 2\1/2\ days. The trailer embarks 
on a 20-week tour this May, exhibiting in events including the 
Indianapolis 500, youth organizations like FFA and Skills USA, 
farm shows, air shows, and State fairs, including Texas, New 
York, Ohio, and Iowa.
    Another exciting and recent achievement was the approval of 
a Boy Scouts Welding Merit Badge. The American Welding Society 
and its dedicated volunteers were instrumental in the 
development of the badge, approved by the Boy Scouts just this 
past fall. The welding badge is part of the Boy Scouts new 
science, technology, engineering, and math curriculum designed 
to help Scouts develop critical skills that are relevant and 
necessary in today's competitive world. The first Scouts were 
just awarded the Welding Merit Badge this past March in Kansas 
City.
    The American Welding Society is the leader in certification 
programs that assist the welding industry in identifying 
qualified welding personnel and provide opportunities for 
welding professionals to demonstrate their qualifications to 
the industry. We currently have over 30,000 individuals that 
hold an AWS certification.
    Some of our certifications require industry work 
experience, while others can be aligned directly with 
educational programs and integrated into high school and 
community college programs of study. The integration allows an 
individual to achieve a portable, industry-recognized 
certification in addition to his or her education. Many of our 
certifications are stackable and thus offer opportunities for 
advancement in education and within the industry.
    We collaborate with the NAM and other organizations to 
promote nationally portable industry-recognized credentials 
within the manufacturing, education, and industry areas. We 
believe this will truly help address the skill shortage.
    Thank you very much for the opportunity to speak.
    [The prepared statement of Ms. Pfarr follows:]

   Prepared Statement of Monica Pfarr, Corporate Director, Workforce 
            Development, American Welding Society Foundation
    Senator Klobuchar, Ranking Member Blunt and members of the 
Subcommittee, thank you for the opportunity to testify on behalf of the 
American Welding Society at this Senate Subcommittee hearing on 
Promoting American Competitiveness: Filling Jobs Today and Training 
Workers for Tomorrow.
    My name is Monica Pfarr, and I am the Corporate Director for 
Workforce Development for the American Welding Society. Our 
organization of 70,000 members has a mission to advance the science, 
technology and application of welding and allied joining and cutting 
processes, including brazing, soldering and thermal spraying. Through 
our AWS Foundation, established in 1989, we support programs that 
ensure the growth and development of the welding industry through 
strengthening research and educational opportunities in welding and 
related industries. We collaborate with other organizations, including 
the Weld-Ed Center, funded by the National Science Foundation's 
Advanced Technological Education program, to complete our workforce 
research and outreach.
    Welding, the fusing of the surfaces of two workpieces to form one, 
is a precise, reliable, cost-effective, and ``high tech'' method for 
joining materials. No other technique is as widely used by 
manufacturers to join metals and alloys efficiently and to add value to 
their products. Most of the familiar objects in modern society, from 
buildings and bridges, to vehicles, computers, and medical devices, 
could not be produced without the use of welding.
    Welding goes well beyond the bounds of its simple description. 
Welding today is applied to a wide variety of materials and products, 
using such advanced technologies as lasers and plasma arcs. The future 
of welding holds even greater promise as methods are devised for 
joining dissimilar and non-metallic materials, and for creating 
products of innovative shapes and designs.
    The common perception for over a decade has been that welding, and 
U.S. manufacturing in general is dying. Let me point out some facts 
that may help change that perception:

  <bullet> The United States is the world's largest manufacturing 
        economy, producing 21 percent of global manufactured products;

  <bullet> Over 90 percent of the total U.S. durable goods 
        manufacturing uses welding as a critical enabling technology;

  <bullet> Welding-related occupations provide employment for 986,000 
        individuals in the U.S.

    Despite being an important part of the U.S. economy, like 
manufacturing, the welding industry is faced with some serious 
challenges:

  <bullet> The average welding professional in the U.S. is 56 years of 
        age;

  <bullet> There is a need for 238,000 new and replacement workers by 
        2019;

  <bullet> There is a misperception that welding is a dying industry 
        with no future for those that choose the field.

    Almost daily, newspapers and news broadcasts all across the Nation 
report very similar headlines--``Employers are hiring welding 
professionals''; ``Employers cannot find the skilled welders they 
need''; ``Employers offer signing bonuses to qualified welding new 
hires''. These headlines showcase both the positive and negative 
landscape within our industry.
    The U.S. economy is improving, evidenced by the growth we are 
seeing in hiring. But the lack of skilled applicants is threatening to 
derail this growth. The lack of skilled applicants is a challenge we 
must address, and the American Welding Society is committed to take a 
leading role.
    Through our workforce development efforts, the American Welding 
Society is engaged in educational outreach to youth, their parents, 
transitioning workers, and even teachers and career counselors. We have 
numerous programs designed to engage and educate this target audience 
about the many advanced and high-tech career opportunities available 
throughout the welding industry.
    One of our most recent and highly visible projects is the ``Careers 
in Welding'' trailer, a 53 foot single expandable trailer with 650 
square feet of exhibit space. Jointly sponsored by the American Welding 
Society and Lincoln Electric, it contains five Lincoln VRTEX 360 
virtual reality arc welding simulators. These units feed computer 
generated data with a virtual welding gun and helmet equipped with 
internal monitors. Participants practice arc welding in a virtual 
environment. A video gaming component awards each ``weld'' a score. 
Additionally, the trailer contains interactive educational exhibits 
including a display wall featuring eleven industry segments that use 
welding, fun facts about welding, industry artifacts, and tablets with 
welding trivia questions. The career wall displays the many career 
pathways available in welding, along with the education required, 
associated industry certifications, and potential salary ranges. The 
``Day in the Life of a Welder'' exhibit contains videos depicting real-
life environments in which welders work. A life-size welder wearing 
personal protective equipment highlights welding as a safe profession. 
And, the scholarship wall details information about the almost $400,000 
in scholarships awarded annually by the American Welding Society 
Foundation.
    The trailer was built by MRA Experiential Tours located in Madison 
Heights, Michigan. MRA hired two welding technology interns from nearby 
Washtenaw Community College in Ann Arbor, Michigan to work on building 
the trailer. In addition to the invaluable industry work experience, 
each student received a $500 scholarship and are interviewed in a video 
featured inside the trailer.
    The ``Careers in Welding'' trailer debuted in October, 2011 at the 
FFA National Conference where over 5,000 students virtually welded in 
2\1/2\ days. The trailer embarks on a twenty week tour this May 
exhibiting at events including the Indianapolis 500, youth 
organizations like FFA and Skills USA, farm shows, air shows, and 
several state fairs including Texas, New York, Ohio, and Iowa.
    Another exciting and recent achievement was the approval of a Boy 
Scouts welding merit badge. The American Welding Society and its 
dedicated volunteers were instrumental in the development of the badge, 
approved by the Boys Scouts in Fall, 2011. The welding badge is part of 
the Boy Scouts new science, technology, engineering, and math (STEM) 
curriculum, designed to help scouts develop critical skills that are 
relevant and necessary in today's competitive world. Requirements 
include learning welding safety and designing and completing a welding 
project. The first scouts were awarded the badge in March, 2012.
    The American Welding Society is the leader in certification 
programs that assist industry in identifying qualified welding 
personnel and provide opportunities for welding professionals to 
demonstrate their qualifications to the welding industry. Currently, 
over 30,000 individuals hold an AWS certification. Some of our 
certifications require industry work experience while others can be 
aligned directly with educational programs and integrated into high 
school and community college degree programs of study. This integration 
allows an individual to achieve a portable, industry-recognized 
certification in addition to his/her education. Many of our 
certifications are stackable, and thus offer opportunities for 
advancement in education and within the industry.
    The American Welding Society is collaborating with NAM and other 
national organizations to promote nationally portable, industry-
recognized credentials within the manufacturing education and industry 
arenas. We believe this approach will help address the skills shortage.
    In conclusion, the American Welding Society and its members are 
committed to engaging and educating the next generation of welding 
professionals. We are focused on providing skilled, certified 
applicants for the employers of our industry.
    We look forward to working with all of you as we continue these 
critical efforts.
    Thank you for the opportunity to testify today.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Blunt. Thank you, Ms. Pfarr.
    Ms. McNelly.

         STATEMENT OF JENNIFER M. McNELLY, PRESIDENT, 
                  THE MANUFACTURING INSTITUTE

    Ms. McNelly. Chairman Klobuchar, Ranking Member Blunt, and 
distinguished members of the Subcommittee, thank you for the 
opportunity to testify. And I am truly honored to be here with 
my colleagues, because I think the diversity of the panel 
actually represents the reality of the challenges we as a 
Nation face in increasing the skills of our Nation's workforce.
    I'm Jennifer McNelly, President of the Manufacturing 
Institute, the non-profit affiliate of the National Association 
of Manufacturers. The United States is the world's largest 
manufacturing economy, producing 21 percent of global 
manufactured products. Manufacturing supports an estimated 17 
million jobs in the U.S., about one in every six private sector 
jobs.
    In 2010, the average U.S. manufacturing worker earned well 
above the national average in pay and benefits. While 
manufacturing remains an important economic force in regions 
across the country, it confronts serious challenges: structural 
costs, the absence of a coherent and coordinated national trade 
policy, and lack of a national innovation strategy.
    And while these issues and others may play out on the front 
pages of the newspapers, a more serious threat looms, a threat 
that not only impacts manufacturing, but also companies in 
every sector of our economy: the deteriorating condition of our 
workforce. Our most recent skills gap survey released last 
October with unemployment just over 9 percent identified 
approximately 600,000 open positions due to the lack of a 
skilled workforce. Eighty-two percent of our Nation's 
manufacturers reported a moderate to serious shortage in 
skilled production labor, all impacting manufacturers' ability 
to grow at a time when we as a nation need job growth.
    As a nation, we've created an education system that's 
almost completely separate from the economy. Traditionally, it 
was the job of schools to educate children and companies to 
train employees. To be competitive today, companies need 
employees who can contribute right away. The only way to 
address this skills gap and support the economic recovery is to 
align education, economic development, workforce, and business 
agendas.
    As representatives of the manufacturing industry, we have a 
solution that fits the needs of our businesses while working 
within the existing structures of secondary and post-secondary 
education. Our solution, the NAM-endorsed Manufacturing Skills 
Certification System, is grounded in the basic skills 
identified by manufacturers as required to work in any sector 
of the manufacturing economy and validated by nationally 
portable, industry-driven credentials.
    We're working to align the certifications into high schools 
and community college programs. And while on the face of it, 
the idea of skill certifications may not seem transformational, 
it is, in fact, reforming education, defining the outcome of 
success, not from completion, but from achievement of an 
industry-based standard.
    For manufacturers, we are applying the same rigor and 
standards we use in our factories and facilities to our most 
important supply chain, our human capital. However, success is 
not attained merely by designing a system. It must create 
results.
    Last summer, we created a fast-track program to meet 
immediate needs of employers in Minnesota. They needed 
qualified machinists or doors would close. So partnering with 
two community colleges, Dunwoody College of Technology and 
South Central College, we developed a program referred to as 
Right Skills Now that trains machinists in 16 weeks to a 
national certification. Early success of the program has led to 
replication in Nevada and Washington. The Institute is also 
replicating the model in production and welding.
    As manufacturers, we measure what matters. For the past 
several months, we've been working with Magnet, the Northeast 
Ohio Manufacturing Extension Partnership Organization, to track 
through their very rigorous evaluation process the economic 
impact and value of these certifications. Preliminary data is 
promising. With five companies, it's already showing results to 
the company's bottom line: $250,000 in increased sales, $6 
million in investments in plants and equipment, 10 jobs 
created. In addition, the company avoided the potential loss of 
sales valued at over $2 million because they could hire 
individuals with the right skills.
    These economic outcomes are what we need to support and 
continue our Nation's recovery and put individuals back to 
work. We also need to look to align Federal workforce training 
to industry demands. That's why the NAM supports S. 1243, The 
America Works Act, that would provide this prioritization. For 
employers, a focus on nationally portable, industry-recognized 
credentials provides a level of quality in potential hires that 
does not exist today. For employees, it ensures that they 
obtain the skills in demand for the work place. For government, 
it ensures Federal investment is used efficiently.
    Madam Chairman, for many years, post-secondary success was 
defined as a four-year degree when a valid, industry-based 
credential can be the gateway to a well-paying job and a great 
career. As a nation, we need a new strategy for our 
manufacturing workforce, grounded in industry standards, with a 
new and renewed cooperation with industry, education, economic 
development, and the publicly funded workforce investment 
system. It's good for manufacturing and good for the nation.
    Thank you.
    [The prepared statement of Ms. McNelly follows:]

          Prepared Statement of Jennifer McNelly, President, 
                      The Manufacturing Institute
    Chairman Klobuchar, Ranking Member Blunt, and distinguished Members 
of the Subcommittee, thank you for the opportunity to appear today to 
testify on behalf of The Manufacturing Institute at this hearing on 
``Promoting American Competitiveness: Filling Jobs Today and Training 
Workers for Tomorrow.''
    My name is Jennifer McNelly, and I am the President of the 
Manufacturing Institute. We are the non-profit affiliate of the 
National Association of Manufacturers (NAM) and our mission is to 
support the Nation's manufacturers through solutions and services 
focused on education, workforce development and innovation 
acceleration.
    For a generation now, the common perception has been U.S. 
manufacturing is dying. So it comes as a shock to most people when you 
point out the actual facts:

  <bullet> The United States is the world's largest manufacturing 
        economy, producing 21 percent of global manufactured products;

  <bullet> Manufacturing supports an estimated 17 million jobs in the 
        U.S.--about one in six private-sector jobs;

  <bullet> In 2010, the average U.S. manufacturing worker earned 
        $77,186 annually, including pay and benefits. The average non-
        manufacturing worker earned $56,436 annually.

    While manufacturing remains an important economic force in regions 
across the country, it now confronts some serious challenges, 
including:

  <bullet> A significant increase in the structural costs facing the 
        industry, caused by both worldwide demand for energy and raw 
        materials and government policies on health care and tax rates;

  <bullet> The absence of a coherent and coordinated national trade 
        policy; and

  <bullet> The lack of a national innovation strategy.

    While these and other issues play out on the front pages of 
newspapers and websites, there is another challenge looming in the 
background, one that threatens not only manufacturers, but also 
companies in every sector of the economy: the deteriorating condition 
of our workforce and, in particular, the next generation work force. 
Our most recent Skills Gap survey, released last October, when the 
unemployment rate was over 9 percent, identified approximately 600,000 
open positions due to the lack of a skilled work force. In fact, 82 
percent of manufacturers reported a moderate-to-serious shortage in 
skilled production labor. All impacting manufacturers' ability to grow 
at a time when we need job growth.
    The U.S. is betting its entire economic future on our ability to 
produce leading-edge products. Whether it's in IT, biotech, aerospace, 
construction . . . it doesn't matter. We'll be the ones to constantly 
create new and better things. This future promises to be bright, but 
only if we have the workforce capable of pushing that leading-edge. And 
right now, that doesn't look like a very good bet.
    We have created an education system that is almost completely 
separate from the economy at large. Traditionally, it was the job of 
schools to educate children and create responsible citizens and it was 
the job of companies to train employees. Jobs for individuals with 
almost any education level were plentiful because companies would spend 
the time and resources to turn them into productive employees. Today, 
companies cannot afford the luxury of time-intensive training programs 
for their workers. They need employees who have the knowledge and 
skills to contribute right away.
    The only way to address this monumental challenge and support the 
economic recovery is to align education, economic development, 
workforce and business agendas to work in concert and develop the 
talent necessary for success in the global economy.
    As representatives of the manufacturing industry, we think we've 
found a solution that fits the needs of our businesses while working 
within the existing secondary and postsecondary education structure.
    Our solution, called the NAM-Endorsed Manufacturing Skills 
Certification System, is grounded in the basic set of skills identified 
by manufacturers--the employers themselves--as required to work in any 
sector across the manufacturing industry.
    The system is a series of nationally portable, industry-recognized 
credentials based specifically on those employer-identified skills. 
These credentials, and the training required to obtain them, certify 
that an individual possesses the basic skills necessary for a career in 
manufacturing and ensures that they are useful nationwide and across 
multiple manufacturing sectors.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Where our system takes the next step, though, is by organizing, 
aligning and translating those stackable credentials into corresponding 
educational courses that can be integrated into high-school and 
community-college degree programs of study. So, an individual can see 
that if he or she takes the following classes, he or she will have the 
skills to earn a nationally portable, industry-recognized certification 
and be qualified to work in the following jobs at the following 
salaries. We were pleased to have the President of the United States 
highlight our system last summer.
    Our system is integrated into the for-credit side of colleges, so 
even if a student takes only three or four courses, achieves a 
certification and heads into the work force, they have ``banked'' those 
credits. When they return to achieve the next level certification, they 
will be working toward a degree as well.
    This also creates more on and off ramps in education, which 
facilitates individuals' ability to obtain schooling when their 
professional career requires it and also positions them to earn while 
they learn, applying what they learn in class at night on the job the 
next day. For many years, postsecondary success was defined as a 4-year 
degree, when a valid, industry-based credential can provide the 
knowledge and skills for a well-paying job and a solid middle-class 
lifestyle, establishing a strong base with a potential to grow.
    While on its face, the idea of a skills certification system may 
not seem transformational, it is in fact reforming education, defining 
the outcome of success from completion to achievement of an industry 
standard.
    For manufacturers we are applying the same rigors standards we use 
in our facilities to our most important supply chain, our human 
capital.
    However, success is not attained merely by designing a system. It 
must create results. Due to the success of our program in over 20 
states, we were asked last summer to come in and create a ``fast 
track'' system in Minnesota. Employers there needed skilled individuals 
immediately, not a year from now. So partnering with two Minnesota 
colleges, Dunwoody College of Technology and South Central College, we 
developed a program called ``Right Skills Now'' that trains machinists 
in as little as 16 weeks. Early success of the program has led to 
replication in Nevada and Washington. The Institute is also replicating 
the model in production and welding.
    We are helping to ensure that employers hire individuals with the 
Right Skills, and workers enter training programs that ensure they 
complete with the Right Skills for employment.
    But as manufacturers we measure what matters.
    For the past several months we have been working with MAGNET, the 
Northeast Ohio MEP, to track, through their rigorous evaluation 
process, the economic impact, the value of these certifications to 
employers hiring these individuals. Preliminary data is promising. With 
5 companies, it already is showing results for the companies including: 
$250,000 in increased sales; $6,000,000 in investment in plants and 
equipment; and 10 jobs created. In addition, companies avoided the 
potential loss of sales valued at over $2,000,000 because they could 
hire individuals with the right skills, now.
    These economic outcomes are what we need to support and continue 
our Nation's recovery and put individuals back to work.
    In addition to private-sector alignments, we need to look at 
Federal workforce training opportunities that often do not address the 
skills that are in demand by employers. Programs such as the Workforce 
Investment Act need to be focused toward a goal of training workers to 
credentials that are in demand in the private sector. That is why the 
NAM supports S. 1243, the America Works Act, that would provide this 
prioritization.
    For employers, a focus on a nationally portable, industry-
recognized credential system provides a level of quality in potential 
hires that does not exist today, greatly reducing the risk associated 
with hiring new employees. For employees, it ensures that they are 
obtaining the skills in-demand in the workplace and can work in 
multiple sectors, and for government it can ensure that Federal funds 
being used for worker training are used more efficiently.
Conclusion
    Madam Chairman, for many years, postsecondary success was defined 
as a 4-year degree, when a valid, industry-based credential can be the 
gateway to a well-paying job and a solid middle-class career.
    As a nation we need a new strategy for our manufacturing work 
force, grounded in industry standards, with new and renewed cooperation 
with industry, education, economic development, and the public 
workforce investment system.
    It is good for manufacturing and good for the Nation.
    Thank you for the opportunity to testify today. We look forward to 
working with you to build the next generation manufacturing work force.

    Senator Blunt. I need to go vote. Could I ask a couple of 
questions real quickly so I could--thank you for your 
testimony. One is on the skill certification concept that 
you've talked a lot about--did you hear anything in the first 
panel that was troubling for you?
    Ms. McNelly. No, sir. I did not. In fact, we work very 
closely with our Federal agencies in support of that.
    Senator Blunt. And you feel good about--I mean, both panels 
now--and, particularly, the Department of Education--talked 
about the skill certification, and you think that --you're 
comfortable that you're both headed in the same direction in 
terms of what's needed there?
    Ms. McNelly. I think we can always use additional 
leadership on getting to alignment of the skills certifications 
into education pathways. I think there is a reality that we 
face, a challenge in how our Nation's community and technical 
colleges are viewed in terms of success and completion.
    Right now, if somebody completes a program of study but not 
necessarily an associate degree, that could be counted as a 
negative against the college. But if, in fact, we could look to 
industry credentials as an additional metric for success, I 
think that would be a win-win for employers.
    The other thing is, traditionally, job training has sat on 
the not-for-credit side of community colleges. And in our view, 
if industry values it, and it is capstoned with an industry-
based credential, that should, in fact, have academic value to 
allow that student to continue to pursue an associate degree 
program. So it needs to move back into the education pathway as 
well.
    Senator Blunt. OK.
    And, Mr. Nissanka, I think I'm going to have to read your 
answer in the record of the hearing, but I'm going to ask the 
question anyway. What have you been able to do with the 
Missouri Innovation campus idea to link up students before they 
graduate with a job that graduation will prepare them to do?
    And I'm going to have to go, but I will check on the 
answer.
    Thank you, Chairman.
    Senator Klobuchar [presiding]. Thank you very much, Senator 
Blunt.
    Go ahead.
    Mr. Nissanka. Senator, what we are doing is basically 
starting at a high school level, getting students involved in 
these activities on a day-to-day basis. They get to train with 
the company on things that we need done, and then, primarily, 
they get college level credit that can be now applied when they 
go into and enroll on a college level.
    After that, we would basically drive the curriculum 
alongside the requirements of the company. And then we would 
basically have that position there for the individual once they 
graduate from college.
    Senator Klobuchar. Thank you very much.
    Mr. Kill, back in February, I attended the unveiling of 
your annual The State of the Manufacturing Survey in Minnesota. 
There were hundreds of people there. And would you talk a 
little more about this poll, what it's designed to measure, why 
you've chosen to put some resources into it, and really what it 
showed, particularly with executives who are struggling to find 
qualified and skilled workers?
    Mr. Kill. We believe a second part of our role as an MEP 
center is to bring visibility to the kinds of careers----
    Senator Klobuchar. Do you have your--is it on? There you 
go.
    Mr. Kill.--the kinds of careers that manufacturing 
provides. And the greatest way to do that is to bring 
visibility to connect all these different resources. We've done 
the poll 4 years in a row. The participation of manufacturers 
has gone from about 35 percent of the attendees to 65 percent. 
This year, over 1,000 people attended the unveiling of the 
results. And it is really designed to focus on trends, and as 
each year goes on, we can look deeper and deeper into the 
statistics behind it.
    It has been a great enabler of interested parties coming 
together to really address what is becoming the number one 
issue, and that is attracting a new generation of employees to 
manufacturing. And I think the poll has clearly raised that 
visibility and will continue to as we move forward.
    Senator Klobuchar. What do you think--you know, one of the 
things that is helpful is to have you here and several of our 
other witnesses that are on the ground working on this. What do 
you think has been working in Minnesota, your top things in 
terms of--we know we have issues with openings in jobs--but in 
terms of getting workers interested in those jobs and students 
interested in those degrees?
    Mr. Kill. Well, we have to have manufacturers involved 
telling the story, not about what it's like to be a welder, but 
demonstrating the kinds of products that are important to know 
welding for. So when you show the end product to people, the 
participation of young people rises incrementally.
    I spent a lot of years in manufacturing and never thought 
that the public-private collaboration was powerful, and I've 
changed my mind over the last 5 years. And that's what we 
really have to focus on. The communities, the manufacturers, 
the economic development folks, the parents--we have to all do 
our outreach to make sure that people have a choice that they 
base on their passion and interest, and I think manufacturing 
will come out ahead.
    It is really interesting to watch young people when they 
see the kinds of things that go on behind the walls. Our 
community colleges, as you're familiar with, like Alexandria 
Vo-Tech South Central in Mankato, that are in greater Minnesota 
away from the metropolitan area have done phenomenal jobs. It's 
now up to the manufacturers to do their part also to tell the 
story of the kinds of careers they can provide. And I think 
they're starting to realize they have to do that, and they are 
doing that.
    Senator Klobuchar. When I think about it, I think of the 
products that--when I go to these places, high schools--the 
pool ball racker or the robots playing basketball at the first 
robotics--that's one I won't forget. So I think that, at least 
from my perspective, seeing these products and the fruits of 
the labor, I think, gets people pretty excited about the 
career.
    Mr. Nissanka, in your testimony, you talked about outreach 
to other companies to co-locate at your training site and 
participate in the workforce development and apprenticeship 
program. Can you expand on your experience finding interested 
companies and if you've experienced any resistance along the 
way?
    Mr. Nissanka. I think it's on the contrary, Chairwoman. I 
think what we've found is that once we started the program, 
we've had a number of companies that were not in the tech park 
that have come to the program and basically decided that they 
wanted to locate with us, not to just be within the site, but 
also to bring in their training needs right onto the Innovation 
campus.
    Senator Klobuchar. How about other things they could do, 
like donate--companies, if they're interested, donating 
equipment, donating staff, instruction? Do you think that would 
be helpful?
    Mr. Nissanka. What we found is that, you know, everybody 
has a different type of skill that they need, and if we can 
bring all of these under one campus in a location where the 
curriculum ties to what their needs are, companies are willing 
to put their equipment right into that facility alongside with 
the campus and start creating those jobs for the future.
    Senator Klobuchar. Thank you very much.
    Dr. Lambert, one thing that we haven't talked as much about 
that I think is incredibly important--and it's come to the 
national light, finally--I remember going to these hearings of 
the Joint Economic Committee on which I served and looking at 
those unemployment figures and looking at how they were so 
significantly higher for veterans, particularly those that have 
come home from the wars in Iraq and Afghanistan. And it seems 
to me like it should be the opposite.
    Many returning veterans already have technical skills. I 
think their issue--especially National Guard, Reserve, in 
Minnesota--they left jobs, and when they came back, those jobs 
weren't there during the downturn. And I think it's very 
important to look at what we can do to ease the transition for 
our soldiers from the battlefield to community and technical 
colleges.
    Could you talk about anything that Shoreline is doing to 
assist veterans in their education?
    Dr. Lambert. Yes. Thank you, Madam Chair.
    Shoreline Community College is a Center of Excellence for 
veterans. We received a grant from the Department of Education 
to create that center. And what we're finding is it's so 
important to create a wrap-around environment that helps 
support the veteran's transition, because they're coming from 
an environment where they get--a lot of what they do is 
provided for. So what we're learning is we've got to mirror 
that type of environment so that we make that transition easy 
into our post-secondary programs.
    You know, normally, when you come to us, there isn't 
someone there that's going to help you navigate the system 
completely. But for the veterans, that's an expectation. So we 
built that program with inserting a counselor who is 
knowledgeable about veterans' issues, that works directly with 
the veterans.
    We've set up a Veterans Student Center that's completely 
built and geared toward the veterans and the kinds of issues 
that they face on a day-to-day basis--and then trying to 
elevate just the significance--the importance of their 
contributions. I'm also a veteran, so I understand it as a 
veteran. And my father was a veteran before me. So I take this 
very seriously in terms of what we can do to support our vets.
    Senator Klobuchar. Thank you very much.
    Ms. Pfarr, AWS has various certification programs, and you 
talked a lot about certification today. Some are paper, while 
others are performance-based. Could you talk about how this 
certification works and what more needs to be done to ensure 
that we continue to build a strong credentialed workforce?
    Ms. Pfarr. Well, you're absolutely right. Some of our 
credentials are a traditional pen and paper test, while others 
are performance-based, like our AWS Certified Welder Program. 
It is a performance-based. You must prove that you have the 
skill and the ability to weld on a particular process, on a 
particular material.
    We are working with the National Association of 
Manufacturers, with community colleges, with industry to really 
implement these certifications into educational programs so 
that a student graduating from a one-year or two-year program 
also graduates with that industry-recognized credential, with 
that certification. So we're working very closely with our 
partners to implement that.
    I mentioned in my testimony that we have 30,000 people in 
the U.S. today that hold an AWS certification, and we're seeing 
that continue to grow. So we believe that the efforts that are 
already underway are going to help ensure that we have a 
skilled technical workforce moving forward.
    Senator Klobuchar. Thank you very much.
    Ms. McNelly, could you talk a little bit about the question 
I asked earlier when we had our leaders from Commerce and Labor 
and Education up here in terms of this perception of 
manufacturing jobs among young workers and their parents as 
well, and how do we shift the thinking so that people begin to 
see these jobs as advanced, innovative, and high skill, and 
also can lead to further jobs, further degrees?
    Ms. McNelly. I'm happy to do that, and I think this also 
will wrap in support for our transitioning military as well as 
our transitioning adults. And I will say, as Mr. Kill has 
noted, we as manufacturers have not been very good about 
telling our own story. We have been busy making things.
    Therefore, what we now recognize is we, in fact, need to be 
active in the development of education and industry-based 
partnership. So through our Dream It-Do It campaign, a national 
campaign that runs across the country in our certification 
efforts, in 36 states, we are now helping industry to, what I 
would say is, amplify their voice.
    Last week, we were actually at a conference with ACT, whose 
foundational credential, the National Career Readiness 
Certificate, is part of the Right Skills Now program that we 
talked about. And we had a young student on stage who actually, 
as part of the program in Minnesota, had just completed his 
first NIM certification. And I asked him the question, ``So, 
tell me, how did you end up in the program?'' And, hands down, 
it was the influence of his mother. He was there because mom 
said, ``You're going.''
    And I think we need to recognize and respect that next 
generation careers often come from the greatest influences, 
which is family and friends. And through our collective work, 
we need to help parents understand that there are good family 
sustaining, life-time careers that can happen in manufacturing, 
and it's not just about training for a job.
    This question came up with the previous panel as it relates 
to always having the skills necessary to be competitive. Our 
approach in grounding to industry-based standards is to ensure 
that it constantly reflects the immediate requirements in 
welding. It's not about the education program, but about the 
changes in welding technology that then give a benchmark to 
education to constantly update, too. So using that industry-
based standard ensures that the education programs equally stay 
real-time to changes in technology in the work place.
    The other thing that industry-based standards do is--and 
I'll talk to our transitioning military. Right now, it's not 
easy to transition them into jobs because they speak two 
different languages. They speak a military language, and we, as 
business, speak a business language. And what an industry-based 
credential does is neutralize the language differences.
    So for an individual that is, in fact, in the military that 
is performing a welding function, it should be our obligation 
to certify that individual to an AWS standard before they 
transition out, so when they walk into employment, it's not ``I 
had an MOS code,'' but it's ``I had a set of competencies that 
I know you need today.'' So we are actively working with our 
credentialing partners in each branch of the military service 
to accelerate that transition that codify what an individual 
can do.
    The same thing applies for our transitioning workforce who 
may have been in a very low-skilled, rules-based manufacturing 
environment and now needs new skills. If they know health and 
safety, let's not put them through a training at Lee's program 
that reteaches them health and safety. Let's get them the 
technical skills. And the only way to make that transition 
unique to the individual and the education institution is an 
industry standard that clarifies what an individual can do and, 
therefore, what an education partner needs to train to.
    Senator Klobuchar. Very good. I like that Dream It-Do It.
    Ms. McNelly. Yes, we do, too.
    Senator Klobuchar. It's very good. I was thinking when we 
did this event at Dunwoody, the president of Dunwoody took me 
around. And what they kept talking about--and really could tell 
the students are proud of--that they would say the target 
field, which is this beautiful new ball park for the Twins--OK. 
They're not having the best season, but the ball park is so 
beautiful, and everyone's very proud of it.
    And they say it wouldn't have been built without Dunwoody, 
because the height of the construction company that had the 
contract graduated from there. And they had other relations 
with contracts and people that worked on it from their school. 
And just being able to see that product and having something 
like that to look at, I think, is inspiring for students to see 
and understand that people that get these kinds of degrees can 
go on and have really good jobs.
    And I think that's our job as educators, and I think more 
and more I like the points that were made--a business is going 
to have to come up to the front, because now that we have more 
people looking for jobs, and it's harder to fill those jobs, 
they're going to have to play that role as well.
    Would anyone else like to comment on the issue I raised, I 
think, specifically on--anyone that's looked at how Germany 
does it and how we look at our high schools in terms of getting 
kids interested in manufacturing and also in science, 
technology, engineering, and math.
    And let me say one of the things I've heard at these high 
schools is they want to make clear that this track is not just 
one single track. It can go to a community college, it can go 
on to engineering, and that the kids that are interested are 
mixed in together to a certain extent when they're actually 
doing these projects together, because that's the team approach 
that happens when you're actually on the floor.
    Correct me if I'm wrong, because I'm not a manufacturer. 
But you need people that can run the stuff, make the stuff, fix 
the stuff, with all varying degrees of abilities. So that 
doesn't necessarily mean while kids might be taking AP classes 
for one thing in this, when they're actually doing these 
projects and making things, they can work together and sending 
that message that it can turn into different tracks and the 
tracks can change.
    So that's what I would love to hear from you guys about in 
terms of how you think we can do that more at the high school 
level. And these things are a little more expensive, you know, 
because they've got to get the equipment, and they can also 
then maybe go over--bus over to the community college and do it 
there. But any thoughts on how that works or what you've seen 
in your states?
    Mr. Kill?
    Mr. Kill. Madam Chair, a new high school that's going up in 
a community of about 15,000--and, initially, a large amount of 
space was going to be dedicated to the arts, because the town 
said we don't have a theater. The manufacturers working with 
the community college--and the city is Alexandria--got a little 
vocal.
    And now as you walk into the front door, there will be 
advanced manufacturing on display. Manufacturers have committed 
to keeping it with the latest equipment. Haas has also joined 
in making sure that the latest equipment is there. I think this 
is how you showcase and influence those decisionmakers--the 
family.
    I'd like to make another point about the Right Skills Now 
program, because I was a late comer to it, though I heard the 
announcement when Ms. McNelly was in Minnesota along with other 
people. Some early statistics--one of the campuses that closed 
their manufacturing route has reopened it under the Right 
Skills Now, with 19 enrollees ranging from 18 to 61 years of 
age, so it's not just tapping new people.
    Senator Klobuchar. That's a good point to make.
    The parents may not have played as much a role in the 61-
year-old's decision.
    Mr. Kill. So the average age is 30 years of age, and only 
half the people reside within 20 miles of the community. So 
this program--the great connection between the college, a 
number of other organizations from outside of our state, and 
the manufacturers, I think, is proving that there's some grass 
roots ways to attract a broad range of students from young to 
old.
    Mr. Nissanka. And, Madam Chair, I'd like to add to what Mr. 
Kill was actually saying. One of the things that we've seen in 
industry is that we've got to now tie curriculums that are 
being taught even through high school and through college to 
what the requirements are in industry. Training has become the 
biggest issue for me to put up a manufacturing plant and bring 
those individuals and be very productive and competitive.
    So one of the biggest things that we have been doing with 
the University of Central Missouri is we want to change the 
curriculum that they are teaching. We have got to align the 
talents of the individuals with what the industry needs. And 
what we are doing is we are writing the curriculum around the 
specific jobs, and then we are tailoring that with the right 
individual that wants to do that job.
    And what we've seen is--we've seen a significant amount of 
reaction from students who want to be in the green tech 
industry who have not had exposure to these specific jobs that 
we are looking for and are interested in it. Today, a lot of 
these kids--my daughter, particularly, learns from looking at 
the Internet, you know. When she has a----
    Senator Klobuchar. Really?
    Mr. Nissanka.--research paper, guess what? If she has a 
research paper, she's on there going through everything on the 
Net to get all the facts that she needs. So I think what we 
have to do is enable the students and give them as much of 
these experiences ahead of time so that they can actually 
decide where they want to be when they graduate.
    Senator Klobuchar. Thank you. Very good. I have a daughter 
who is 16, so I could completely relate. Her most disastrous 
moment during my campaign in 2005 was when--a true story--I was 
asked on a radio show what--if I knew what LOL meant, you know, 
laugh out loud. And I didn't know what it meant, and she just 
said, ``Mom, that was the most embarrassing thing that's ever 
happened to our family.''
    [Laughter.]
    Senator Klobuchar. OK. Dr. Lambert.
    Dr. Lambert. Yes. Madam Chair, last year, in working with 
Boeing and some of the other aerospace companies in our area, 
we worked on creating a Career and Job Fair. And we held this 
job fair up in the north end of King County-South Snohomish, 
and we bused in students from the local high school as well as 
folks--and the response was overwhelming.
    So we know that one of the things we have to do is work 
together and start to build an awareness campaign that is more 
local in its focus and highlights certain sectors. So I think 
that shows some promising signs.
    Another point I want to illustrate is this piece about 
faculty. Faculty are so critical to the success of the 
students. But one of the things that's challenging us around 
the faculty is making sure they stay current to the latest 
technology.
    Senator Klobuchar. Yes, yes.
    Dr. Lambert. And so I don't want that to get lost, because 
the challenge has multiple layers to it, not just reaching into 
the high schools, the middle schools, or working with parents. 
It's faculty development. It's equipment. It's having the right 
kind of funding. It's making sure we're connected to the 
employer networks. So we're working on all these dimensions 
through the National Coalition of Certification Centers, as 
well as with the Manufacturing Institute as part of our 
partnerships.
    Senator Klobuchar. Very good. One thing--when you were 
talking about the veterans before, one of our job fairs that 
our companies did in Minnesota, which is incredible--is they 
sent people to the bases in Kuwait while they were still over 
there. And I'm sure other states have done that. I won't act 
like we're the only one.
    But I do think we're the only one that had a 13,000-steak 
dinner--I'm not kidding--by our local restaurants that the 
families ate at home, the families of the troops, at the same 
time the troops ate them, and they talked via a video. It was 
an amazing sight.
    But part of this was these employers are now--big major 
employers are now sending people--because they do need 
workers--directly to those bases to talk to them about their 
jobs, so that when they come home, they are going to have a 
contact and a potential job. So it's a side thing of what you 
talked about before, but integrates your job fair idea. So very 
good.
    Did you want to--Ms. Pfarr?
    Ms. Pfarr. Yes, I would like to--thank you. I just wanted 
to say that that's really the purpose or the goal of our new 
Careers in Welding Trailer--is to get students, young people, 
parents in rural communities and communities who may not be 
exposed to manufacturing and welding careers--get this trailer 
with virtual simulators out where they have the opportunity to 
view it, to take a video game type of--piece of equipment and 
allow kids to try welding in an environment that's very 
familiar to them.
    It really--it's a computer. But it looks like it's a real 
welder. They're only virtually welding. And it gives them a 
score at the end, and they very excited about that. It's 
something that they are used to and comfortable with.
    We have engaged a lot of kids into thinking about a career 
in welding who had never even been exposed to welding before. 
And so that's really--like I said, the goal of this trailer is 
just to get out there and inform the masses, if you will.
    Senator Klobuchar. Incredibly smart. Yes, I had this kid in 
one of the high schools--I think Apple Valley--that was showing 
me on his screen this car he had designed, and he would not 
stop. I mean, he just kept going--``Now you've got to see this 
other part. This is really complicated''--and kept showing me 
the new iterations of what he had done with the car. So doing 
that, like you said, in a space that they are comfortable with, 
I think, makes it more exciting as well in high school--and 
getting the teachers that can do that. Very good.
    Do you want to end here, Ms. McNelly?
    Ms. McNelly. I would love to. And, actually, I'm going to 
bring up something that didn't quite get talked about but did 
indirectly, which is--the panel before us actually represented 
four different Federal agencies, four different funding 
streams. And the individuals you see at the table--each tap 
into those in different ways, shapes, and forms.
    And what is--though we can sit at a table together and say 
we can do this collectively, sometimes partnership is 
difficult, because each of those funding streams have different 
accountability, which means how Dr. Lambert can use those 
resources within his labs to train and certify individuals may 
not necessarily match up to the bureaucracy of reporting that 
is associated with the Workforce Investment Act or the Carl 
Perkins Act.
    And I do think that we have opportunity, and we are at a 
unique time in this nation to look at the impact that that has 
in the end on the employers that sit at this table and the 
workers that we're trying to move back into good jobs. And from 
our perspective, 1243 and the America Works Act really puts our 
businesses and our individuals in the forefront of what we as a 
Nation need to accomplish.
    So we hope that you take serious consideration in looking 
at that, because all of us right now have to figure out a 
difficult way around these opportunities that are huge Federal 
investments, be it within the Manufacturing Extension 
Partnership and what we're investing in community colleges and 
access to workers through the Workforce Investment Act. And 
partnership isn't easy, because they all look for 
accountability differently.
    So we appreciate the opportunity to be here today and to 
give voice to this very important partnership that we continue 
to collectively push forward on.
    Senator Klobuchar. Well, very good. And I appreciated how 
you all talked about working together with our government 
agencies in a positive way. I know there's always problems and 
frustrations and rules, as Senator Ayotte has pointed out.
    But I also think that we have to work on this together, 
because there is going to--this is so incredibly important for 
the future of our country and for making things in America and 
nation-building in our own Nation and this idea that we're 
going to make stuff again and invent things and export to the 
world. So as we're dealing with these mega issues, which are 
going to start, believe me, by the end of the year with the 
budget, as well as into next year with tax reform, we can't 
have infighting. We're going to have to work as a team, those 
of us who believe in this job training and education as part of 
moving forward.
    So I wanted to thank all of you for being here. We had some 
great senators here to hear what you had to say, and we had 
some really good staff here as well. I wanted to specifically 
thank my staff who put this hearing together. Kate Geldaker--it 
is her birthday. Right, Kate? We don't usually sing Happy 
Birthday. Elizabeth Frosch, who does our education work and did 
a great job on this, and Paul Zygmunt, who does our business 
work and is back at the office right now in a meeting--but I 
want to thank them and all the staff on the Commerce Committee 
as well, Senator Blunt's staff and others that worked on 
putting this together.
    Thank you very much, and we will keep the record open for 2 
weeks. And the hearing is adjourned.
    Thank you.
    [Whereupon, at 12 noon, the hearing was adjourned.]
                            A P P E N D I X

    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                           Hon. Martha Kanter
    Question. Can you explain why the Department of Education has 
reduced funding to the McNair Postbaccalaureate Achievement program, 
which supports low-income, first-generation and otherwise 
underrepresented students in obtaining doctoral degrees?
    Answer. Congress provides one appropriation for all the TRIO 
programs, including the McNair Postbaccalaureate Achievement (McNair) 
program. Each year the Department distributes the appropriation to each 
of the TRIO programs to provide the most benefits to students and 
taxpayers. This year, the Department reallocated $10 million from the 
McNair program to the Upward Bound Math and Science (UBMS) program to 
support efforts to improve science, technology, engineering, and 
mathematics education and to help the Nation advance toward meeting the 
President's goal of leading the world in college attainment by 2020. By 
moving these funds into UBMS, we can serve an additional 900 low-
income, first generation students though the TRIO programs without a 
single additional dollar of Federal money. Total funding for the TRIO 
programs remains the same, and we remain committed to all of the TRIO 
programs. Even with the funding change, we still expect to support over 
150 McNair projects in Fiscal Year 2012.

                                  <all>

</pre></body></html>
